<html>
<title> - OVERSIGHT FIELD HEARING ON OIL AND GAS DEVELOPMENT: IMPACTS ON AIR POLLUTION AND SACRED SITES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  OIL AND GAS DEVELOPMENT: IMPACTS ON AIR POLLUTION AND SACRED SITES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            Monday, April 15, 2019, in Santa Fe, New Mexico

                               __________

                           Serial No. 116-12

                               __________

       Printed for the use of the Committee on Natural Resources


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
 
 
Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-076 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11617e517264626579747d613f727e7c3f">[email&#160;protected]</a>     
 
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                              ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      ALAN S. LOWENTHAL, CA, Chair
              PAUL A. GOSAR, AZ, Ranking Republican Member

Mike Levin, CA                       Doug Lamborn, CO
Joe Cunningham, SC                   Bruce Westerman, AR
A. Donald McEachin, VA               Garret Graves, LA
Diana DeGette, CO                    Liz Cheney, WY
Anthony G. Brown, MD                 Kevin Hern, OK
Jared Huffman, CA                    Rob Bishop, UT, ex officio
Matt Cartwright, PA
Raul M. Grijalva, AZ, ex officio

                               ------                                
                               
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, April 15, 2019...........................     1

Statement of Members:
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Chavarria, Hon. Michael J., Vice Chairman, All Pueblo Council 
      of Governors; Governor Santa Clara Pueblo, Albuquerque, New 
      Mexico.....................................................    22
        Prepared statement of....................................    24
    Grisham, Hon. Michelle Lujan, Governor of New Mexico, Santa 
      Fe, New Mexico.............................................     4
        Prepared statement of....................................     8
    Jimenez, James, Executive Director, New Mexico Voices for 
      Children, Albuquerque, New Mexico..........................    86
        Prepared statement of....................................    88
    Lizer, Hon. Myron, Vice President, Navajo Nation, Window 
      Rock, Arizona..............................................    33
        Prepared statement of....................................    35
    Lyon, David, Ph.D., Scientist, Environmental Defense Fund, 
      Austin, Texas..............................................    81
        Prepared statement of....................................    82
    Nez, Rickie, Chairman, Resources and Development Committee, 
      Navajo Nation Council, Window Rock, Arizona................    37
        Prepared statement of....................................    38
    O'Neill, Craig, Global Business Development Manager, FLIR 
      Systems, Arlington, Virginia...............................    90
        Prepared statement of....................................    91
    Pinto, Kendra, Member of Counselor Chapter, Navajo Nation, 
      Nageezi, New Mexico........................................    63
        Prepared statement of....................................    65
    Propst, Sarah Cottrell, Cabinet Secretary, New Mexico Energy, 
      Minerals, and Natural Resources Department, Santa Fe, New 
      Mexico.....................................................    48
        Prepared statement of....................................    49
        Questions submitted for the record.......................    51
    Reed, Paul, Preservation Archaeologist, Archaeology 
      Southwest, Tucson, Arizona.................................    57
        Prepared statement of....................................    58
    Schreiber, Don, Rancher, Rio Arriba County, New Mexico.......    52
        Prepared statement of....................................    53
    Vallo, Hon. Brian D., Governor, Pueblo of Acoma, Acoma, New 
      Mexico.....................................................    27
        Prepared statement of....................................    29
    Webber, Barbara, Executive Director, Health Action New 
      Mexico, Albuquerque, New Mexico............................    76
        Prepared statement of....................................    78

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................   116

    All Pueblo Council of Governors, April 3, 2019 Letter from J. 
      Michael Chavarria to Tara Sweeny, DOI......................   103
    Environmental Defense Fund, David Lyon, Ph.D., Methane 
      emissions from liquids unloading and their implications for 
      quantifying and mitigating emissions.......................   106
    Environmental Defense Fund--U.S. Methane Studies (List)......   108
    Solstice Project, Anna Sofaer, President, et al., Testimony 
      on Protection of Chaco.....................................   111
    WildEarth Guardians, Jeremy Nichols, Climate and Energy 
      Program Director, Testimony for the Record.................   114

    Submission for the Record by Representative Lujan

        Multicultural Alliance for a Safe Environment--Uranium 
          Impacts (Figures), April 13, 2019......................    14
                                     


 
  OVERSIGHT FIELD HEARING ON OIL AND GAS DEVELOPMENT: IMPACTS ON AIR 
                       POLLUTION AND SACRED SITES

                              ----------                              


                         Monday, April 15, 2019

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                          Santa Fe, New Mexico

                              ----------                              

    The Committee met, pursuant to notice, at 10 a.m., at the 
New Mexico State Legislature, Room 307, 490 Old Santa Fe Trail, 
Santa Fe, New Mexico, Hon. Alan S. Lowenthal presiding.
    Present: Representatives Lowenthal and Grijalva.
    Also present: Representatives Haaland and Lujan.

    Mr. Lowenthal. Good morning, everyone. The Subcommittee on 
Energy and Mineral Resources will come to order.
    I would like to welcome everyone to our first Subcommittee 
field hearing in the 116th Congress, and I would like to thank 
the Governor and her great team for all their help, and House 
Speaker Brian Egolf and his team for welcoming us to the state 
of New Mexico, to the great state of New Mexico, and graciously 
allowing us to use their committee room, and for all their help 
in making today's very important hearing a reality.
    I would like to thank everyone who helped us organize and 
who participated in the events that we have already had over 
the weekend. We had full events over the weekend. They were 
extremely enlightening and allowed us to hear a lot of 
additional voices regarding the issues that are facing this 
area.
    I need to get through a little parliamentary housekeeping, 
so please bear with me for a second or two.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member or their designee. I am asking unanimous consent that 
all other Members' opening statements be made part of the 
hearing record if they are submitted to the Subcommittee Clerk 
by 5 p.m. today.
    Hearing no objection, so ordered.
    I am also going to ask for unanimous consent for 
Congressman Lujan and Congresswoman Haaland to sit on the dais 
and participate in this morning's hearing.
    Hearing no objection, so ordered.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal The Subcommittee is meeting today to hear 
testimony on the impacts of oil and gas development on air 
quality and sacred sites. Across the West, the availability of 
oil and gas has been both a blessing and a curse. These 
resources are a major component of the economy of many parts of 
the country, and in some places very, very dramatically, such 
as in the Permian Basin in southeastern New Mexico.
    There is no question that the oil and gas industry provides 
jobs, along with a huge portion of the energy and products that 
we still use in our daily lives. But these benefits come with 
significant consequences to our air, our water, our climate, 
our health, wild natural places, and sacred sites.
    Today, the Subcommittee is holding the first in what will 
be a series of hearings that will examine the impacts of oil 
and gas development and serve as a platform to hear from local 
voices, state officials, tribal members, and experts. Honestly, 
I cannot think of a better place to hold our first field 
hearing than here in New Mexico.
    New Mexico shows the challenges that exist when we are 
trying to balance vast oil and gas resources with protecting 
the public's health, the environment, and cultural resources.
    Over the last decade, due in large part to this state, U.S. 
oil production has more than doubled, and we are now producing 
more oil and natural gas than ever before.
    However, this has also brought with it a record amount of 
methane emissions and other air pollutants that harm the health 
of local citizens, that warm our climate, and waste a valuable 
public resource.
    Methane is a potent greenhouse gas that leads to harmful 
ground-level ozone, and when it leaks, it brings with it other 
volatile organic compounds and hazardous air pollutants.
    According to the Centers for Disease Control and 
Prevention, ground-level ozone leads to lung and throat 
irritation, breathing difficulties and, more importantly, 
aggravation of asthma and increased risk of heart and lung 
disease.
    Just yesterday, members of our Committee saw these leaks 
firsthand with infrared cameras. Last week, new data was 
released suggesting that methane emissions in New Mexico are 
five times higher than EPA estimates. Despite this, the Trump 
administration appears not to care and is weakening regulations 
from both the Bureau of Land Management, or the BLM, and the 
Environmental Protection Agency, also known as EPA, that would 
have cracked down on methane pollution.
    While the Federal Government refuses to do its job to hold 
companies accountable, state officials, such as Governor 
Michelle Lujan Grisham, are taking the lead, coming up with new 
ways to reduce the harmful effects of oil and gas development. 
The governor has also led New Mexico to join my own state of 
California in committing to a 100 percent carbon-free electric 
grid.
    [Applause.]
    Mr. Lowenthal. The only other state to do this is the state 
of Hawaii, and I am sure that we are going to hold a field 
hearing in the future also in Hawaii.
    [Laughter.]
    Mr. Lowenthal. Is that not the right thing to do?
    [Laughter.]
    Mr. Lowenthal. I really don't think you could ask for three 
more beautiful states to lead the Nation in making our clean 
energy future a reality. And I just want to say to Chairman 
Grijalva that if he wants to make sure I get to all of them, 
then I will sacrifice for my Committee and for the health of 
the Nation.
    [Laughter.]
    Mr. Lowenthal. Closer to here, one of the most beautiful 
parts of an already beautiful state, and the one that we as a 
Committee had the honor of visiting yesterday, is Chaco Canyon. 
Unfortunately, it is also one of the areas most under threat by 
oil and gas development. Chaco Canyon and the Greater Chaco 
Landscape is a sacred place for tribes throughout the 
Southwest, and along with Mesa Verde and Bears Ears, these 
areas are considered footprints by ancestors of the modern 
Pueblo people. These landscapes were once home to ancestral 
Pueblo people, and to this day it is a special gathering place 
for tribal communities.
    BLM has already proposed oil and gas leasing in close 
proximity to Chaco Canyon on multiple occasions, risking the 
numerous Chacoan sites that exist outside of the park's 
official boundaries. In concert with tribes and stakeholders, 
last week the New Mexico congressional delegation introduced 
legislation to permanently protect the Federal lands around 
this sacred area.
    [Applause.]
    Mr. Lowenthal. And I am proud to be a co-sponsor and to 
support this legislation.
    It is crystal clear that where oil and gas development 
occurs, robust state and Federal actions are needed to protect 
the public's health and the places and landscapes that the 
people who live there value.

    [The prepared statement of Mr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, Chair, Subcommittee 
                    on Energy and Mineral Resources
    The Subcommittee is meeting today to hear testimony on the impacts 
of oil and gas development on air quality and sacred sites. Across the 
West, the availability of oil and gas has been both a blessing and a 
curse. These resources are a major component of the economy of many 
parts of this country, in some places very dramatically, such as the 
Permian basin in southeastern New Mexico.
    There is no question that the oil and gas industry provides jobs 
along with a huge portion of the energy and products that we still use 
in our daily lives. But these benefits also come with significant 
consequences to our air, our water, the climate, our health, wild 
natural places, and sacred sites.
    Today, the Subcommittee is holding the first in what will be a 
series of hearings that will examine the impacts of oil and gas 
development and serve as a platform to hear from local voices, state 
officials, tribal members, and experts. Honestly, I can't think of a 
better place to hold our first hearing in this series than New Mexico.
    New Mexico shows the challenges that exist when balancing vast oil 
and gas resources with protecting public health, the environment, and 
cultural resources.
    Over the last decade, due in large part to this state, U.S. oil 
production has more than doubled, and we are now producing more oil and 
natural gas than ever before.
    However, this has brought with it a record amount of methane 
emissions and other air pollutants that harm the health of local 
citizens, warm our climate, and waste a valuable public resource.
    Methane is a potent greenhouse gas that leads to harmful ground-
level ozone, and when it leaks it brings with it other volatile organic 
compounds and hazardous air pollutants.
    According to the Centers for Disease Control and Prevention, 
ground-level ozone leads to lung and throat irritation, breathing 
difficulties, aggravation of asthma, and increased risk of heart and 
lung disease.
    Just yesterday, members of the Committee saw these leaks firsthand 
with infrared cameras. Last week, new data was released suggesting that 
methane emissions in New Mexico are five times higher than EPA 
estimates. Despite this, the Trump administration appears not to care, 
and is weakening regulations from both the Bureau of Land Management 
and Environmental Protection Agency that would have cracked down on 
methane pollution.
    While the Federal Government refuses to do its job to hold 
companies accountable, state officials such as Governor Michelle Lujan 
Grisham are taking the lead, coming up with new ways to reduce the 
harmful effects of oil and gas development. The Governor has also led 
New Mexico to join my own state of California in committing to a 100 
percent carbon-free electric grid. The only other state to do that is 
Hawaii, so I feel like our next field hearing should probably be there.
    I really don't think you could ask for three more beautiful states 
to lead the Nation in making our clean energy future a reality, and I 
just want to say to Chairman Grijalva that if he wants me to make sure 
I get to all of them, I will make that sacrifice for the Committee.
    Closer to here, one of the most beautiful parts of an already 
beautiful state, and one that we had the honor of visiting yesterday, 
is Chaco Canyon. Unfortunately, it is also one of the areas most under 
threat by oil and gas development. Chaco Canyon and the Greater Chaco 
Landscape is a sacred place for tribes throughout the Southwest, and 
along with Mesa Verda and Bears Ears, these areas are considered the 
``footprints of ancestors'' by modern Pueblo nations. This landscape 
was once home to thousands of Ancestral Puebloans and to this day is a 
special gathering place for tribal communities.
    The BLM has already proposed oil and gas leasing in close proximity 
to Chaco Canyon multiple times, risking the numerous Chacoan sites that 
exist outside the Park's official boundaries. In concert with tribes 
and stakeholders, last week the New Mexico congressional delegation 
introduced legislation to permanently protect the Federal lands around 
this sacred area, and I am proud to co-sponsor and support this 
legislation.
    It's crystal clear that where oil and gas development occurs, 
robust state and Federal actions are needed to protect people's health 
and the places and landscapes they value.

                                 ______
                                 

    Mr. Lowenthal. With that, I would now like to introduce our 
first witness. We are honored to have here the governor of the 
great state of New Mexico, the Honorable Michelle Lujan 
Grisham.
    [Applause.]
    Mr. Lowenthal. I want to thank you for taking time out of 
your schedule to appear here for us this morning. You are now 
recognized to testify.

 STATEMENT OF THE HON. MICHELLE LUJAN GRISHAM, GOVERNOR OF NEW 
                  MEXICO, SANTA FE, NEW MEXICO

    Governor Lujan Grisham. Thank you, Chairman. While not 
actually a part of my official remarks, it is lovely to see my 
colleagues in our capital, and we are all, as you can tell from 
this audience, delighted related to the work that you are doing 
in our state and related states. So, thank you, and it is 
lovely to see you.
    For the folks here, Chairman Lowenthal and I were elected 
in the same year, so we are part of that same freshman class. 
It is good to see you, sir.
    Chairman Lowenthal, Chairman Grijalva, and Vice Chair 
Haaland, I am very grateful for the opportunity to address you 
this morning. As you know, I am Michelle Lujan Grisham, and I 
am the governor of the great state--and I appreciate that we 
just get to keep saying that--of New Mexico.
    [Laughter.]
    Governor Lujan Grisham. I am honored that our state has the 
privilege to host you here today. I want to thank you for 
scheduling the hearing in Santa Fe.
    New Mexicans are an engaged people, as you know. We want to 
take part in our government, and we want to work with our 
representatives. That is why this visit and the topic of this 
field hearing is so meaningful not only to me but to so many of 
my constituents, and we are grateful.
    I would like to speak to you today about issues that have 
been at the top of my agenda since I took office in January and 
are likely to remain there for the duration of my time as 
governor, our collective public health and what we can do and 
have already done as an administration to address a changing 
climate to protect vulnerable populations and essential sacred 
sites, and to establish the groundwork for a sustainable, 
livable, healthy future for our grandchildren and their 
grandchildren.
    Our environment in New Mexico is both our greatest resource 
and our legacy. We find ourselves at a crossroads, one where we 
must, as a state and as a Nation, choose not the path of least 
resistance. We must work diligently to ensure future 
generations of New Mexicans and Americans are able to enjoy the 
great and tangible wealth of our natural resources, clear 
skies, clean air, the full God-given bounty of the outdoors.
    I would like to talk to you today about the pressing and 
consistent need to address the impacts of emissions, in 
particular over the course of the most recent decade of 
expansion here in New Mexico, and I would like to share some of 
the actions my administration has taken in our first few 
months.
    During my first month in office, my third executive order, 
Executive Order 2019-003, enshrined the overwhelming body of 
climate science into New Mexico's DNA. We joined the U.S. 
Climate Alliance, fully embracing the benchmarks set within the 
2015 Paris Agreement, aligning our state with others across the 
United States that have committed to a climate-conscious future 
irrespective of the Federal mindset.
    [Applause.]
    Governor Lujan Grisham. Indeed, under my administration, we 
are moving rapidly to protect people, natural resources, and 
our cultural heritage.
    New Mexico has leapt to the front of the nationwide pack in 
mitigating climate impacts. In addition to the executive order, 
which establishes aggressive statewide benchmarks for 
greenhouse gas emissions, I signed transformational energy 
legislation into law last month, landmark policy that will 
provide for 100 percent carbon-free energy use by our utility 
companies in the coming decades.
    I also signed important bipartisan legislation that will 
establish a rigorous new fee schedule on oil and gas operations 
that will help us modernize our regulatory efforts.
    But to achieve statewide benchmarks, science directs our 
focus to methane emissions. And New Mexico has an important 
role to play on this front.
    Methane, as you know, is a potent greenhouse gas with a 20-
year global warming potential, more than 84 times greater than 
that of carbon dioxide, according to the Intergovernmental 
Panel on Climate Change. Nearly one-third of the methane 
emissions in the United States come from oil production and the 
production, transmission, and distribution of natural gas.
    In 2014, scientists from NASA and the University of 
Michigan discovered the most concentrated plume of methane 
pollution anywhere in the country over the San Juan Basin in 
northwest New Mexico. Further research from NASA's Jet 
Propulsion Laboratory and the National Oceanic and Atmospheric 
Administration has shown that the vast majority of this methane 
pollution is, in fact, attributable to oil and gas development.
    The combination of technological advances in horizontal 
drilling and hydraulic fracturing has contributed to increases 
in crude oil and natural gas production in the United States. 
Today, New Mexico ranks as the country's third-largest oil-
producing state and the seventh-largest gas producing state.
    The oil and gas regions of the state include the 
aforementioned San Juan Basin in the northwest corner and the 
Permian Basin in the southwest corner. All throughout New 
Mexico, miles upon miles of gathering pipeline carry methane-
rich products from the San Juan Basin in the northwest and 
Permian Basin in the southwest to compressor stations and gas 
plants.
    Methane emissions occur through venting and unintentional 
equipment leaks. Equipment design, operational practices, and 
well completions all contribute to venting. Small leaks or 
significant releases can also occur in all parts of the 
infrastructure. Methane emissions are not visible to the naked 
eye, so small leaks or significant releases can remain 
uncorrected for days, weeks, months, and beyond.
    The methane emissions from the state's oil and natural gas 
wells, compressor stations and gas plants not only contribute 
to climate change but impact regional air quality. In the oil 
and natural gas centric regions of New Mexico, ambient air 
concentrations of ozone are approaching unhealthy levels. High 
levels of ozone can cause breathing difficulties, especially in 
children, the elderly, and those who regularly work and play 
outdoors. Long-term exposure to ozone is also likely to cause 
the development of asthma and permanent lung damage in 
children.
    Beyond the climate and ozone implications, methane 
emissions represent lost revenues to the state. Methane is the 
main component of natural gas, a commodity export of the state. 
Although our state agencies are still working to determine how 
much is recoverable, the natural gas industry loses millions 
upon millions each year due to venting, flaring and leaks, 
according to the best scientific estimates and industry's self-
reported data. These are revenues that could be put toward any 
number of remediation efforts, not to mention other central 
investments like early childhood education.
    There are proven, cost-effective, and innovative 
technologies that, when supplemented with better work 
practices, can remediate as much as half of these methane 
losses. Under my executive order, I directed the co-chairs of 
the new Climate Change Task Force to develop a statewide, 
enforceable regulatory framework to secure reductions in oil-
and-gas sector methane emissions and to prevent waste from new 
and existing sources. They will make their first 
recommendations to me this fall.
    Further, the State Environment Department has begun regular 
inspections of the oil and natural gas industry to identify 
methane leaks. These air quality and waste inspections, spread 
across the state, will assist both our state agencies as they 
establish baseline compliance data with existing regulations 
and allow them to focus on developing new incentives and 
adopting new technologies to further reduce emissions while 
providing revenues to the state.
    As we launch this work of reducing and recovering 
emissions, New Mexico is benchmarking its existing oil and 
natural gas regulations related to air emissions and waste 
using a cross-sectional stakeholder group convened by the State 
Review of Oil and Natural Gas Environmental Regulations, or 
STRONGER. This review group, other government entities, 
environment NGOs, and the industry itself will evaluate the 
state's oil and natural gas regulations. The STRONGER review 
team will write a report and identify both strengths that merit 
special recognition and potential regulatory gaps. The review 
team will then develop recommendations to address the gaps and 
identify pathways to program improvement. The final report of 
New Mexico's oil and natural gas regulations is due to the 
Climate Change Task Force co-chairs in August 2019.
    And while these efforts are ongoing, the Climate Change 
Task Force will be convening public stakeholder meetings around 
New Mexico this summer to collaborate in the development of a 
regulatory framework for methane reductions. These public 
meetings will provide a venue for critical ideas and feedback 
on the essential aspects of air emission and waste regulations, 
inclusion of regulatory standards, technology, work practices, 
monitoring, record keeping, reporting and more.
    In addition, our Environment Department last month launched 
an interactive oil and natural gas methane map. This GIS tool 
is updated monthly, and shares data related to methane 
emissions with the stakeholder community and the public. The 
map identifies every oil and natural gas well in the state, 
begins to provide emission estimates, and shares ambient 
methane data. As we develop data layers for mapping tools, we 
will add them to the map to ensure transparency in our 
progress. This includes identifying oil and natural gas 
companies that exceed regulatory requirements while identifying 
those with compliance issues.
    Aside from the long- and short-term public health concerns 
caused by oil and gas emissions, there is a cultural impact to 
New Mexicans and tribal communities that live here. Since the 
year 800, ancestral Puebloan peoples have lived on the Greater 
Chaco landscape. Today, this region is home to sites of sacred 
cultural practice that fortify our modern Pueblo cultures. This 
is why the chairman of the All Pueblo Council of Governors has 
described Chaco Canyon and landscape as the heart of Pueblo 
culture. We must protect this region, a UNESCO World Heritage 
Site, with the same vigor as we protect the air we breathe. It 
is as important to who we are as New Mexicans as our most basic 
natural resources.
    For scientific and cultural reasons, for the protection of 
public health and our environment, I intend to lead a New 
Mexico where we take our environmental destiny into our own 
hands. Indeed, in many ways we already have. The work is just 
beginning. There is much more to do, and we are laboring under 
a Federal Government that has failed us in a regulatory sense 
and in the omission of vital leadership. New Mexico, meanwhile, 
has seized and will continue to seize the opportunity to reduce 
pollution that threatens human health and looms as an 
unprecedented humanitarian crisis within this lifetime.
    We have every opportunity now to protect our people, our 
land, our water, and all our resources. We have the strength, 
and we have an understanding of the situation's urgency. As a 
state with great mineral resources, as well as limitless 
potential for renewable energy production, New Mexico can serve 
as an incredible global example of how a united people can 
protect themselves and provide for their collective future.
    I thank you for hearing me, and I will now stand for 
questions. Thank you.

    [The prepared statement of Governor Lujan Grisham follows:]
 Prepared Statement of Michelle Lujan Grisham, Governor, State of New 
                                 Mexico
    Chairman Grijalva, Vice Chair Haaland and members of the Committee, 
I'm very grateful for the opportunity to address you this morning. And 
I want to thank you, Mr. Chairman, for scheduling this hearing in Santa 
Fe. New Mexicans are an engaged people, as you know. We want to take 
part in our government; we want to work with our representatives. 
That's why this visit and the topic of this field hearing is so 
meaningful, not only to me but to so many of my constituents, and I 
thank you.
    Our environment in New Mexico--as in your home state, Mr. 
Chairman--is both our greatest resource and our legacy. We find 
ourselves at a crossroads, one where we must, as a state and as a 
Nation, choose not the path of least resistance. We must work 
diligently to ensure future generations of New Mexicans and Americans 
are able to enjoy the great intangible wealth of our natural resources. 
I'd like to talk to you today about the pressing and consistent need to 
address the impacts of emissions, in particular over the course of the 
most recent decade of expansion here in New Mexico, and I'd like to 
share some of the actions my administration has taken in our few first 
months.
    During my first month in office, my third executive order, 
Executive Order 2019-003, acknowledged the overwhelming body of climate 
science; New Mexico became the 18th state to join the U.S. Climate 
Alliance. Through this action, New Mexico fully embraced the benchmarks 
set within the 2015 Paris Agreement, aligning my state with others 
across the United States that have committed to a climate-conscious 
future--irrespective of the Federal mindset.
    Indeed, under my administration, we are moving rapidly to protect 
people, natural resources and our cultural heritage.
    New Mexico has leapt to the front of the nationwide pack in 
mitigating climate impacts. In addition to the executive order, which 
establishes aggressive statewide benchmarks for greenhouse gas 
emissions, I signed transformational energy legislation into law last 
month, landmark policy that will provide for 100 percent carbon-free 
energy use by our utility companies in the coming decades.
    But to achieve statewide benchmarks, science directs our focus to 
methane emissions. And New Mexico has an important role to play on this 
front.
    Methane is a potent greenhouse gas with a 20-year global warming 
potential more than 84 times that of carbon dioxide, according to the 
Intergovernmental Panel on Climate Change. Nearly one-third of the 
methane emissions in the United States come from oil production and the 
production, transmission and distribution of natural gas.
    In 2014, scientists from NASA and the University of Michigan 
discovered the most concentrated plume of methane pollution anywhere in 
the country over the San Juan Basin in northwest New Mexico. Further 
research from NASA's Jet Propulsion Laboratory and the National Oceanic 
and Atmospheric Administration has shown that the vast majority of this 
methane pollution is attributable to oil and gas development.
    The combination of technological advances in horizontal drilling 
and hydraulic fracturing has contributed to increases in crude oil and 
natural gas production in the United States. Today, New Mexico ranks as 
the country's third-largest oil-producing state and the seventh-largest 
gas producing state.
    The oil and natural gas regions of the state include the San Juan 
Basin in the northwest corner and the Permian Basin in the southeast 
corner. All throughout New Mexico, miles upon miles of gathering 
pipeline carry methane-rich products from the San Juan Basin in the 
northwest and Permian Basin in the southeast to compressor stations and 
gas plants.
    Methane emissions occur through venting and unintentional equipment 
leaks. Equipment design, operational practices and well completions all 
contribute to venting--and small leaks or significant releases can 
occur in all parts of the infrastructure. Methane emissions are not 
visible to the naked eye so small leaks or significant releases can 
remain uncorrected for days, weeks, months and beyond.
    The methane emissions from the state's oil and natural gas wells, 
compressor stations and gas plants not only contribute to climate 
change but impact regional air quality. In the oil- and natural gas-
centric regions of New Mexico, ambient air concentrations of ozone are 
approaching unhealthy levels. High levels of ozone can cause breathing 
difficulties, especially in children, the elderly and those who 
regularly work and recreate outdoors. Long-term exposure to ozone is 
also likely to cause the development of asthma and permanent lung 
damage in children. Ozone is photochemically created in the presence of 
sunlight from the emission of volatile organic compounds, commonly 
referred to as VOCs, that are emitted along with methane during oil and 
natural gas exploration and production activities. Reducing methane and 
VOC emissions will collaterally reduce the emissions of these 
compounds. The totality of these reductions will lessen New Mexico's 
contribution to climate change while improving air quality for 
residents most directly impacted by oil and natural gas operations.
    Beyond the climate and ozone implications, methane emissions 
represent lost revenues to the state. Methane is the main component of 
natural gas--a commodity export of the state. Although our state 
agencies are still working to determine how much is recoverable, the 
natural gas industry loses millions upon millions each year due to 
venting, flaring and leaks, according to the best scientific estimates 
and industry's self-reported data.
    There are proven, cost-effective and innovative technologies that, 
when supplemented with better work practices, can remediate as much as 
half of these methane losses. Under my executive order, I directed the 
co-chairs of the new Climate Change Task Force to develop a statewide, 
enforceable regulatory framework to secure reductions in oil-and-gas 
sector methane emissions and to prevent waste from new and existing 
sources. They will make their first recommendations to me this fall.
    Further, the State Environment Department has begun regular 
inspections of the oil and natural gas industry to identify methane 
leaks. These air quality and waste inspections, spread across the 
state, will assist both the environment and our state Energy, Minerals 
and Natural Resources Department as they establish base-line compliance 
data with existing regulations and help them focus on developing new 
incentives and adopting technologies to further reduce emissions while 
providing revenues to the state.
    Collaboration is another key step in developing New Mexico's 
methane strategy. The co-chairs of the Climate Change Task Force will 
convene key stakeholders; the solutions they find together will 
dramatically cut emissions, curb waste and benefit New Mexico schools.
    As we launch this work of reducing and recovering emissions, New 
Mexico is benchmarking its existing oil and natural gas regulations 
related to air emissions and waste using a cross-sectional stakeholder 
group convened by the State Review of Oil and Natural Gas Environmental 
Regulations, or STRONGER. This review group, other government entities, 
environment NGOs, and the industry itself will evaluate the state's oil 
and natural gas regulations. The STRONGER review team will write a 
report and identify both strengths that merit special recognition and 
potential regulatory gaps. The review team will then develop 
recommendations to address the gaps and identify pathways to program 
improvement. The final report of New Mexico's oil and natural gas 
regulations is due to the Climate Change Task Force co-chairs in August 
2019.
    And while these efforts are ongoing, the co-chairs of the Climate 
Change Task Force will be convening public stakeholder meetings around 
New Mexico this summer to collaborate in the development of a 
regulatory framework for methane reductions. These public meetings will 
provide a venue for critical stakeholder ideas and feedback on the 
essential aspects of air emission and waste regulations, inclusion of 
regulatory standards, technology, work practices, monitoring, record 
keeping, reporting and more. The legal authorities for regulating 
methane within the New Mexico Environment Department and the Energy, 
Minerals and Natural Resources Department will also be discussed.
    In addition, the New Mexico Environment Department last month 
launched an interactive oil and natural gas methane map. This GIS tool 
is updated monthly and shares data related to methane emissions with 
the stakeholder community and the public. The map identifies every oil 
and natural gas well in the state, begins to provide emission estimates 
of methane based on VOC emissions, and shares ambient methane data. As 
New Mexico and the broader community of stakeholders develop data 
layers for GIS mapping tools, the state will add them to ensure 
transparency in our progress. This includes identifying oil and natural 
gas companies that exceed regulatory requirements while identifying 
those with compliance issues.
    Aside from the long- and short-term public health concerns caused 
by oil and gas emissions, there is a cultural impact to New Mexicans 
and tribal communities that live here. Since the year 800, ancestral 
Puebloan peoples have lived on the Greater Chaco landscape. Today this 
region is home to sites of sacred cultural practice that fortify our 
modern pueblo cultures. This is why the chairman of the All Pueblo 
Council of Governors described Chaco Canyon and landscape as the 
``heart of Pueblo culture.'' We must protect this region, a UNESCO 
World Heritage Site, with the same vigor as we protect the air we 
breathe; it is as important to who we are as New Mexicans as our most 
basic natural resources.
    For scientific and cultural reasons, for the protection of public 
health and our environment, I intend to lead a New Mexico where we take 
our environmental destiny into our own hands. Indeed, in many ways, we 
already have. There's much more work to do. And we are laboring under a 
Federal Government that has failed us--in a regulatory sense and in the 
omission of vital leadership. New Mexico, meanwhile, has seized and 
will continue to seize the opportunity to reduce pollution that 
threatens human health and looms as an unprecedented humanitarian 
crisis within this lifetime.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Governor Lujan Grisham.
    I know that you have a tight schedule but that you have 
agreed to answer some questions, so I will first recognize for 
questions my dear colleague, Representative Haaland.
    Ms. Haaland. Thank you, Chairman.
    Thank you, everyone, for being here. It is kind of strange 
for me, I have never been back here before.
    [Laughter.]
    Ms. Haaland. I have always been out there. I have always 
been advocating and showing up to show support for our 
legislators. So, it is a little strange, but I am so 
appreciative that so many of you came today to show your 
support for our governor and for the work that we are all 
trying to do.
    I would first like to acknowledge that we are on Indian 
land. I see former Governor Mitchell in the audience, and I 
thank all of the people from tribes whose homeland we are 
sitting on right now for coming today and being here with us.
    Governor Lujan Grisham, I am so honored that I am here with 
you today. Thank you for being here and for your tremendous 
leadership on climate issues. It was exciting to see the state 
enact the Energy Transition Act to move into a path to low-
carbon and eventually carbon-free energy future.
    As Vice Chair of the Natural Resources Committee and 
Chairwoman of the Subcommittee on National Parks, Forests, and 
Public Lands, I have been focusing on the impact of climate 
change on our public lands.
    For those of you who didn't know, close to 25 percent of 
our carbon emissions are created on public lands, and that is 
because we don't have enough renewable energy projects on 
public lands and we have way too many gas and oil projects on 
public lands.
    [Applause.]
    Ms. Haaland. Increases in temperature, more severe weather, 
and extended droughts are causing wildfires and taking critical 
habitat away from species seeking refuge from climate change. 
We are thinking about how we need to adapt the way we manage 
our public lands to deal with these changes in our climate.
    But we are also thinking about how we need to manage our 
lands so that they have less of an impact on the climate. This 
means rethinking oil and gas development on public lands and 
how we manage greenhouse gas emissions from those activities.
    Unfortunately, we are dealing with a president who has 
slashed funding for programs to protect intact ecosystems that 
help our environment adapt to some of the worst impacts of 
climate change. Instead, President Trump wants to expand 
drilling and logging across precious and fragile landscapes. He 
has been so oppressive about this that the Interior Department 
carried on with the permitting process for oil and gas drilling 
even while the Federal Government was shut down and people were 
not getting paid.
    Meanwhile, it was not providing services to Native American 
tribes it is obligated to because of the Federal Government's 
trust obligation to tribes.
    Governor Lujan Grisham, what do you think the Federal 
Government could and should be doing to reduce the emissions of 
greenhouse gases from drilling operations on Federal lands?
    Governor Lujan Grisham. That is an easy answer, 
Congresswoman. Thank you for the question. They should be doing 
everything. This imbalanced, unfair approach leaves the burden 
to a regulatory environment just in the states. And given that 
we are dealing with Federal public lands where we have limited 
regulatory authority, we need a robust partnership. And the 
idea that they are repealing and removing and pushing forward 
without state involvement or input is quite troubling not just 
to me as governor, given that it impacts the public health, 
well-being, and it interferes with our ability to diversify an 
energy portfolio and, quite frankly, can have the impact to 
limit our abilities to meet our goals in the U.S. Climate 
Alliance and the Paris Accords.
    All of those issues require a Federal Government that is 
fair, balanced, and that meets its regulatory requirements. As 
you can see and hear from my testimony, states like ours and 
many others across the country, and not just states that are 
led by Democratic governors, are beginning to do the real work 
to reduce methane emissions and to do the kind of regulatory 
work directly that we hope by example creates a universal 
approach by the oil and gas industry itself wherever those oil 
and gas leases are occurring, because that is the only way, 
until we get a Federal Government that is responsive and 
responsible to do it.
    I know I am talking too long, and I know you want to ask 
me--you are probably going to reclaim your time.
    [Laughter.]
    Ms. Haaland. No, I will never do that with you. Thank you.
    I am going to ask one last quick question, so that my 
colleagues have an opportunity to ask questions as well.
    You have been in Congress. You know how this system works. 
You managed to get a tremendous amount done even though you 
were in the Minority for the entire time you were in Congress. 
Now that we have the Majority back as well, how can we in 
Congress best help you in your efforts to combat climate change 
and protect the public lands that New Mexicans cherish?
    Governor Lujan Grisham. I think three ways.
    One, these field hearings. I really want to congratulate 
Chairman Lowenthal of the Subcommittee and Chairman Grijalva, 
and your leadership, Chairwoman. These efforts create 
visibility and encourage states to do as much as they can. We 
need many more than two--a district, a territory, and three 
states to be leading on renewable energy, carbon-free efforts 
by 2045, and New Mexico is now the most aggressive between a 
transition to renewable energy and being carbon free by 2045. 
We need that strategy so your colleagues can work with their 
governors so that we create this effort at the state level.
    Two, the legislation that is increasing oil and gas 
oversight, that is investing in renewable energy, that is 
providing tax incentives to do that, those efforts also create 
opportunities for states like ours. I encourage you to work 
with departments directly and to make sure that we have assets 
in those departments.
    And last, your leadership lately and routinely to protect 
sacred sites is exactly what we need to hold the line to 
prevent the Department of the Interior from encroaching on both 
our authority and our efforts to protect those sacred sites.
    The reality is you are doing everything right. I just need 
you to succeed more quickly and to work with the Senate, and I 
am really grateful to be able to highlight that, in fact, 
without a governor or a set of governors asking Congress to 
stand up and fight for the states and to fight for the health 
and well-being of your constituents, you are doing it, and 
thank you.
    Ms. Haaland. Thank you.
    [Applause.]
    Ms. Haaland. I yield.
    Mr. Lowenthal. Thank you.
    I now would like to recognize for questions the Assistant 
Speaker of the U.S. House of Representatives, Representative 
Lujan.
    Mr. Lujan. Thank you, Mr. Chairman.
    [Applause.]
    Mr. Lujan. I cannot say how grateful I am, Chairman 
Lowenthal, for you and Chairman Grijalva and our Chairwoman, 
Debra Haaland, for coming to New Mexico. We were reminded 
yesterday in some e-mails that were going around, and I think 
it is pertinent to the point that Deb and I are sitting next to 
one another. There are some New Mexicans on the dais as well, 
if there is any question of anyone that is inquiring of the 
participation of leaders in New Mexico on this important topic.
    To everyone who is here as well, I want to say thank you. 
Thank you for showing up and speaking and making sure your 
voices are heard.
    To our Pueblo leaders, our tribal leaders who are here, it 
is an honor to be before you, and I thank you for the work you 
have done and working together as we introduced an important 
piece of legislation, the Chaco Cultural Heritage Protection 
Act. Governor, that is where my first question is.
    There has been some coverage of this important issue, but 
it is a culmination of the importance of understanding what we 
have to do to protect a sacred site. A place where ancestors 
have been laid to rest should not be desecrated, but one that 
is also being negatively impacted with environmental justice 
concerns, negative health impact concerns, and hurting the New 
Mexico economy.
    My first question to you is one that is very simple. Are 
you supportive of the legislation that Congresswoman Haaland 
and I recently introduced in the House that was also introduced 
by Senators Udall and Heinrich in the Senate?
    Governor Lujan Grisham. A thousand percent, and thank you.
    [Applause.]
    Mr. Lujan. The next question I have builds on what we saw 
yesterday. We used an optical gas imaging camera to view 
methane emissions. It is called a forward-looking infrared 
camera. Many of you have been out there where you smelled the 
emissions. I don't know how many of you have seen the 
emissions. But when we looked through this camera, you could 
see the plumes coming out and moving across the sky. There is 
no question that this is occurring.
    Recent estimates that came from the Environmental Defense 
Fund estimate that New Mexico alone, as your testimony points 
out, could lose up to $47 million per year in lost revenue. For 
those, Governor, that are not on board already because of the 
healthcare concerns, the importance of protecting the sacred 
site, or the negative environmental impacts, they need to 
understand the economic realities that we are facing. What 
could you do with $47 million in New Mexico?
    Governor Lujan Grisham. So much. And, Mr. Chairman and 
Assistant Speaker, I appreciate so much the time with you as 
well today.
    The $47 million can do a number of things. It can go back 
into mitigating emissions and doing better regulatory 
oversight. It can be used to continue to invest in 
infrastructure for renewable energy. It can do what we are 
doing in our Energy Transition Act, which is making sure that 
we have equity funds available to retrain workers and to 
protect communities who often really suffer in a boom and bust 
environment, and they deserve our direct investments. And, 
again, we are talking largely about tribal workers, many right 
from the Navajo Nation who, without these funds, do not get an 
environment of fairness and justice, or from a public health 
standpoint, but they deserve every single dollar and efforts so 
that they can continue to support their families.
    And last, I will take every single dollar for early 
childhood education so that I can beat every state in the 
Nation and get to universal child care quicker than we are 
already projected to, because if we are really going to get 
ourselves out of poverty and address health care in New Mexico, 
it starts earlier with these children. So, we would love to 
have those resources.
    I know that I am out of time. But, Mr. Chairman and 
Assistant Speaker, I want you to know that our methane 
mitigation task force, which is engaged now in all these other 
groups, has oil and gas participating, and we expect to do a 
better job, and I laud what Hickenlooper did, the former 
governor in Colorado. He got folks at the table together, 
including looking at ways to replace all their pneumatic pumps, 
which are another great source of leaking methane. I expect and 
believe that our oil and gas stakeholders are going to do a 
whole lot to help us regain control over these unintended 
emissions and intended emissions, provide those resources to 
the state, and be good partners.
    Mr. Lujan. Mr. Chairman, with your indulgence, I just want 
to share, Governor, how refreshing your testimony is, the 
executive orders that you have already issued. I was honored to 
be invited to sit in a Natural Resources hearing less than a 
year ago, where Governor Susana Martinez, the former governor 
of New Mexico, participated, and her testimony was alluding 
that the United States should be deregulating or softening 
regulation when it comes to methane emissions in the United 
States.
    As the Committee and the panel are looking for examples of 
who we should seek out to establish protocol when it comes to 
methane emissions, I think we have an example right in front of 
us.
    I want to thank everyone in the room who I had the honor of 
working with about a decade ago to increase New Mexico's 
renewable portfolio standard and for everyone that did not stop 
working with you to make sure we got that done, and I would be 
remiss, Governor, if I did not last submit into the record--
there was compelling testimony on Saturday as well with the 
work that has to be done with the Radiation Exposure 
Compensation Act for the work with uranium miners as well.
    [Applause.]
    Mr. Lowenthal. That will be accepted without reservation.

    [The information follows:]

             MULTICULTURAL ALLIANCE FOR A SAFE ENVIRONMENT

                        www.swuraniumimpacts.org

                             April 13, 2019

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Figure 9. ``We have waited far longer than other communities in the 
  U.S. for this poison to be cleaned up. When is it our turn to feel 
safe? How many more generations have to wait?----Edith Hood, Red Water 
Pond Road Community Association testifying at hearing of Inter-American 
Commission on Human Rights on the ``Right to Water,'' October 23, 2015.
[GRAPHIC] [TIFF OMITTED] T6076.015


    Mr. Lowenthal. Governor, we are very appreciative of 
your time, so anytime you need to leave, just let us know. We 
think it is an honor to have you here, but we are also 
appreciative that you are a very busy person.
    I would like to now recognize the Chair of the overall 
Natural Resources Committee, Chairman Grijalva.
    [Applause.]
    Mr. Grijalva. Thank you.
    I do not have any real questions, Governor, just to say I 
miss you, we miss you.
    [Laughter.]
    Mr. Grijalva. I wander the halls where your office used to 
be, looking for somebody to tell me what to do for the rest of 
the day.
    [Laughter.]
    Mr. Grijalva. And missing that, as well.
    I just want to join my colleagues in appreciation. The 
visit to New Mexico has been very powerful, profound in many 
ways, and we are learning a lot. I think that, with your 
leadership, investing in children and in education should be 
noted as well. That is an important precedent and trend that 
needs to be part of what this country does for its kids, and 
what you are doing on the issue of climate change and with 
methane emissions that are going on, and the protection of 
these special, sacred World Heritage Sites, I appreciate that. 
I think that the precedents that are being set here in New 
Mexico are a good example.
    We were asked by a reporter about the industry saying that 
we have all the wherewithal to self-police, we have all the 
wherewithal technologically to take care of this problem, and 
we can do it ourselves and we can self-regulate. I think that 
what New Mexico is doing under your leadership is making sure 
that the citizens of New Mexico and the residents of New Mexico 
are at the table, that they are co-equals in this discussion, 
and that they have power and strength in those discussions. 
That kind of cooperation that we are talking about is not 
fanciful. It comes from two equals through power and strength 
on the part of the citizens through your office and through the 
elected officials of the state making sure that the health, the 
environment, and the future of this state is protected. You are 
doing that, we very much appreciate it, and I thank you for 
your leadership. Thank you.
    Governor Lujan Grisham. Thank you.
    [Applause.]
    Mr. Lowenthal. Thank you. Thank you, Chairman Grijalva.
    I have just a few questions, short questions, I hope.
    First, on behalf of the entire panel and the Committee, we 
really want to commend you on your leadership efforts to put 
New Mexico on a path toward a cleaner and healthier energy 
future. I hope that other governors follow your lead. We are 
going to find out also what is going on in Hawaii and other 
states too, but that is in the future.
    As you have been talking about what you want to do and what 
is happening, we would just like to know how has the oil and 
gas industry responded to your efforts? Have they come to the 
table as a partner, or have they been resisting some of the 
efforts that you have put forward?
    Governor Lujan Grisham. I think that the Southwest is an 
interesting place to put things in a perspective that you do 
not normally see. During the last 60-day legislative session, 
Mr. Chairman, which New Mexico does a 30-day, 60-day, every-
other-year environment, the Energy Transition Act, which we 
have been talking about here today, the oil and gas industry 
did not oppose that legislative effort, and they are a 
significant stakeholder in New Mexico's economic success, and 
they provide for significant jobs. And, quite frankly, they are 
the lion's share of New Mexico's revenue stream in our state 
budget, and without them we could not meet what we are calling 
now our moon-shot investment in public education.
    To put that in perspective, that is a powerful group that 
can weigh in, and they were neutral on that bill. I appreciate 
that, and I hope that it speaks to this effort.
    My administration is working with oil and gas, and while we 
are not going to agree on every regulatory or innovative 
practice we would like to have them undertake, while it would 
be far easier to ignore that there are risks in fossil fuels 
and just to accept that that is a large revenue stream for the 
state, none of us are doing that. And they recognize, the oil 
and gas industry, that if there is a fight between competing 
efforts, particularly between energy efforts, then we do not 
get as far and as fast as we need to, and that New Mexicans do 
not benefit from that environment.
    We are a small enough state, Mr. Chairman, 2 million 
people, that we work pretty diligently at getting along. I want 
to actually thank them for being open-minded, coming to the 
table, participating in our efforts. While I think there will 
be some challenges and some difficult moments, I expect that 
New Mexico will be a model for the rest of the country about a 
way in which to involve all of your stakeholders, produce 
brand-new innovation and productive new results, and transition 
to a carbon-free and renewable energy economy. I want you to 
refer to us not as the great state of New Mexico but as the 
Clean Energy State the next time you come to Santa Fe.
    Mr. Lowenthal. Thank you.
    [Applause.]
    Mr. Lowenthal. One of the things that you mentioned in your 
opening statement and that I think our Committee is vitally 
interested in is the assistance for people who are going to be 
put out of work as coal plants and mines close down as we begin 
this great transition toward a clean economy. Can you describe 
how this is going to work in greater detail? Also, what role 
should the Federal Government play in helping displaced 
workers?
    Governor Lujan Grisham. Mr. Chairman, I really appreciate 
that question. I think that this has been the big mistake, and 
if I might be a bit political in this context, I think in the 
Beltway and in Congress, all too often, particularly when I was 
there in the Minority, if you have people suffering, it becomes 
a way to produce more partisan efforts. You have to keep coal 
mines open because people do suffer. Those workers and their 
families, they suffer without tangible, reliable, meaningful 
work, and then they become political pawns in these efforts and 
in the debates.
    In New Mexico, we find that not only to be untenable but 
disgraceful, and we do not want to leave, and will not leave, 
anyone behind. As we are looking at decommissioning a power 
plant, and looking at securitization, part of that was to make 
sure that our large utility companies, who receive a benefit in 
that effort, that $20 million must return right back to the 
communities, primarily San Juan County, to provide through a 
variety of vehicles and state governments so it is fairly 
applied. It goes to our Department of Indian Affairs. It goes 
to our Workforce Solutions Department. And then we work with 
stakeholders to make sure that there is training, job 
development, job opportunities, and direct benefits to 
individuals who lose their jobs when you decommission a power 
plant.
    I think the Federal Government ought to build that into its 
compensation plans and its unemployment efforts and its 
training investments and its higher education investments and 
requirements for every state, and it ought to become part of 
the U.S. Climate Alliance efforts, that that ought to be part 
of model legislation for every state moving forward. I think 
these equity investments do make an incredible difference and 
take away that partisan fight over workers who are caught in 
the balance and do not have to be if you reinvest in their 
success, and that is exactly what New Mexico will do.
    Mr. Lowenthal. I have one last question. New Mexico has 
provided great leadership for the Nation as being one of the 
three states and two territories that have committed to 100 
percent clean energy by, I believe, 2050, an admirable goal. 
But also, New Mexico is one of the leading oil-producing states 
in the country, and as you pointed out, in working with the 
industry, a lot of your income in the state is dependent upon 
oil and gas.
    Can you just step back for a moment and tell us where do 
you see oil and gas development and renewable development in 
the year 2050? What is going to be that balance?
    Governor Lujan Grisham. I really appreciate that question, 
Mr. Chairman. We are going to be 50 percent renewable by 2030, 
and 80 percent by 2040. What I see in the future is that New 
Mexico will look to serious wind, solar, and geothermal 
investments that make their way not just to job creation and 
job security in rural New Mexico, but that we are leading the 
Nation in getting this new energy, because we want California 
to buy it all.
    [Laughter.]
    Governor Lujan Grisham. We are very excited about making 
sure that that energy is moving, and there are some challenges 
to that. We want folks to look here to see that, and we want to 
show that with oil and gas, that it is as clean as it can be, 
that we are using the innovation that mitigates both the 
landscape problems, the water use issues, and the air quality 
problems that are a result of oil and gas. The best response to 
a finite, problematic fossil fuel industry is to pivot to 
renewable energy.
    People are motivated by investments that work on all 
counts. They are renewable, they are available, they produce 
that strong, reliable economic success that this state can have 
and deserves, and they create the right public health outcomes. 
That is what I expect to see in just, I hope, 8 short years, 
and I invite you back to see our transformation.
    I might take one personal privilege, if that was your last 
question, Mr. Chairman.
    Mr. Lowenthal. That was my last question.
    Governor Lujan Grisham. I miss you, too.
    [Laughter.]
    Governor Lujan Grisham. And while I love my state and I 
have no better job or benefit or honor in my entire life, there 
is nothing better than bossing around Chairman Grijalva.
    [Laughter.]
    Governor Lujan Grisham. I know you fibbed, Mr. Chairman, 
because you were never looking for me, I was always looking for 
you.
    [Laughter.]
    Governor Lujan Grisham. And, Chairman Lowenthal, I hope 
that New Mexicans have seen today that there are Members of 
Congress, both sides of the aisle, who care about their 
constituents, who work hard every day, whose travel schedules 
are impossible--I can attest to that--and I appreciate those of 
you right from our great state who represent us directly, and 
those of you who are working on these issues across the 
country, because with your help, our success will motivate so 
many other states and will help us have a shared, productive, 
positive partnership with every single stakeholder, every 
single worker, and every single New Mexico family.
    So, thank you very much for this honor today.
    [Applause.]
    Mr. Lowenthal. We appreciate it. Thank you, Governor. Thank 
you so much.
    Governor Lujan Grisham. Thank you.
    Mr. Lowenthal. This will conclude our first panel.
    Again, thank you, Governor, for your very generous time.
    I would like to now invite the second panel to take their 
seats at the witness table.
    Our first witness is the Honorable Michael J. Chavarria, 
the Vice Chairman of the All Pueblo Council of Governors, and 
the Governor of the Santa Clara Pueblo. Our second witness is 
the Honorable Brian Vallo, the Governor of the Pueblo of Acoma. 
Our third witness is the Honorable Myron Lizer, the Vice 
President of the Navajo Nation. And our final witness for this 
panel is Mr. Rickie Nez, the Chairman of the Resources and 
Development Committee of the Navajo Nation Council.
    Welcome.
    Let me remind the witnesses that they must limit their oral 
statements to 5 minutes, but their entire statement will appear 
in the hearing record.
    When you begin, the lights on the witness table will turn 
green. In 4 minutes, the yellow light will come on. Your time 
will have expired when the red light comes on, and I will ask 
you to please complete that final statement or those final 
thoughts that you are doing.
    I am also going to allow the entire panel to make your 
opening statement before the panel up here asks any questions 
to you.
    The Chair now recognizes Vice Chairman Chavarria to 
testify.
    Welcome to our Committee, Vice Chairman.

STATEMENT OF THE HON. MICHAEL J. CHAVARRIA, VICE CHAIRMAN, ALL 
  PUEBLO COUNCIL OF GOVERNORS; GOVERNOR, SANTA CLARA PUEBLO, 
                    ALBUQUERQUE, NEW MEXICO

    Mr. Chavarria. First of all, [speaking native language]. 
That is out of respect for asking to speak before you, 
Chairman, members of the Committee, this morning. My name is 
Michael J. Chavarria, Vice Chairman for the All Pueblo Council 
of Governors, and I also serve as the Governor for Santa Clara 
Pueblo.
    I would like to thank the Committee for making time and 
traveling here to talk about this important topic of oil and 
gas development. I will focus my testimony on the impacts of 
oil and gas development on tribal cultural resources, and 
specifically the Greater Chaco Region.
    For over 2,000 years, Pueblo people lived in Chaco Canyon, 
eventually moving outward into the land that Pueblos currently 
occupy, like spokes moving away from the eye of a wheel. Their 
time in Chaco Canyon and their movement outward across the 
landscape left behind many cultural resources, including vast 
Pueblo structures, shrines and other sacred sites, and natural 
formations with culturally relevant modifications. This 
landscape is now called the Greater Chaco Region and includes 
all of the San Juan Basin.
    Many Pueblos maintain a significant and ongoing connection 
to the Greater Chaco Region. Our people still remember it as a 
vital part of our present identity through songs, prayer, and 
pilgrimages. It is hard to put into words how important Chaco 
is to us as Pueblo people.
    The Greater Chaco Region sits atop a sought-after oil 
field, and this is where the problem lies. Today, the major 
center point of Chaco Canyon is protected from oil and gas 
development by the boundaries of the Chaco Culture National 
Historic Park, which is recognized as a UNESCO Heritage Site. 
However, many important cultural resources in the Greater Chaco 
Region are located outside of these boundaries, and much of the 
Greater Chaco Region has not been studied for cultural 
resources.
    So, the All Pueblo Council of Governors takes the position 
that no oil and gas development should take place within a 
designated withdrawal area, which consists of approximately 10 
miles surrounding the park. This is both because any parcel 
located within this area is likely to contain or impact 
important cultural resources and because development in this 
area is likely to affect cultural resources as well.
    The All Pueblo Council of Governors further takes the 
position that, even for development outside the withdrawal area 
but within the Greater Chaco Region, there are Federal laws, 
such as the National Historic Preservation Act, which require 
rigorous identification and analysis of cultural resources 
before any steps toward oil and gas development occur.
    Until recently, the Department of the Interior deemed the 
withdrawal area unavailable for oil and gas development. 
However, this administration has reversed this policy, 
including allowing fracking.
    Now the BLM holds quarterly oil and gas lease sales that 
include parcels within the withdrawal area and throughout the 
Greater Chaco Region. Despite our concerns and offers to 
assist, the BLM has not conducted any type of cultural 
resources study required by law for any of these Federal 
parcels.
    So, the All Pueblo Council of Governors asks first, that 
you support the Chaco Cultural Heritage Area Protection Act, 
which would remove the withdrawal area from oil and gas 
development.
    Second, we ask that, until the legislation goes through, 
you put pressure on the Department of Energy to prospectively 
deem the withdrawal area unavailable for oil and gas 
development before the Department of Energy continues to 
include these parcels for lease sales. And we ask you to 
continue to put pressure on the Department of the Interior to 
remove them from each lease sale into the future.
    Third, we ask that you put pressure on the Department of 
the Interior to prospectively identify and analyze the cultural 
resources that are affected by oil and gas development and the 
parcels outside the withdrawal area before listing the parcels 
in a lease sale. And if the DOI does list those parcels without 
sufficient study, we ask you to put pressure on DOI to remove 
them from the lease sale until the study is complete.
    Thank you for the opportunity today to meet with us as 
Pueblo people, as Pueblo leaders, because it is very important 
that we encourage you and ask for your help to encourage the 
Department of the Interior to work with the Pueblos in this 
study, the cultural resources within the greater cultural 
region. The All Pueblo Council of Governors is currently in 
discussion with the Department of the Interior on a proposal 
going forward.
    I did have an opportunity to meet with Assistant Secretary 
Sweeney a couple of weeks ago in Traverse City. I also provided 
a letter on the status of the All Pueblo Council of Governors 
as it relates to this. It is very important that the Bureau of 
Indian Affairs, as our trustee, understands the importance of 
the relationship that we have and their trust responsibility to 
us as Pueblo people.
    I would like to thank you for coming today. I am glad that 
you had a good day yesterday out in the field, and we continue 
to look forward to working together. [Speaking native 
language.]

    [The prepared statement of Mr. Chavarria follows:]
 Prepared Statement of J. Michael Chavarria, Vice Chairman, All Pueblo 
                          Council of Governors
    The All Pueblo Council of Governors (APCG) thanks the Committee for 
the opportunity to testify on the important topic of oil and gas 
development.\1\ We understand the Committee seeks testimony on the 
impacts of oil and gas development on public health, the climate, 
cultural resources, and tribal communities--and APCG believes there are 
many impacts in all of these areas. However, APCG's testimony will 
focus on the impacts of oil and gas development on cultural resources, 
and specifically in the Greater Chaco Region.
---------------------------------------------------------------------------
    \1\ APCG is comprised of the New Mexico Pueblos of Acoma, Cochiti, 
Isleta, Jemez, Laguna, Nambe, Ohkay Owingeh, Picuris, Pojoaque, San 
Felipe, San Ildefonso, Sandia, Santa Ana, Santa Clara, Santo Domingo, 
Taos, Tesuque, Zia, and Zuni, and one Pueblo in Texas, Ysleta Del Sur.
---------------------------------------------------------------------------
                           cultural resources
    For over 2,000 years, Pueblo people lived in Chaco Canyon, 
eventually moving outward into the land the Pueblos currently occupy--
like spokes moving away from the eye of a wheel. Their time in Chaco 
Canyon and their movement outward across the landscape left behind many 
cultural resources, including vast pueblo structures, shrines and other 
sacred sites, and natural formations with culturally relevant 
modifications and meanings. This landscape is now called the Greater 
Chaco Region and includes all of the San Juan Basin.\2\
---------------------------------------------------------------------------
    \2\ In some instances, the term ``Greater Chaco Landscape'' has 
been used, but it refers to the same area of land.
---------------------------------------------------------------------------
    Many Pueblos maintain a significant and ongoing connection to the 
Greater Chaco Region. Our people still remember it as a vital part of 
our present identity through song, prayer, and pilgrimage. It is hard 
to put into words how important the Greater Chaco Region is to us as 
Pueblo people. Even those outside Indian Country, including within the 
field of archaeology, recognize Chaco Canyon's importance in telling 
the story of the people of this continent.
    Today, the major center point of Chaco Canyon is protected from oil 
and gas development by the boundaries of the Chaco Culture National 
Historic Park, which is recognized as a UNESCO World Heritage Site.
    However, many important cultural resources in the Greater Chaco 
Region are located outside the boundaries of the Park, and even the 
cultural resources that fall within the boundaries suffer the effects 
of activity taking place outside. Additionally, the location of a vast 
majority of cultural resources throughout the Greater Chaco Region has 
not been studied, making them vulnerable.
                            apcg's position
    In addition to being a place of great cultural importance, the 
Greater Chaco Region sits atop an oil field that is under tremendous 
pressure for development from the oil and gas industry, and this is 
where the problem lies. Upwards of 90 percent of the land in the San 
Juan Basin is already leased for oil and gas development, and the 
remaining land comes dangerously close to Chaco Canyon itself.\3\
---------------------------------------------------------------------------
    \3\ The BLM-Farmington District Office is the primary agency 
regulating the San Juan Basin, and portions of the San Juan Basin also 
extend into the BLM-Rio Puerco Field Office's district boundary. The 
majority of available land in the Farmington District Office has been 
leased.
---------------------------------------------------------------------------
    APCG takes the position that no oil and gas development should take 
place within a designated withdrawal area--which consists of 
approximately 10 miles surrounding the Park.\4\ This is both because 
any parcel located within this area is likely to contain or impact 
important cultural resources and because development in this area is 
likely to affect cultural resources in the Park. APCG further takes the 
position that, even for development outside the withdrawal area but 
within the Greater Chaco Region, Federal laws, like the National 
Historic Preservation Act (NHPA) and the National Environmental Policy 
Act (NEPA), require rigorous identification and analysis of cultural 
resources before any steps toward oil and gas development occur.
---------------------------------------------------------------------------
    \4\ APCG and DOI have until recently discussed a general area of 
approximately 10 miles surrounding the Park as making up the withdrawal 
area. In recent years, as part of work on the Chaco Cultural Heritage 
Area Protection Act, congressional members along with input from DOI 
and the Pueblos have created more clarity on the boundaries of the 
withdrawal area by specifying its parameters and producing an 
associated map. The Act's boundaries are now the best description of 
the withdrawal area--which has shifted slightly over time.
---------------------------------------------------------------------------
    As land managers, if the Department of the Interior (DOI) is going 
to allow oil and gas development in the Greater Chaco Region, it must 
gain a better understanding of where our cultural resources are 
located. This is true in the macro sense, in that DOI should close off 
areas of the Greater Chaco Region that contain high concentrations of 
cultural resources as part of the necessary balancing required under 
the Federal Land Policy and Management Act. It is also true in the 
micro sense, in that, under the NHPA and NEPA, DOI must sufficiently 
study the effects on cultural resources of oil and gas development 
before offering a particular parcel for lease sale. These studies are 
required by law, and, if done properly and early in the oil and gas 
development process, will save all parties time and money.
                 current oil and gas development issues
    Until recently, DOI deemed the withdrawal area unavailable for oil 
and gas development. This administration has reversed this policy, 
including allowing fracking.\5\
---------------------------------------------------------------------------
    \5\ The BLM-Farmington District Office is currently amending its 
Resource Management Plan, meant to regulate oil and gas technological 
advances in horizontal drilling and hydraulic fracturing--or 
``fracking.'' Despite this ongoing amendment, the BLM continues to hold 
leases that would be available for this new technology.
---------------------------------------------------------------------------
    Now, the Bureau of Land Management (BLM) holds quarterly oil and 
gas lease sales that include parcels within the withdrawal area and 
throughout the Greater Chaco Region. Although DOI has removed some of 
these parcels from particular lease sales after sufficient pressure 
from outside forces, APCG and its member Pueblos are required to pour 
their limited resources into each deferral request.
    Further, DOI has not conducted anything close to the type of 
cultural resource identification and analysis required for any of the 
parcels located inside or outside of the withdrawal area. Therefore, 
APCG and its member Pueblos are forced to protest the parcels in the 
Greater Chaco Region in every lease sale.\6\
---------------------------------------------------------------------------
    \6\ This has meant protesting parcels under the BLM Farmington and 
Rio Puerco Field Offices, whose jurisdictions cover the Greater Chaco 
Region.
---------------------------------------------------------------------------
                           legal deficiencies
    DOI in its sale of leases on parcels in the Greater Chaco Region is 
violating the NHPA and NEPA, which require sufficient study of cultural 
resources before DOI takes any steps toward oil and gas development. 
Because of the cultural significance and concentration of cultural 
resources in the Greater Chaco Region, these studies must be especially 
rigorous and must incorporate qualified experts, such as Pueblo 
representatives able to identify our cultural resources. Thus far, DOI 
has not conducted any studies sufficient to identify our cultural 
resources before holding lease sales in the Greater Chaco Region and is 
therefore in breach of the NHPA and NEPA.
    DOI has argued that a literature review is sufficient to meet its 
requirements. This involves reviewing existing records and studies 
available to the BLM. But there is a significant gap in existing 
literature about the Greater Chaco Region because much of the land has 
not been surveyed and the surveys that have taken place are often 
outdated and absent contribution from Pueblo people. While 
archaeologists are trained to identify archaeological features, they 
often lack the cultural expertise of Pueblo representatives. Because 
Pueblo representatives are able to identify their cultural resources, 
which can include natural features that archaeologists overlook, they 
must be included in cultural resource studies. In fact, when the BLM 
took Pueblo representatives on a sample field investigation leading up 
to the March 2018 lease sale, Pueblo representatives identified 
important cultural resources of which the BLM had not been aware.
    DOI has also argued that, for purposes of the Section 106 process 
of the NHPA (and similarly NEPA), the primary time for conducting 
cultural resource studies is at a later step in the oil and gas 
development process. But, as a lessee gains a property interest in a 
purchased lease, this commitment of Federal resources to a lessee is 
out of step with the legal processes mandated in the NHPA and NEPA.
    Additionally, DOI has acted arbitrarily and capriciously by its ad 
hoc removal of some parcels but not others from particular lease sales. 
In the March and December 2018 lease sales, DOI withdrew all of the 
protested parcels, both in and out of the withdrawal area, due to 
concerns that sufficient study of cultural resources under the NHPA and 
NEPA had not taken place.\7\ Then, in the March 2019 lease sale, DOI 
for no discernable reason withdrew only parcels located within the 
withdrawal area and permitted the sale of leases on protested parcels 
outside. These parcels were located very near or adjacent to parcels 
that had been previously withdrawn. As no cultural resource studies 
were conducted in the interim, the decision to move forward leasing 
those parcels was arbitrary and capricious under the Administrative 
Procedure Act.
---------------------------------------------------------------------------
    \7\ See for example, BLM's Press Release and Statement on its March 
2018 deferral: https://www.blm.gov/press-release/blm-defers-oil-and-
gas-lease-sale-parcels-new-mexico.
---------------------------------------------------------------------------
    Beyond these legal deficiencies are likely many others, including 
DOI's failure to live up to its trust responsibility to tribes.
                                requests
    APCG has a number of requests for you that we believe together will 
help protect the cultural resources in the Greater Chaco Region.
    First, we ask that you support the Chaco Cultural Heritage Area 
Protection Act, which would remove Federal minerals in the withdrawal 
area from future oil and gas development.
    Second, we ask that, until the legislation goes through, you put 
pressure on DOI to prospectively deem the parcels within the withdrawal 
area unavailable for oil and gas development before DOI takes the step 
of including them in a lease sale. And, until DOI takes this 
prospective action, we ask that you continue to pressure DOI to remove 
parcels within that area from each lease sale in which they are listed.
    Third, we ask that you put pressure on DOI to prospectively 
identify and analyze the cultural resources, in compliance with Federal 
law, on proposed parcels for oil and gas leasing even outside the 
withdrawal area before listing the parcels in a lease sale. This is 
even more important for parcels that fall just outside the withdrawal 
area line--like those that were sold in the most recent March 2019 
lease sale. And, when DOI does list those parcels without sufficient 
study as required by law, we ask that you put pressure on DOI to remove 
them from the particular lease sale until the studies are conducted.
    Fourth, we ask that you put pressure on DOI to rescind haphazard 
directives like BLM Instruction Memorandum 2018-034, that leads to 
forced development, insufficient analysis, and the likely destruction 
of our cultural resources in violation of Federal law. We ask that 
directives like BLM Instruction Memorandum 2018-034 be rescinded, or 
exclude the BLM-New Mexico Office from its application, to allow for 
the Resource Management Plant Amendment to be developed and implemented 
without undermining by oil and gas leasing and permitting activities.
    Last, we ask you to encourage DOI to work with the Pueblos to study 
the cultural resources in the Greater Chaco Region. APCG is currently 
in discussions with DOI on a proposed study of an area of the Greater 
Chaco Region. This study and studies like it could serve to fill the 
critical gap in information about Pueblo cultural resources that the 
BLM currently suffers.

                                 *****

                              ATTACHMENT 1

       ``Location of Chaco Canyon, Pueblos, and the Hopi Tribe''
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Map Credit--Archaeology Southwest

                                 ______
                                 

    Mr. Lowenthal. Thank you, Vice Chairman Chavarria.
    Next, I would like to recognize Governor Vallo for your 
testimony. Welcome to the Committee, Governor Vallo.

   STATEMENT OF THE HON. BRIAN D. VALLO, GOVERNOR, PUEBLO OF 
                    ACOMA, ACOMA, NEW MEXICO

    Mr. Vallo. [Speaking native language.] Welcome, Chairman 
and honorable members of the Committee. My name is Brian Vallo, 
and I am the Governor of the Pueblo Acoma. Thank you for 
traveling a great distance to be with us today.
    Yesterday, I met many of you during our visit to Chaco 
Canyon. I hope this visit has shed some light on the impacts of 
oil and gas development, as well as the critical need to 
protect Waphrba'shuka, or Chaco Canyon.
    Chaco Canyon plays an integral role in our living history, 
culture, and identity as Acoma people. Our discussion of Chaco 
cannot be separated from our discussion of our home, Haaku, or 
Acoma.
    Chaco Canyon and the Greater Chaco Region are deeply rooted 
in our collective memory. It is, in fact, an extension of our 
ancestral homelands and migration from our place of emergence.
    Waphrba'shuka, or Chaco Canyon, contains all of the 
cultural resources that continue to sustain us as Acoma people 
today.
    Within the Greater Chaco Region are archaeological or 
natural features that we identify as cultural resources. Many 
of these resources remain unidentified by archaeologists in the 
Greater Chaco Region. While archaeologists are adept at 
recognizing those archaeological resources, many of the 
cultural resources important to the Pueblo are outside the 
domain of archaeology.
    For Acoma, all ancestral Pueblo archaeological resources 
are cultural resources. However, not all cultural resources are 
archaeological in nature. Only we can identify these resources.
    When oil and gas leasing and development occurs, we must 
rely on Federal agencies as our trustee to identify and ensure 
the protection of our cultural resources. Many of these 
resources may be classified as historic properties or 
traditional cultural properties under the National Historic 
Preservation Act. Consultation and collaboration with tribes to 
identify these resources is a critical part of the mandated 
Section 106 process. Unfortunately, the Section 106 process is 
undermined in the Greater Chaco Region through misguided 
internal Bureau of Land Management directives requiring 
district offices to adhere to mandatory quarterly leasing, 
dismantling of many Land Management processes, and the rapid 
sale and processing of oil and gas leases. This rush leads to 
incomplete and inadequate analysis under Section 106 and its 
related statute, the National Environmental Policy Act.
    To illustrate, in March 2018, BLM nominated parcels in the 
Greater Chaco Region, some coming within 10 miles of the Chaco 
Cultural National Historic Park. Acoma demanded site visits, 
knowing the likelihood of Acoma cultural resources in the area. 
During a single sample field investigation, Acoma 
representatives observed sites viewed by Acoma as cultural 
resources. Many of these cultural resources were previously 
unaccounted for by the BLM.
    With these observations, Acoma protested the lease sale. 
Subsequently, the Department of the Interior made the correct 
decision to defer all leases due to the inadequacy of its 
cultural resource analysis. Since then, the BLM has failed to 
work with Acoma to address deficiencies in its cultural 
resources information, and the BLM has never offered another 
site visitation.
    In the lease sales that followed, similar problems 
occurred. In December 2018, Acoma demanded site visitations and 
offered to have Acoma representatives go into the field to help 
identify Acoma's cultural resources. This offer by Acoma was 
not considered by BLM. Instead, BLM proceeded with deferring 
all of the BLM Farmington Field Office parcels, while selling 
all of the BLM Rio Puerco Field Office parcels despite the 
parcels being divided only by district boundaries. These 
parcels were reliant upon much of the same information that 
concerned the Pueblo for its incompleteness.
    Last month, the BLM Farmington and Rio Puerco Field Offices 
once again nominated parcels throughout the Chaco region. With 
pressure from Acoma and other Pueblos, BLM withdrew nine 
parcels. However, BLM moved forward with the sale of an 
additional 30 parcels. Many of these parcels were adjacent to 
those parcels previously deferred due to deficiencies in the 
agency's cultural resources analysis.
    We have made many requests about what has changed on the 
ground to justify moving forward, and the agency did not 
provide a response.
    There are asks in this testimony that are on the record. In 
light of time, I will end by saying that, Mr. Chairman and 
members of the Committee, I am here today to express these 
words on behalf of my Acoma people today and those not yet 
born. As their leader, I ask you to join me, my ancestors, and 
my great-grandchildren as we fulfill our collective inherited 
responsibility to protect Waphrba'shuka and ensure the 
continuance of its heartbeat for our future.

    [The prepared statement of Mr. Vallo follows:]
     Prepared Statement of Governor Brian D. Vallo, Pueblo of Acoma
    On behalf of the Pueblo of Acoma (``Pueblo'' or ``Acoma''), I thank 
members of the Committee for traveling here to learn about the impacts 
of oil and gas development, and the importance of protecting 
Waphrba'shuka--Chaco Canyon, and the Greater Chaco Region.
                           cultural resources
    Chaco Canyon and the Greater Chaco Region plays an integral role in 
Acoma's living history, our culture, and identity. Our discussion of 
Chaco cannot be separated from our discussion of our present-day home 
and community of Haaku, Acoma. As Acoma people, Chaco Canyon and the 
Greater Chaco Region are deeply rooted in our collective memory, and 
the experiences of our ancestors. It is an extension of our ancestral 
homeland, where our Ancestors lived for generations to form the 
foundations of our cultural practices, traditions, and beliefs that 
help define our identity as Acoma people today. Chaco Canyon, and its 
vast landscape, are not abandoned--but contain the cultural resources 
that tie Acoma to Chaco, and from Chaco to the place of our emergence.
    The Greater Chaco Region is therefore a living landscape, depended 
on by living indigenous communities, like Acoma. Within the Greater 
Chaco Region are archaeological and significant cultural resources, 
left by our Creator, utilized by our Ancestors, and accessible to us 
for the continuance of our cultural practices. As Acoma, we have a 
culturally embedded and inherent responsibility to protect these 
resources. Many of these cultural resources remain unidentified in the 
Greater Chaco Region. While archaeologists are adept at recognizing 
many types of archaeological resources (potsherds, room blocks, pit 
houses, etc.), many of the cultural resources important to the Pueblo 
are outside the domain of archaeology. For Acoma, all ancestral pueblo 
archaeological resources are cultural resources, but not all cultural 
resources are archaeological in nature, and therein, lies the major 
issue. When we are confronted with unchecked oil and gas development in 
a region we know to be rich in cultural resources, we are forced to 
rely upon Federal agencies, as our trustee, to safeguard these 
resources. However, these agencies are often unable or unwilling to 
take the necessary first step needed to engage with tribal experts to 
identify these significant cultural resources. This necessary first 
step includes providing us with the opportunity to survey nominated 
lease parcels and potential drilling sites before Federal action is 
taken.\1\
---------------------------------------------------------------------------
    \1\ See ``Uncited Preliminary Brief (Deferred Appendix Appeal) of 
Amici Curiae All Pueblo Council of Governors and National Trust for 
Historic Preservation, in Support of Appellants,'' Dine Citizens 
Against Ruining Our Environment, et al v. Ryan Zinke, et al, Civ. No. 
18-2089 (Sept. 7) (10th Cir. 2018). All Pueblo Council of Governors, 
amicus brief describing violations of the National Historic 
Preservation Act, and implementing regulations in failing to consult 
with Pueblo tribal governments during applications for permits to drill 
(``APDs''), in order to gather required information about potentially 
affected historic properties including traditional cultural properties 
(TCPs), and how approving the APDs would adversely affect Pueblo TCPs.
---------------------------------------------------------------------------
                 current oil and gas development issues
    Currently, oil and gas development is overwhelming this fragile and 
sacred landscape. The BLM Farmington Field Office, whose boundaries 
include the primary bulk of the New Mexico portions of the Greater 
Chaco Region, has exhausted nearly all available lands for leasing. Due 
to developments in oil and gas technology, previously inaccessible 
reaches of oil are now open, dangerously encroaching upon Chaco Canyon. 
This renewed interest by industry has spilled east into a portion of 
the neighboring BLM Rio Puerco Field Office that juts into the Greater 
Chaco Region.\2\ Under the guise of ``streamlining,'' \3\ the BLM 
issued Instruction Memorandum 2018-034, ``Updating Oil and Gas Leasing 
Reform--Land Use Planning and Lease Parcel Reviews,'' which has made an 
already fraught situation worse by strictly adhering to a mandatory 
quarterly leasing schedule, dismantling many land management processes, 
and all but ensuring oil and gas leases are sold within in a minimum 6-
month time frame. This rush to sell leads to incomplete and inadequate 
analyses under the National Environmental Policy Act and the National 
Historic Preservation Act.\4\
---------------------------------------------------------------------------
    \2\ See Attachment 1 ``Map--BLM Lease Parcels Overview.''
    \3\ See BLM Instruction Memorandum 2018-034, ``Updating Oil and Gas 
Leasing Reform--Land Use Planning and Lease Parcel Reviews.''
    \4\ Under the National Historic Preservation Act (``NHPA''), 54 
U.S.C. Sec. 300101 et seq. and its implementing regulations, Pueblo 
cultural resources may be considered historic properties or traditional 
cultural properties under proper analysis and may be eligible for 
listing on the National Register of Historic Places. Under the NHPA 
when a Federal undertaking takes place, a process, often referred to as 
the Section 106 process begins. Section 106 is a critical, step-driven 
process, meant to determine, in order, the (1) area of potential 
effects; (2) identification of historic properties; (3) the assessment 
of adverse effects; and (4) the resolution of adverse effects. The 
Section 106 process is where meaningful tribal consultation is required 
to advise the agency on the identification and evaluation of historic 
properties, including those of traditional religious and cultural 
importance. The National Environmental Policy Act (``NEPA'') 
incorporates NHPA analysis into its environmental assessments and 
environmental impacts statements, requiring simultaneous analyses in 
order to assess the full impact of an undertaking.

---------------------------------------------------------------------------
March 2018 Lease Sale (BLM Farmington Field Office)

    In March 2018, the Pueblo of Acoma protested the nomination of 
parcels in the Greater Chaco Region, some coming within 10 miles of the 
Chaco Culture National Historical Park (``CCNHP''). Acoma demanded site 
visits to view the parcels in order to determine the presence of Acoma 
cultural resources. In the single sample field investigation, Acoma, 
along with representatives from other Pueblos, observed features viewed 
by them as cultural resources. Many of these cultural resources were 
unaccounted for by the BLM. For example, Acoma representatives observed 
tracts with a type of ancestral agricultural land modification found 
throughout the core of Acoma's traditional homeland, to which they 
refer to as na baa'ma. Na baa'ma tracts are more than simply settings 
suitable for farming, rather these areas are integral in Acoma's age-
old cultural-historic traditions about how its people learned to 
interact with land and water resources to sustain their community over 
centuries. These locations are often associated with other cultural and 
archaeological resources which Acoma's representatives observed. With 
these observations, and limited tribal consultation thereafter, the 
Pueblo of Acoma, along with the All Pueblo Council of Governors 
(``APCG''), protested the lease sale. Subsequently, the Department of 
the Interior made the correct decision, by choosing to defer all leases 
in the BLM Farmington Field Office due to concerns about the adequacy 
of its cultural resource analysis.
    Citing concerns about the uncertainty of cultural impacts, then-
Secretary Ryan Zinke stated: ``I've always said there are places where 
it is appropriate to develop and where it's not. This area certainly 
deserves more study [.] . . . We understand the cultural importance of 
this area, and the need to gather additional information about this 
landscape before holding a lease sale.'' \5\ Since then, the BLM has 
not worked with the Pueblo of Acoma to address deficiencies in its 
cultural resource information, and the BLM has never offered another 
site visitation.
---------------------------------------------------------------------------
    \5\ See BLM Press Release ``BLM Defers Oil and Gas Lease Sale in 
New Mexico'' available at: https://www.blm.gov/press-release/blm-
defers-oil-and-gas-lease-sale-parcels-new-mexico.

---------------------------------------------------------------------------
December 2018 Lease Sale (BLM Farmington & Rio Puerco Field Offices)

    In December 2018 the BLM Farmington and Rio Puerco Field Offices 
nominated additional parcels in the Greater Chaco Region, with the BLM 
Farmington Field Office having parcels within 10 miles of the CCNHP. 
The Pueblo of Acoma, APCG, and individual Pueblos, protested, offering 
the same reasons cited during the protest of the March 2018 Lease 
Sale--the insufficiency of the agency's efforts to identify Acoma's 
cultural resources known to exist in the region. No sample field 
investigations were offered by either field office, despite the 
Pueblo's requests and offers to allow Acoma representatives into the 
field to assist the BLM in identifying critical cultural resources. 
Acoma and APCG protested the lease sale, resulting in the BLM 
Farmington Field Office deferring all of its parcels. However, the BLM 
Rio Puerco Field Offices chose to sell leases for all its parcels.
    This discrepancy baffled the Pueblo. Only divided by district 
boundaries, many of the parcels offered by the two offices were in the 
same vicinity, some less than \1/2\ mile from each other, and therefore 
suffering from the same lack of information concerning Pueblo cultural 
resources. The Pueblo of Acoma can only conclude that an arbitrary and 
capricious action occurred.

March 2019 Lease Sale (BLM Farmington & Rio Puerco Field Offices)

    Most recently, the BLM Farmington and Rio Puerco Field Offices 
nominated parcels in the BLM's March 2019 Oil and Gas Lease Sale. 
Again, the BLM Farmington Field Office nominated parcels in the Greater 
Chaco Region, with nine coming within 10 miles of CCNHP. In February, 
these nine parcels were withdrawn due to pressure from the Pueblos. 
However, the Farmington Field Office retained nearly 22 parcels in its 
lease sales, many just outside the 10-mile area surrounding CCNHP. 
Several of these parcels were adjacent to, or near, parcels previously 
deferred in March and December 2018 due to deficiencies in the agency's 
cultural resource analysis under NHPA and NEPA.
    The Pueblo of Acoma requested tribal consultation with both field 
offices through the BLM New Mexico State Office, at its earliest 
opportunity after the lapse in Federal appropriations ended, but prior 
to the issuance of the draft environmental assessments. The lapse in 
Federal appropriations had closed all communication with staff at 
district levels, including key tribal consultation coordinators.\6\ 
Despite the government shutdown, no delay in the leasing schedule 
occurred commensurate with the 35 days lost during the shutdown. 
Instead, Acoma only consulted with the Farmington Field Office about a 
week before the lease sale, and the Rio Puerco Field Office failed to 
meet with the Pueblo. Again, no sample field investigations occurred, 
despite Acoma's requests and offers to allow Acoma representatives into 
the field to assist the BLM in identifying cultural resources that the 
agency failed to identify in the previous lease sale analyses. To 
Acoma's knowledge, no additional or substantive work occurred that 
would correct the issue of BLM's inability to identify Acoma cultural 
resources. As a result, the BLM Farmington and Rio Puerco Field Offices 
moved forward and sold the remaining 30 leases in the March 2019 lease 
sale.
---------------------------------------------------------------------------
    \6\ See, Protest Letter from Aaron M. Sims, Chestnut Law Offices on 
behalf of the Pueblo of Acoma, to State Director, Bureau of Land 
Management--New Mexico State Office (Feb. 20, 2019) (on file with the 
Pueblo of Acoma and BLM NM Office).

BLM Farmington Field Office--Resource Management Plan Amendment and 
---------------------------------------------------------------------------
        draft Environmental Impact Statement

    In 2014, due to new developments in horizontal drilling and 
hydraulic fracturing technology, the BLM Farmington Field Office began 
the process of amending its 2003 Resource Management Plan. Due to the 
extent of tribal land within the jurisdiction of this field office, the 
Bureau of Indian Affairs, Navajo Regional Office, is also participating 
in this process as a co-lead agency. This Resource Management Plan 
Amendment (``RMPA''), would analyze the impact of this new technology 
in the Farmington Field Office planning area and its impact on 
previously inaccessible portions of the Greater Chaco Region (much of 
which comes to the north and east of CCNHP, which is now a high target 
for development). This guiding planning document is critical for 
appropriately regulating all BLM oil and gas activity in the Greater 
Chaco Region. Despite this important process to formulate appropriate 
land management policies, the BLM continues to move forward with oil 
and gas leasing and development, like those described above, as well as 
issuing permits to drill wells, and granting rights-of-way for related 
infrastructure. These backdoor processes mean new leases, like those in 
the December 2018 and March 2019 lease sales, and associated 
development will not be subject to the RMPA. Instead, these activities 
go forward without being subject to well-thought-out policies that 
Acoma, and other Pueblos and tribes, are attempting to address with the 
BLM and the Bureau of Indian Affairs in the RMPA.
    Under the Federal Land Policy and Management Act, the Federal law 
that guides the BLM in stewarding our public lands, the RMPA must 
strike a critical balance in addressing the needs of ongoing 
development in the Greater Chaco Region, and at the same time 
protecting its complex cultural and living landscape. This takes time. 
Our fear is that once all parties complete an adequate RMPA, there will 
be nothing left to save--as the BLM will have leased much of the 
remaining available land in the Greater Chaco Region.
                             acoma efforts
    The Pueblo of Acoma has never been uncooperative and/or 
unresponsive where these issues are concerned, in fact, the Pueblo has 
always, offered solutions to address the critical lack of information 
about Acoma's ties to Chaco Canyon, the Greater Chaco Region, and its 
cultural resources therein. In consultation, Acoma repeatedly 
underscored the need for a comprehensive ethnographic assessment and 
cultural landscape analyses by Federal agencies to identify previously 
unidentified cultural resources, and has offer to assist agencies in 
re-evaluating the archaeological sites it has identified. In 
particular, the BLM has repeatedly responded that it does not have the 
funding, resources, or frankly, the time, to conduct such studies.\7\ 
As such, our interpretation is that the agency is stating it does not 
have the time to comply with the clear mandates of Federal law. As a 
result, the Pueblo of Acoma, alongside outside partners, is conducting 
a limited ethnographic assessment of Acoma's ties to the Greater Chaco 
Region. This important study to document Acoma's relationship with 
Chaco Canyon, provides critical information about the types of cultural 
resources expected to be found, information to analyze previously 
identified archaeological sites, and areas of critical importance to 
the Pueblo. Through the expense of Acoma's time and admittedly limited 
financial resources, our hope is that this work will inform the BLM's 
current data that we know to be insufficient and incomplete.
---------------------------------------------------------------------------
    \7\ This is despite duties under Section 106 during an undertaking 
to fill critical information gaps, when an agency does not have the 
information it needs. Or, despite the BLM's standing obligation under 
54 U.S.C. Section 306101, and its implementing regulations, requiring 
the agency to establish its own historic preservation programs for the 
identification, evaluation, and protection of historic properties in 
its control (this is often referred to as ``Section 110'' of the NHPA).
---------------------------------------------------------------------------
                                requests
    Acoma has a number of requests for you that we believe together 
will help protect the cultural resources in the Greater Chaco Region.

    First, we request that you support the Chaco Cultural Heritage Area 
Protection Act, which would remove Federal minerals in the designated 
withdrawal area from future oil and gas development.

    Second, we request that, until the legislation is passed, pressure 
be placed on the Department of the Interior (``DOI'') to prospectively 
deem the parcels within the withdrawal area unavailable for oil and gas 
development before DOI takes the step of including them in a lease 
sale. And, until DOI takes this prospective action, we ask that you 
mandate DOI to remove parcels within that area from each lease sale in 
which they are listed.

    Third, we request that pressure be placed on DOI for active 
collaboration with the Pueblos, to prospectively identify and analyze 
the cultural resources, in compliance with Federal law, on proposed 
parcels for oil and gas leasing even outside the withdrawal area before 
listing the parcels in a lease sale. This is especially critical for 
parcels that fall just outside the withdrawal area boundary--similar to 
those sold in the most recent March 2019 lease sale. And, when DOI does 
list those parcels without sufficient study as required by law, we ask 
that you instruct DOI to remove them from the particular lease sale 
until the studies are conducted, just as Secretary Zinke did in March 
2018.

    Fourth, we request that you place pressure on DOI to rescind 
haphazard directives including BLM Instruction Memorandum 2018-034, 
that leads to forced development, insufficient analysis, and the likely 
destruction of our cultural resources in violation of Federal law. We 
ask that directives like BLM Instruction Memorandum 2018-034 be 
rescinded, or exclude the BLM-New Mexico Office from its application, 
to allow for the RMPA to be developed and implemented without 
undermining by oil and gas leasing and permitting activities.
    Last, we request that you encourage DOI to work with Acoma, 
individual Pueblos, and the APCG to study the cultural resources in the 
Greater Chaco Region. APCG is currently in discussions with DOI on a 
proposed study of an area within the Greater Chaco Region. This study 
and studies of this type could serve to fill the critical gap in 
information about Pueblo cultural resources that the BLM currently 
suffers.

                                 *****

                              ATTACHMENT 1

                  ``Map--BLM Lease Parcels Overview''
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 __
                                 

    Mr. Lowenthal. Thank you, Governor Vallo.
    Now the Chair recognizes Vice President Lizer for your 
testimony.

   STATEMENT OF THE HON. MYRON LIZER, VICE PRESIDENT, NAVAJO 
                  NATION, WINDOW ROCK, ARIZONA

    Mr. Lizer. [Speaking native language.] Good morning. Thank 
you, Chairman Lowenthal, Representative Grijalva, 
Representative Haaland, and Representative Lujan. My name is 
Myron Lizer, and I am the Vice President of the Navajo Nation. 
I appreciate the opportunity to testify today at this field 
hearing on the impacts of oil and gas development for air 
pollution and sacred sites. The ability for the Navajo Nation 
to determine where oil and gas development occurs and the 
ability to regulate oil and gas development is fundamental to 
providing a clean environment and protecting Native American 
sites.
    While oil and gas development on the Navajo Nation has 
provided royalties to the Navajo Nation for government 
services, we are also looking toward the future and alternative 
sources of energy to provide revenue for the Nation. Most 
importantly, Navajo Nation President Jonathan Nez and myself 
issued the Navajo Hayoolkaal Proclamation or the Navajo Sunrise 
Proclamation to diversify the Navajo Nation energy portfolio 
from carbon-based energy to renewable energy development.
    The Bureau of Land Management has postponed oil and gas 
lease sales near Chaco Canyon to allow for the further review 
of cultural impacts. With regard to BLM's development of a 
management plan for the area, the Navajo Nation supports the 
BLM's development of a sustainable management plan that would 
prevent Federal oil and gas extraction in a 10-mile radius, or 
Protection Zone, from the epicenter of the Chaco Cultural 
National Historical Park.
    If there is increased oil and gas development in the Chaco 
region, there will be increased risk for disturbance of 
structures and artifacts. Waste from oil and gas extraction can 
further contaminate the region. Increased truck traffic as well 
as gas-powered machinery can also negatively impact air 
quality. Oil and gas development activities will also 
contribute to an increase in emissions such as particulate 
matter, methane, VOCs and other greenhouse gases. Over time, 
emissions can damage the sensitive structures and vulnerable 
cultural artifacts within the Chaco region.
    The Navajo Nation Environmental Protection Agency, or 
NNEPA, has some of the most advanced tribal environmental 
programs in the country. The NNEPA holds primacy over air and 
water quality standards and conducts permitting for water 
programs. Under the proposed Navajo Nation Minor Source Permit 
Regulations, the Navajo Nation will provide air pollution 
permits for minor sources to help reduce methane and volatile 
organic compounds emissions. As proposed, minor sources must 
not emit more than 5 tons per year of VOCs in an attainment 
area.
    Methane emissions not only have an economic impact but also 
have an impact on the environment. Methane is a greenhouse gas 
that contributes to climate change by increasing the 
atmospheric temperature. The Navajo Nation's proposed minor 
source rule will help reduce methane emissions by identifying 
oil and gas facilities on the Navajo Nation through a 
permitting process.
    The Navajo Nation also fears that there will be an increase 
in the already high number of oil spills from broken pipes, 
particularly during the winter when pipes freeze and break. 
Given our limited resources, the remoteness of Chaco, and in 
some cases, authority, the Navajo Nation is severely limited to 
responding to spills. If a spill were to occur, we would have 
to call upon U.S. EPA, who then notifies its on-scene 
coordinator, who then oversees the process and shares 
information with us. In the past, our OSC representatives would 
come from California or Nevada, further delaying response 
times. While a spill eventually gets addressed, we have issues 
and concerns with response time and oversight given the 
limiting factors.
    With that said, I also want to address uranium mining and 
make clear that we do not support development of any uranium 
mining. Uranium mining has been detrimental to the Navajo 
people for many decades, and I want to make sure that this does 
not harm any Navajo family again. Navajo law supports a 
moratorium on uranium mining and processing activity in Navajo 
Indian Country.
    In summary, the Navajo Nation is looking to diversify its 
energy portfolio to provide clean energy to the Navajo Nation 
and the Western United States.
    I appreciate the Committee's invitation to testify at this 
hearing on oil and gas impacts. Thank you.

    [The prepared statement of Mr. Lizer follows:]
    Prepared Statement of Myron Lizer, Navajo Nation Vice President
    Thank you Chairman Lowenthal, Representative Grijalva, 
Representative Haaland, and Representative Lujan. My name is Myron 
Lizer and I am the Vice President of the Navajo Nation. I appreciate 
the opportunity to testify today at this field hearing on the impacts 
of oil and gas development for air pollution and sacred sites. Oil and 
gas development has provided sustained income for the tribal government 
and provided jobs for the Navajo Nation, which has about 42 percent 
unemployment. In the past, the Navajo Nation has used its carbon-based 
natural resources to provide energy to the United States. However, the 
ability for the Navajo Nation to determine where oil and gas 
development occurs and the ability to regulate oil and gas development 
is fundamental to providing a clean environment and protecting Native 
American sacred sites.
    While oil and gas development on the Navajo Nation has provided 
royalties to the Navajo Nation for government services and general 
funds, we are also looking toward the future and alternative sources of 
energy to provide revenue for the Nation. Most recently, Navajo Nation 
President Jonathan Nez and myself issued the ``Navajo Hayoolkaal 
Proclamation'' or the ``Navajo Sunrise Proclamation'' to diversify the 
Navajo Nation energy portfolio from carbon-based energy to renewable 
energy development, and to restore the environment, provide electricity 
to rural homes, and support new community and utility-scale renewable 
energy projects to provide power to the Navajo Nation and the Western 
United States. By setting this direction for the Navajo Nation, we look 
to be the leader in the clean energy market.
    With regards to oil and gas development, we are sensitive to the 
location of these facilities near our sacred and cultural sites. This 
is dictated by our Navajo culture and tradition to respect our 
relatives who have come before us. This is the reason we continue to 
support the protection of the Chaco Canyon area from mineral mining and 
development and the long-awaited Chaco Cultural Heritage Area 
Protection Act that Senator Udall introduced.
    Although we are not direct descendants of the pueblo who inhabited 
Chaco, our people have long settled in the area and many of our 
traditional stories are connected to the Chaco area and the surrounding 
region. As native people, we are connected to the land and it is 
important to preserve and protect the dwellings and the belongings of 
ancestral Native people from disturbance. This is not only a Navajo 
teaching but an acknowledgement of a way of life for all indigenous 
peoples.
    The Bureau of Land Management (BLM) has postponed oil and gas lease 
sales near Chaco Canyon to allow for the further review of the cultural 
impacts. With regards to BLM's development of a management plan for the 
area, the Navajo Nation supports the BLM's development of a sustainable 
management plan that would prevent Federal oil and gas extraction in a 
10-mile radius or Protection Zone from the epicenter of the Chaco 
Cultural National Historical Park.
    If there is increased oil and gas development in the Chaco region 
there will be increased risk for disturbance of the structures and 
artifacts. Waste from oil and gas extraction can further contaminate 
the region. Increased truck traffic as well as gas powered machinery 
can also negatively impact air quality. Oil and gas development 
activities will also contribute to an increase in emissions such as 
particulate matter (PM), methane, VOCs and other greenhouse gases. Over 
time, emissions can damage the sensitive structures and vulnerable 
cultural artifacts within the Chaco region.
    Ambient air quality on the Navajo Nation is classified by the U.S. 
Environmental Protection Agency (U.S. EPA) as attainment/unclassifiable 
of all monitored air pollutants except for a portion of Coconino 
County, Arizona located within 50-km of Navajo Generating Station, 
which has been designated unclassifiable with the 2010 SO<INF>2</INF> 
National Ambient Air Quality Standards (NAAQS). The NAAQS consists of 
six (6) criteria pollutants for which the Navajo Nation currently 
monitors four (4) of these criteria pollutants: particulate matter 2.5 
(PM<INF>2.5</INF>, or airborne particles 2.5 microns in diameter and 
smaller), ozone (O<INF>3</INF>), sulfur dioxide (SO<INF>2</INF>), and 
nitrogen dioxide (NO<INF>2</INF>). In the case of the designated non-
attainment area, the applicable threshold for a proposed source or 
modification is determined based on the designation where the source is 
or would be located. If the source straddles the two areas, the more 
stringent thresholds apply.
    The U.S. EPA regulates criteria pollutants using the NAAQS, which 
establish ambient levels for each criteria pollutant using health and 
welfare-based criteria. There are two series of standards. As per the 
CAA Sec. 109(b), the ``primary'' standards are designed to provide an 
adequate margin of safety that is essential to protecting public 
health. The ``secondary'' standards are intended to protect public 
welfare from any known or anticipated adverse effects associated with 
the presence of a criteria pollutant in the ambient air. The primary 
standards protect public health and secondary standards protect public 
welfare by preventing damage to property such as farm crops and 
buildings, visibility impairment in national parks and wilderness 
areas, and the protection of ecosystems (U.S. EPA NAAQS Table).
    The Navajo Nation Environmental Protection Agency (NNEPA) has some 
of the most advanced tribal environmental programs in the country. The 
NNEPA holds primacy over air and water quality standards and conducts 
permitting for water programs. The Nation has received delegation 
approval for a Part 71 Operating Permit Program (also known as Title V) 
from U.S. Environmental Protection Agency (EPA) Region IX on October 
13, 2004 and March 21, 2006. This authority allows the NNEPA to 
administer a Title V air program under the Clean Air Act. Under this 
delegation, 14 major sources with potential to emit pollutants over 100 
tons per year, are regulated.
    The Navajo Nation has proposed a rule to establish a minor source 
permitting program under the Navajo Nation Clean Air Act. Under the 
proposed Navajo Nation Minor Source Permit Regulations, the Nation will 
provide air pollution permits for minor sources to help reduce methane 
and volatile organic compounds (VOCs) emissions. As proposed, minor 
sources must not emit more than 5 tpy (tons per year) of VOCs in an 
attainment area. Also, under the proposed rule, if the Navajo Nation 
were to become designated as non-attainment, the applicable threshold 
for a proposed source or modification will be determined based on the 
designation where the source is or would be located. If the source 
straddles the two areas, the more stringent thresholds would apply.
    Methane emissions not only have an economic impact but also can 
have an impact on the environment. Methane is a greenhouse gas that 
contributes to climate change by increasing the atmospheric 
temperature. The Navajo Nation's proposed minor source rule will help 
reduce methane emissions by identifying oil and gas facilities on the 
Navajo Nation through a permitting process. Tracking oil and gas 
emissions from wells, monitoring the types of oil and gas wells and 
retaining location information of oil and gas wells will provide a 
foundation for future assessments and recommendations on reducing 
emissions, including planning for regulatory initiatives to further 
reduce emissions from applicable sources. The Navajo Nation then can 
provide recommendations to industrial sources such as oil and gas 
facilities, agriculture, and businesses and homes to lessen emissions.
    The ``Tribal Minor New Source Review Program for Indian Country'', 
(76 Fed. Reg. 38784 (July 1, 2011), 40 C.F.R. Sec. Sec. 49.151-161), 
currently regulates minor sources on the Navajo Nation. After the 
Navajo Nation issues its own Minor Source Program regulations, NNAQCP 
will seek to implement this program in place of the Federal Government. 
The NNAQCP implementation will give the Navajo Nation greater control 
over its air resources, and will allow the Navajo Nation to regulate 
emissions of air pollution that may impact the environment, public 
health and welfare, and cultural and religious resources. The proposed 
rule also would impose fees to cover the costs of administering the 
minor source program, including permit application, revision and 
renewal fees, annual emissions fees, fees for coverage under general 
permits, and registration fees.
    On September 28, 2018, finalized the DOI BLM Waste Prevention, 
Production Subject to Royalties, and Resource Conservation rule for 
methane (83 Fed. Reg. 49184). The Navajo Nation provided comments on 
the proposed rule and requested tribal consultation.
    The Navajo Nation also fears that there will be an increase in the 
already high number of oil spills from broken pipes, particularly 
during the winter when pipes freeze and break. Given our limited 
resources, remoteness of Chaco, and, in some cases, authority, the 
Navajo Nation is severely limited to responding to spills. If a spill 
were to occur, we would have to call upon U.S. EPA who then notifies 
its On-Scene Coordinator (OSC), who then oversees the process and 
shares information with us. In the past our OSC representatives would 
come from California or Nevada, further delaying response times. While 
a spill eventually gets addressed, we have issues and concerns with 
response time and oversight given the limiting factors.
    With that said, I also want to address uranium mining and make 
clear that we do not support development of any uranium mining. Uranium 
mining has been detrimental to the Navajo people for many decades and I 
want to make sure that it does not harm any family again. Navajo law 
also supports a moratorium on uranium mining and processing activity in 
Navajo Indian Country.
    In summary, the Navajo Nation is looking to diversify its energy 
portfolio to combat climate change and provide clean energy to the 
Navajo Nation and the Western United States. I appreciate the 
Committee's invitation to testify at this hearing on oil and gas 
impacts. Thank you.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Vice President.
    The Chair now recognizes Chairman Nez to testify.

  STATEMENT OF CHAIRMAN RICKIE NEZ, RESOURCES AND DEVELOPMENT 
     COMMITTEE, NAVAJO NATION COUNCIL, WINDOW ROCK, ARIZONA

    Mr. Nez. Good morning. Thank you, Chair Lowenthal, 
Assistant Speaker Lujan, Vice Chair Haaland, and also Mr. 
Grijalva. My name is Rickie Nez, and I am a council delegate on 
the Navajo Nation Council. I chair the Resources and 
Development Committee, which possesses oversight authority over 
the Nation's water, land, environmental protection, cultural 
resources, minerals, and economic development, among other 
areas.
    I am Hooghanlani, born for Ozeii Tachii'nii. My cheiis, or 
maternal grandfathers, are Tsenabahilnii. My nalis, or paternal 
grandfathers, are Kinyaa'aanii.
    Historically, the Navajo Nation has received substantial 
royalties from energy extraction on our lands, in addition to 
royalties paid to Navajo allottees. There are approximately 
25,000 Navajo allottees.
    The generous contributions of the oil, gas, and helium 
industries to the Nation's revenues has supported a 
sophisticated tribal government that provides substantial 
government resources for the benefit of its citizens, though 
the Nation has always recognized that due to the inherent 
environmental and safety risks involved with energy extraction, 
it is critical to balance drilling, fracking, and other forms 
of extraction with sensible regulations that prevent harm to 
our people and their traditional lifestyles.
    The Navajo Nation is in the process of renewing a 
cooperative agreement with the Department of the Interior to 
continue the 100 percent funding of six oil and gas inspectors. 
The Navajo Nation stresses that it is important to keep the 
funding structure as a cooperative agreement and not a 638 
contract.
    Last year, the Navajo Nation received $32.4 million in oil, 
gas, and helium royalties. However, according to a study 
conducted by the Environmental Defense Fund, the volume of 
natural gas lost due to flaring or venting is worth $3.4 
million and up to $895,000 in royalties. They also concluded 
that the amount of natural gas lost during the extraction 
process is 65 percent higher than the national average. With 
limited economic opportunity on the Navajo Nation and the 
closing of the two large economic engines on the Nation in the 
Navajo Generating Station and the Kayenta Mine, it is critical 
that this lost revenue be captured for the benefit of the 
Nation's general revenues and its allottees, the majority of 
which reside in the greater Chaco area.
    Given the changes to BLM's methane rule, which would have 
increased the captured gases and the Navajo Nation's royalties, 
it is now incumbent upon the Nation to determine whether it 
will develop regulations that account for when the flaring of 
associated gas from oil wells will be royalty-free.
    In evaluating their new SAFE vehicle rule, the EPA and DOT 
estimate that upstream carbon dioxide emissions from oil 
production, transportation, refining and distribution will 
increase by 159 million metric tons through model year 2029. 
The agencies did not examine the likely increase in methane 
emissions as a result of their rule.
    If the government is enacting policies that will increase 
oil and gas production on Federal lands, whether they are 
tribal or adjacent to tribal lands, it is imperative that the 
Nation be able to capture lost revenue from any increased 
flaring or venting that may occur.
    As the chairman of the Resources and Development Committee, 
I am neither committing nor desisting from pursuing regulations 
on natural gas flaring and venting on Navajo lands, though I am 
committing to investigating this issue over the course of my 
chairmanship.
    Any increase in emissions near Chaco may create regional 
haze and smog, both of which may impact the health and the 
traditional lifestyles of many of our people.
    With respect to the air and atmosphere of the Chaco area 
specifically, the region holds sacred significance for our 
people, and many traditional practitioners continue to use the 
area to this day. Many of our traditional stories and oral 
traditions rest in this region.
    Without divulging too much detail, the entire Chaco region 
aligns with astronomical phenomena that are important to 
contemporary Navajo ceremonies and practices. Being able to see 
the solstices and equinoxes within certain areas or buildings 
unobstructed by haze or smog from gas or other emissions is 
critical to many of our people.
    The inverse is also true. Many believe it is critical that 
certain deities or entities within the sky or heavens need to 
be able to observe the buildings in Chaco as well as the 
activities of our people.
    In addition, our resources are important to our Navajo 
Nation. Please consider funding the water infrastructure master 
plan to bring water to every Navajo community.
    Thank you very much for listening to my testimony, and may 
God bless you all.

    [The prepared statement of Mr. Nez follows:]
 Prepared Statement of the Honorable Rickie Nez, Delegate and Chair of 
   the 24th Navajo Nation Council Resources and Development Committee
    Thank you Chair Grijalva, Assistant Speaker Lujan, Vice Chair 
Haaland, and Subcommittee Chair Lowenthal. My name is Rickie Nez and I 
am a council delegate on the Navajo Nation Council. I chair the 
Council's Resources and Development Committee, which possesses 
oversight authority over the Nation's water, land, environmental 
protection, cultural resources, minerals, and economic development, 
among many other areas.
    I am Hooghanlani, born for Ozeii Tachii'nii, my cheiis, or maternal 
grandfathers are Tsenabahilnii, and my nalis, or paternal grandfathers 
are Kinyaa'aanii.
    Historically, the Navajo Nation has received substantial royalties 
from energy extraction on our lands in addition to royalties paid to 
Navajo allottees. There are approximately 25,000 Navajo allottees.
    The generous contributions of the oil, gas, and helium industries 
to the Nation's revenues has supported a sophisticated tribal 
government that provides substantial government resources for the 
benefit of its citizens.
    Though, the Nation has always recognized that due to the inherent 
environmental and safety risks involved with energy extraction, it is 
critical to balance drilling, fracking, and other forms of extraction 
with sensible regulations that prevent harm to our people and their 
traditional lifestyles.
    The Navajo Nation is in the process of renewing a cooperative 
agreement with the Department of the Interior to continue the 100 
percent funding of six oil and gas inspectors. The Navajo Nation 
stresses that it is important to keep the funding structure as a 
cooperative agreement and not a ``638 contract.''
    Oil and gas inspectors are responsible for checking inactive wells. 
When wells are no longer capable of producing commercial quantities, 
they are permanently plugged by the operator. Inspectors will inform 
the operator if plugs are not plugged, and they may be fined if delays 
in the plugs occur or the operator fails to plug a well. Inactive wells 
that are not permanently plugged are still isolated from the atmosphere 
by casing, tubing, closed valves, and need to also be routinely 
inspected.

    Additionally, regulations can have the effect of increasing 
government revenue.

    Last year, the Navajo Nation received $32.4 million in oil, gas, 
and helium royalties. However, according to a study conducted by the 
Environmental Defense Fund, the volume of natural gas lost due to 
flaring or venting is worth $3.4 million and up to $895,000 in 
royalties. They also concluded that the amount of natural gas lost 
during the extraction process is 65 percent higher than the national 
average.
    With limited economic opportunity on the Nation and the closing of 
two large economic engines on the Nation in Navajo Generating Station 
and the Kayenta Mine, it is critical that this lost revenue be captured 
for the benefit of the Nation's general revenues and its allottees, the 
majority of which reside in the greater Chaco area.
    Given the changes to BLM's methane rule, which would have increased 
the captured gases and the Navajo Nation's royalties, it is now 
incumbent upon the Nation to determine whether it will develop 
regulations that account for when the flaring of associated gas from 
oil wells will be royalty-free.
    In evaluating their new SAFE vehicle rule, the EPA and DOT estimate 
that upstream carbon dioxide emissions from oil production, 
transportation, refining, and distribution will increase by 159 million 
metric tons through model year 2029. The agencies did not examine the 
likely increase in methane emissions as a result of their rule.
    If the government is enacting policies that will increase oil and 
gas production on Federal lands, whether they are tribal or adjacent to 
tribal lands, it is imperative that the Nation be able to capture lost 
revenue from any increased flaring or venting that may occur.
    As the chairman of the Council's Resources and Development 
Committee, I am neither committing, nor desisting from pursuing 
regulations on natural gas flaring and venting on Navajo lands. Though, 
I am committing to investigating this issue over the course of my 
chairmanship.
    Any increase in emissions near Chaco may create regional haze and 
smog, both of which may impact the health and the traditional 
lifestyles of many of our people.
    With respect to the air and atmosphere of the Chaco area 
specifically, the region holds sacred significance for our people and 
many traditional practitioners continue to use the area to this day.

    Many of our traditional stories and oral tradition rest in this 
region.

    Without divulging too much detail, the entire Chaco region aligns 
with astronomical phenomena that are important to contemporary Navajo 
ceremonies and practices.
    Being able to see the solstices and equinoxes within certain areas 
or buildings unobstructed by haze or smog from gas or other emissions 
is critical to many of our people.
    Moreover, the ability to assess astronomical phenomena in the night 
sky without obfuscation from light pollution is another concern. The 
same concerns apply to sunrises and sunsets.
    The inverse is also true. Many believe it is critical that certain 
deities or entities within the sky or heavens need to be able to 
observe the buildings in Chaco as well the activities of our people.
    I thank you for listening to my testimony regarding the careful 
balance the Navajo Nation and Federal Government must strike in the 
protection of greater Chaco and the economic sustenance of our 
government and its people.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Chairman Nez.
    I thank the panel for their testimony, and I want to remind 
the members of our Committee of Rule 3(e) that imposes 
approximately a 5-minute limit on questions.
    I am now going to recognize Members for any questions they 
may wish to ask the witnesses.
    I am going to recognize Representative Haaland for our 
first set of questions.
    Ms. Haaland. Thank you, Chairman.
    And thank you, Governor, Vice Chairman, Vice President, and 
Chairman, for being here today, for taking time out of your 
busy schedules to join us. We are very grateful for an 
opportunity to share this day with you.
    Over the last several days, we have gotten a lot of 
testimony from stakeholders in the region, the environmental 
justice folks that we met with on Saturday evening, and 
yesterday a meeting with members of the Navajo Nation 
community, folks who are concerned about the impact of gas and 
oil development on the land, and I realize that we are in a 
different era than we used to be.
    I am a member of Laguna Pueblo, and we had a bartering 
economy until the early 1950s, when the uranium mine, the 
Jackpile Mine opened in Laguna, and it was home to the largest 
open-pit mine in the world, and we are still feeling the 
effects of that on our people.
    It is difficult, I think, for Indian people, especially 
when in the 1950s I had to surmise that in our tribal 
government a lot of people didn't speak English. Keresan is our 
first language. So, when those deals were happening, when the 
mining company came to Laguna and said we want to open this 
mine on your land and everybody will have money and it will be 
a great thing, were we able to ask the right questions of those 
companies due to the language barrier? To me, that is a major 
thing when you are dealing with issues between Indian tribes 
and industries.
    So, in hindsight, would we have allowed the largest uranium 
mine to open on Laguna? I think that people would think twice 
about that. I think aside from the fact that we paid dearly in 
social issues and in our environment because of the blasting, 
people's ancestral homes cracking apart every time there was a 
blast at the mine, those are things that we can never get back. 
People can't get back their great-grandmother's home after it 
was demolished for mining, and people who had to essentially 
abandon their homes and have a new home built because there 
were traces of uranium in it, we can't get those things back.
    And I am feeling the same way about what is happening right 
now with our gas and oil production. It is so much easier to 
destroy something than it is to build it back up, right? You 
can cut down a tree that has grown for 500 years, but none of 
us are going to be around to see the next tree grow. And I feel 
like that is what is happening right now.
    I don't want any New Mexican to go without an opportunity 
to support their families. That is extremely important to me. I 
know what it is like to be poor. I know what it is like for 
people around me to be poor. I know what it is like for people 
to essentially abandon their life and culture because they have 
to make a hard decision: I need to go work somewhere else, I 
can't stay here because I have to go support my family and give 
my family opportunities. That is a difficult decision that 
happened to a lot of us. My grandparents moved to Arizona to 
work on the railroad and had to leave some things behind. It is 
hard to get back those things once they are out of your grasp.
    So, I want you to know, Chairman, that we care deeply about 
the Navajo people having opportunities to make a living. But I 
also feel that the health effects that this industry is having 
on people's health, you can't get that back many times either. 
Yesterday, in a hearing or a presentation that we had at the 
Chaco Canyon Visitors Center, there was a man with an inhaler. 
Those are real effects that happen to people, and they start 
when the kids are very young because they are breathing that 
air all the time.
    I would love for us to explore other ways for folks to make 
a living. I don't know if renewable energy has even been 
explored on some of this land where people could find ways to 
support their families.
    And I apologize. I took up my entire 5 minutes without 
asking a question.
    [Laughter.]
    Ms. Haaland. But I will leave it to my colleagues to ask 
the questions, because we have all experienced what we have 
experienced the last 3 days, and I just thank you all for being 
here and being a voice for the people.
    [Applause.]
    Mr. Lowenthal. Thank you, Representative Haaland.
    I now recognize Representative Lujan for 5 minutes of 
questions.
    Mr. Lujan. Thank you, Mr. Chairman. I thank Chairwoman 
Haaland for her testimony as well, an important statement, and 
associate myself with her remarks.
    To the panel, I have some questions pursuant to the 
legislation.
    Vice Chairman Chavarria, in your testimony, you eloquently 
described the importance of protecting Chaco. One of the 
challenges that we have with our colleagues when we have 
debates about protecting sacred sites, especially those that do 
not have the honor of representing Pueblo leaders, tribal 
leaders, people, we help them understand that this is a place 
where loved ones have been laid to rest, where ancestors have 
been laid to rest that should not be desecrated, the same way 
that a parent or a loved one of one of our colleagues, that 
they would not want someone desecrating that place of 
significance to them.
    But it is much more than a place where loved ones have been 
laid to rest. This is the land below and above, the medicine 
chest that is in these sacred areas, the prayer.
    Can you talk about the importance again of whether you 
support or do not support--and I think I heard you say it in 
your testimony, you do support--the legislation that I 
introduced with our colleagues, the Chaco Cultural Heritage 
Protection Act? Do you support that legislation?
    Mr. Chavarria. Chairman, members of the Committee, yes, I 
do.
    Mr. Lujan. Governor Vallo, do you support that legislation?
    Mr. Vallo. Thank you for your question, Chairman. Yes, we 
do.
    Mr. Lujan. Vice President Lizer, do you support the Chaco 
Cultural Heritage Protection Act?
    Mr. Lizer. Yes, sir. We do.
    Mr. Lujan. Chairman Nez, do you support the legislation?
    Mr. Nez. Yes, sir.
    Mr. Lujan. I appreciate that. I think it is important that 
as we talk about the broad support that we have for this 
legislation and the power of the support behind it, it matters 
so very much.
    What we saw yesterday was not just emotional to everyone 
that was there to be able to touch those stones and that 
mortar, but to leaders back in 800 or 850. You felt the power 
of that. But before that visit, as we traveled, I talked about 
what we saw, not just what we could smell.
    Can you also talk about the concern that you have with what 
methane emissions are doing to our people, to our health, and 
to our communities, Governor Chavarria?
    Mr. Chavarria. Yes, Chairman, members of the Committee. 
That is very essential, because Chaco Canyon is our spiritual 
sanctuary. It is a place of worship. It is a church. It is a 
place that we consider and hold dear to our hearts. If the 
environmental impacts are associated with the emissions, it 
impacts all of us. It impacts all lives. It impacts the plants 
that we use for medicines. It impacts what we consume from our 
grocery store.
    So, all this is very critical, working together, and to 
understand that the Federal Government has a unique legal 
obligation and relationship working with tribes, the Pueblos 
across the country.
    These various laws and statutes that are out there, you 
will understand that Section 106 does not satisfy at all. In 
other words, once you disturb an area, you cannot recreate it. 
You cannot restore it. You cannot replicate it to another 
place. Therefore, it is incorrect to think that mitigation can 
occur later on through that 106 process.
    This is why meaningful consultation is important, as 
required by the statute, to understand that we are at the table 
talking about the environmental, the health impacts, the 
cultural resource impacts that it has, because even though it 
is abandoned, it is not abandoned to us. It is a life site. It 
is a place that we go and visit and deal with it today.
    It does not impact just the human. It impacts the animals. 
It impacts the environment. So, there has to be additional 
analysis to occur to use that data to show that there are these 
type of impacts occurring on a day-to-day basis.
    So, Chairman and members of the Committee, we fully support 
and work together. We have to work together as a partner and 
collaborate on these issues going forward because of scientific 
data, but also the traditional ecological knowledge, the 
knowledge that we have is very important. We want to work with 
you and combine those two efforts into one study.
    Mr. Lujan. And with one of the concerns that we have with 
meaningful consultation, do you feel, yes or no--and I will ask 
each of the panelists--that meaningful consultation is 
currently taking place around Chaco from the Trump 
administration?
    Governor Chavarria?
    Mr. Chavarria. No, it is not.
    Mr. Lujan. Governor Vallo?
    Mr. Vallo. No, it is not.
    Mr. Lujan. Vice President Lizer?
    Mr. Lizer. No, sir.
    Mr. Lujan. Chairman Nez?
    Mr. Nez. No, sir.
    Mr. Lujan. I appreciate that.
    I yield back.
    Mr. Lowenthal. Thank you, Representative Lujan.
    I now recognize Chairman Grijalva for 5 minutes of 
questions.
    Mr. Grijalva. Thank you, Mr. Chairman.
    With regard to the Chaco Protection Act, it is something 
that all of you gentlemen indicated you support, as all of us 
on the dais support.
    Just an interesting footnote. Congress and the President 
signed the major lands package that was finished in January. 
Within that package was the Yellowstone Gateway Protection Act. 
Because of encroachment of development and extraction 
industries around Yellowstone, there was a sense--and this was 
sponsored by Republican colleagues that represent that general 
area--that a buffer needed to be created around Yellowstone to 
preserve those natural resources for generations in the future.
    And I would certainly suggest that the Chaco Protection Act 
and Chaco Canyon itself and what we saw and experienced 
yesterday rises to that level, in my estimation above that 
level in terms of applying the same principle of buffer zone to 
protect and assure that that protection is long-lasting. I 
mention that as a footnote.
    [Applause.]
    Mr. Grijalva. And following up, if I may, on what Mr. Lujan 
said about consultation, the present responsibility is very 
important, and I am not sure that every Member of Congress 
understands the importance of the responsibility that we have 
as Members of Congress to carry out that trust responsibility, 
to deal with the important issue of sovereignty and the self-
determination that Native nations have, and to do so as co-
equals.
    I want to mention that I think part of the effort that I 
learned and have been learning from the experiences, that 
everything from the National Historic Preservation Act, NEPA, 
Sacred Sites legislation that is on the books, cultural and 
historic preservation and protection, that those are all part 
and parcel of an agenda to strengthen, to codify into law what 
consultation means to Native nations so that we are all working 
off a blueprint and a checklist so that issues do not become 
subjective or arbitrary when we say that we have consulted with 
a nation.
    Certainly, the consultations should be required and 
demanded relative to the impacts that happen around that 
Canyon. I want to thank all of you for the input that you have 
had in that.
    I just want to ask--and let me begin with you, Mr. Vice 
Chairman, if you do not mind--about the point I just made, the 
accumulation of laws that need to be strengthened and the 
possibility of codifying into Federal law what this trust 
responsibility means in terms of consultation.
    Mr. Chavarria. Chairman, members of the Committee, 
meaningful consultation requires a dialogue with tribal 
partners occurring with a far-reaching consensus. Consultation 
must mean more than merely checking off that box and 
categorizing and objecting to tribal nations. Other agencies 
have that responsibility to sit down with tribes, engage in 
meaningful dialogue, and seek to reach agreement on key issues.
    Too often, agencies determine tribal consensus can merely 
be mitigated without reaching an agreement with tribes. The 
goal of sitting down at the table together should be mutual 
understanding and agreement. Otherwise, consultation is not 
meaningful. So, it is interpreted across the various agencies--
OK, this agency does it this way, this agency does it this way. 
There has to be an operating procedure, a step-by-step process, 
a standard that each agency should follow. When you meet with 
the Forest Service, the Park Service, BLM, EPA, they all take 
consultation from a different angle. But for us, it is sitting 
down at the table to reach consensus, to talk about the issues 
and the concerns that we have.
    Now they are doing streamlining, streamlining a lot of 
these laws for the benefit of going faster. For us, it is not 
going faster. For us, it is asking for ethnographic studies, 
these cultural studies, because they won't know what the 
traditional knowledge is contained with our Pueblos and tribes. 
They have that knowledge of what that landscape, what that 
resource was used for, religion or traditions in our culture 
that we still utilize today. And if you impact it, it is not 
just going to impact us. It is going to impact the whole 
environment, including the world for all our peoples. This is 
why climate change comes into play.
    So, Chairman, members of the Committee, it is very 
essential that I feel meaningful consultation has to be 
addressed as the standard operating procedure across all 
Federal agencies to use that same step, and I don't know if we 
do that through litigation or how that works within the Federal 
agencies, those secretaries. That is critical, because if we 
don't do that, we are going to be all going at different angles 
to reach consensus.
    Mr. Grijalva. Thank you, and I yield back.
    [Applause.]
    Mr. Lowenthal. I would like to continue on with the 
questions, that line, and the answers that the Vice Chair 
Chavarria has given. I want to ask the other members of the 
panel, give them an opportunity. I will frame it a little 
differently, but I think it is very similar to the way the Vice 
Chairman has answered. So, this is for any or all members of 
the panel to respond.
    When we are discussing leasing in the Chaco region, the oil 
and gas industry often will say, well, there are already laws 
and regulations in place to ensure that specific artifacts are 
protected from development. My question to you is, do these 
protections really cover the reasons why the region is so 
sacred to the Pueblo people and to the Navajo people? The regs 
on the books, do they really cover why it is so important to 
you and to your people?
    Mr. Vallo. Chairman Lowenthal, thank you for the question. 
They do not, quite simply. And, unfortunately, that is the 
situation that we have, that these sacred landscapes, these 
cultural landscapes are vast and, as I indicated earlier, range 
from archaeological remnants to natural features on the 
landscape, and oftentimes those are not protected under current 
law.
    We have had a history of consultation that maybe peaked, I 
would say, during the passage of the Native American Graves 
Protection and Repatriation Act, when for the first time in 
this country's history we had a mandate for consultation on the 
return or repatriation of human remains and associated objects, 
many of which came from Chaco, along with cultural patrimony. 
And while that mandate for consultation was well-intended, even 
today we have institutions and Federal agencies who are still 
approaching consultation by one attempt, making one attempt, 
and with no response maybe from a tribe, checking the 
consultation box.
    So, when we are in this time--and I mentioned this 
yesterday, that 28 years ago I served in tribal government, and 
we were having these similar conversations around Chaco Canyon. 
It was not formal consultation. However, the same messaging was 
coming across quite strongly by tribal government 
representatives.
    If we are to meet this idea of meaningful consultation on 
these issues surrounding the protection of our archaeological 
resources, our cultural landscapes, there must be some 
guidelines or some very basic principles for this to happen 
within the Federal construct, from levels like this Committee 
to those individuals who are working in the various agencies 
who have that responsibility to have direct contact with tribal 
experts.
    That needs to be established, and our tribal communities 
and tribal organizations like the All Pueblo Council of 
Governors have been working very hard, have been voicing this 
for many, many years. And until we can convince the Congress 
and convince the President, or a president, another president 
who comes in, who are willing to work with us to achieve that, 
we might not ever reach meaningful consultation.
    So, I would encourage the Committee to be that voice on our 
behalf to ensure that we have the opportunity to come together 
at the same table and discuss how and what does that framework 
for meaningful consultation look like. Thank you.
    [Applause.]
    Mr. Lowenthal. Thank you.
    I would like to give an opportunity now to ask each of the 
other Members, but I am going to come back because what I would 
like to do is to ask--not a requirement--is there one question 
that the members of the Committee or who are sitting here on 
the dais would like to ask? Is there any one question that we 
have not really asked that you would like to ask?
    I am going to start with Representative Haaland.
    Ms. Haaland. Thank you, Chairman. I mean, there are a lot 
of questions. I will yield.
    Mr. Lowenthal. Thank you.
    I think we have all been touched by your testimony here, so 
I don't think I need to ask another question, and I am going to 
get back to you, Chairman Nez. But is there something that you 
would like to add, Representative Lujan?
    Mr. Lujan. Chairman, I would like to add that I failed to 
include earlier that for those that may still be opposed to 
this legislation that we are talking about, this should not be 
controversial. All that we are saying is that we want to codify 
the long-standing BLM practice to not lease within 10 miles and 
to protect the remaining Chaco ruins and landscape nearest the 
existing park.
    [Applause.]
    Mr. Lujan. I am hopeful that with the testimony that you 
have gotten, that that is something that we can make abundantly 
clear as we continue to seek support for this legislation, and 
I yield back.
    Mr. Lowenthal. Thank you.
    And now I ask Chairman Grijalva, is there any one thing 
that you would like to add or ask a question?
    Mr. Grijalva. No, just my appreciation, Mr. Chairman. The 
question about consultation was particularly important. I think 
it is the one issue which we collectively as Members of 
Congress, certainly as the Resources Committee, have to really 
do something significant with. I represent the Ocha people, and 
their Vice Chairman, Mr. Vernon Jose, once told me, yes, they 
call us to the table, but everybody has already eaten by the 
time we get there.
    [Laughter.]
    Mr. Grijalva. So, message understood. Thank you very much.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    And now I want to continue the same question to Vice 
President Lizer and to Chairman Nez. I will give you both an 
opportunity to respond.
    The question is the oil and gas industry says, hey, we 
already have regulations that really respect and cover the 
reasons why this land is so sacred to both the Pueblo people 
and to the Navajo people. What is your response to that? Do we 
have the regulations in place that really do protect and really 
respond to the issues that you have raised?
    I am going to ask Vice President Lizer first, and then 
Chairman Nez, to respond.
    Mr. Lizer. Thank you, Chairman Lowenthal. As a Vice 
President, I am a former businessman, so I have always toiled 
with that question. How much is too much, you know? With regard 
to greed. I think the general notion out there is that business 
people and corporations are in it for greed. Again, as a 
compassionate capitalist, I have always toiled with that 
question, so there is a tension there.
    As the Vice President, though, speaking toward the question 
about this consultation, having been to Washington, DC three 
times in 3 months, I will tell you, just the need to be out 
there front and center with our decision makers and those 
people that make decisions for us, we are challenged again, and 
this is an open forum here in which to address that very 
question.
    Yes, we would like to be consulted on an issue-by-issue 
basis. One time for all time is not good enough. It is needed 
to address, as you know, our situation as it evolves, as issues 
evolve. So, direct consultation with our Indian, our First 
Nations people, could go a long way to helping our 
relationship, but it also helps us address present needs.
    When you asked about this accumulation of laws that need to 
be strengthened, I say yes, they need to be strengthened, but 
with Native American or First Nations input, by all means. This 
meaningful consultation, this dialogue that we are looking for 
is to arrive at a consensus with all concerned. There is safety 
in the counsel of many, I do believe. When you include everyone 
at the table, we can arrive at a consensus, and that is really, 
I believe, what we are talking about.
    If our current administration would agree, we win, is what 
we need to be aiming for, and I believe that we can arrive at a 
win-win.
    So, as we look at reviewing the way things are going right 
now, our First Nations people are, I believe, rising up, not to 
create havoc, but rising up as far as voice, and rising up for 
the need for participation.
    I will tell you what, our First Nations people, if America 
ever does come into another conflict again, we will be the 
first ones in droves to sign up, come alongside our United 
States of America. Thank you.
    Mr. Lowenthal. Thank you.
    I am going to use my prerogative to go over a little bit 
because, Chairman Nez, you need to make a final statement also 
about this issue. Do we have adequate protections now? The oil 
and gas companies say we already have the laws.
    Mr. Nez. Sir, may I stand, please?
    Mr. Lowenthal. Yes.
    Mr. Nez. [Speaking native language.] Thank you very much, 
my leaders.
    Any laws and regulations that are in place still do not 
protect my people, the Navajo people, the Pueblo people, the 
greater Chaco area. You have the power as lawmakers. You have 
the shield on your left hand to protect my people and the 
Pueblo people. You have on your right hand the spear, the tool 
to change laws and to fight for our people in the greater Chaco 
area. Thank you very much.
    [Applause.]
    Mr. Lowenthal. That concludes this panel. We wish to thank 
you all for your wonderful presentations.
    I would like to invite the third panel to take their seats.
    Our first witness will be Ms. Sarah Cottrell Propst, the 
Cabinet Secretary for the New Mexico Energy, Minerals, and 
Natural Resources Department. Our second witness is Mr. Don 
Schreiber who is a rancher in the San Juan Basin. Our third 
witness is Mr. Paul Reed, a Preservation Archaeologist with 
Archaeology Southwest. And our final witness on this panel is 
Ms. Kendra Pinto, a member of the Counselor Chapter of the 
Navajo Nation.
    Welcome.
    I will now recognize Secretary Propst for 5 minutes of 
testimony.
    Welcome to our Committee.

  STATEMENT OF SARAH COTTRELL PROPST, CABINET SECRETARY, NEW 
  MEXICO ENERGY, MINERALS, AND NATURAL RESOURCES DEPARTMENT, 
                      SANTA FE, NEW MEXICO

    Ms. Cottrell Propst. Good morning, Mr. Chairman and members 
of the Committee. I am Sarah Cottrell Propst, Cabinet Secretary 
of the New Mexico Energy, Minerals, and Natural Resources 
Department (EMNRD).
    Thank you for this opportunity to speak about the oil 
production boom in the Permian Basin and its consequences for 
our department's regulatory activities.
    I will focus on our department's regulatory oversight, 
actions we are taking to minimize methane emissions that 
contribute to global climate change, and the importance of our 
working relationship with Federal agencies.
    EMNRD includes several divisions: the Oil Conservation 
Division, or OCD; Mining and Minerals; State Parks; State 
Forestry; and Energy Conservation and Management.
    New Mexico has a long oil and gas production history, 
starting in the 1920s. The state's two major basins are the San 
Juan Basin, which is predominantly a natural gas production 
basin located in the northwest, and the Delaware Basin, part of 
the Permian, an oil production region in the southeast portion 
of the state.
    New Mexico also has a long history of regulating the oil 
and gas industry. The state's 1935 Oil and Gas Act focused on 
the conservation of oil and gas resources and the prevention of 
waste. The Act has been expanded over the years to protect 
public health, the environment, and fresh water, through the 
OCC and the OCD. Today, the division oversees more than 64,000 
wells and over 5,800 environmental clean-up cases. The OCD 
regulates the life span of an oil and gas project from the 
initial application to drill and to form a spacing and pooling 
unit to the operation of the well and related facilities, and 
finally to the plugging and closure.
    Today, the Permian Basin is the largest oil production area 
in the United States. New Mexico oil production has increased 
400 percent in the past decade, making our state the third-
highest oil producing state. The gross value of oil production 
in New Mexico exceeds $1.5 billion a month, and these dramatic 
increases are largely the result of shale development through 
horizontal drilling and hydraulic fracturing.
    This boom presents challenges for our Oil Conservation 
Division. We are doing more with less. Our budget was reduced 
by 44 percent from Fiscal Year 2015 to Fiscal Year 2018, and 
during that same period applications for permits to drill 
increased from 408 in Fiscal Year 2015 to 1,821 in Fiscal Year 
2018. Due largely to competition with the industry, the OCD has 
a more than 40 percent vacancy rate on staff. Compounding 
matters, the OCD operates under outdated technological 
services.
    In the face of these challenges, however, we see 
opportunities. We are evaluating recruitment strategies and how 
we can reorganize staffing to be more efficient. The Governor 
signed two important bills in the 2019 legislative session, as 
she mentioned in her testimony.
    Senate Bill 553 received widespread industry support. It 
establishes a fee schedule that creates a non-reverting fund 
which allows the OCD to initiate multi-year projects to 
modernize its technological and business systems.
    House Bill 546 establishes an administrative enforcement 
process and also clarifies the regulation of produced water.
    In January, as Governor Lujan Grisham testified, she issued 
a very important executive order, ``Addressing Climate Change 
and Energy Waste Prevention.'' The executive order notes that 
methane is a potent greenhouse gas, and that the oil and gas 
industry is the largest industrial source of methane emissions. 
The Governor directed our department and the New Mexico 
Environment Department to develop a statewide regulatory 
framework to reduce oil and gas methane emissions and to 
prevent waste from new and existing sources.
    Our first action was to initiate a review by STRONGER, the 
State Review of Oil and Natural Gas Regulations, and that 
process will engage diverse stakeholders to develop a report by 
August 1 that identifies program strengths and regulatory gaps, 
and potential improvements.
    Oil and gas development in New Mexico occurs across 
Federal, state, tribal, and privately-owned lands and mineral 
rights. To regulate oil and gas activities and their impacts 
requires coordination among the various regulatory bodies and 
land management agencies. For our agency, a strong relationship 
with the U.S. Bureau of Land Management is essential. While our 
conservation laws apply to Federal, non-tribal land, the BLM 
oversees various aspects of oil and gas development on Federal 
land, from leasing to drilling to plugging. We coordinate with 
the BLM to avoid overlap and duplication.
    Looking ahead, we will responsibly regulate and effectively 
regulate oil and gas activities in New Mexico. We will maintain 
our strong relationship with the BLM and other state and 
Federal offices and tribal partners to avoid overlap and 
duplication.
    Mr. Chairman and members of the Committee, again, thank you 
for this opportunity to share the New Mexico Energy, Minerals, 
and Natural Resources Department's perspective on the impacts 
of oil and gas development in our state. Thank you.

    [The prepared statement of Ms. Cottrell Propst follows:]
  Prepared Statement of Sarah Cottrell Propst, Cabinet Secretary, New 
        Mexico Energy, Minerals and Natural Resources Department
    Good morning, Mr. Chairman and members of the Committee. Thank you 
for inviting the New Mexico Energy, Minerals and Natural Resources 
Department to testify today. I am Sarah Cottrell Propst, Cabinet 
Secretary of the New Mexico Energy, Minerals and Natural Resources 
Department.
    Today I will speak about the boom in oil production in the Permian 
Basin and its consequences for our department and our regulatory 
responsibilities. I will focus on our department's regulatory 
oversight, actions we're taking to minimize methane emissions that 
contribute to global climate change, and the importance of our working 
relationship with Federal agencies.
    The Energy, Minerals and Natural Resources Department (EMNRD) 
includes the Oil Conservation Division (OCD), the Mining and Minerals 
Division, State Parks Division, State Forestry Division and the Energy 
Conservation and Management Division.
    New Mexico has a long and distinguished oil and gas production 
history. Major oil and gas production began in the 1920s and has 
continued through today. The two major basins in New Mexico are the San 
Juan Basin, which is predominantly a natural gas-production region 
located in the northwest section of the state, and the Delaware Basin--
which is part of the Permian Basin--which is predominantly an oil-
production region located in the southeast portion of the state.
    New Mexico has also had a long history of regulating the oil and 
gas industry. The state's 1935 Oil & Gas Act created the Oil 
Conservation Commission (OCC) and focused on the conservation of the 
oil and gas resources. The primary goals of the original Act, which 
remain today, are the prevention of waste and the protection of 
correlative rights. The Act has been expanded over the years to include 
the regulation of oil and gas facilities by the OCC and OCD to protect 
public health, the environment and fresh water supplies.
    Today, EMNRD's Oil Conservation Division oversees more than 64,000 
wells and over 5,800 environmental cleanup cases. The OCD regulates the 
life span of an oil and gas project from the initial application to 
drill and to form a spacing and pooling unit to the operation of the 
well and related facilities and finally to the plugging and closure of 
the well. Along the way, the OCD requires financial assurance for the 
closure of the well and oversees any necessary cleanup of contamination 
at the facilities.
    Today, the Permian Basin that stretches under southeastern New 
Mexico and into Texas is now the largest oil producing area in the 
United States. New Mexico oil production has increased by 400 percent 
in the past 10 years, making our state the 3rd-highest oil producing 
state behind Texas and North Dakota. The gross value of oil production 
in New Mexico now exceeds $1.5 billion each month. These dramatic 
increases are largely the result of shale development through 
horizontal drilling and hydraulic fracturing.
    Such a boom presents challenges for EMNRD's Oil Conservation 
Division. While the boom dramatically increased our workload, our 
budget was reduced by 44 percent between FY 2015 and FY 2018. We have 
66 full-time positions for FY 2019. Because of the budget cuts and the 
unprecedented growth in the oil and gas industry in New Mexico, the OCD 
must do more with less. Applications for permits to drill, or APDs, 
increased from 408 in FY 2015 to 1,821 in FY 2018. Administrative 
hearing cases for the approval of various types of wells and for 
compulsory pooling increased from 271 in FY 2013 to 1,502 in FY 2018. 
Due in large part to competition with the industry in recruiting and 
retaining staff, the OCD has over a 40 percent vacancy rate today. 
Compounding matters, the OCD operates under outdated technological 
services which slow permit application and order processing, data 
collection, data organization, and data sharing.
    In the face of these challenges, we see opportunities. We are 
evaluating recruitment strategies and how we can reorganize staffing to 
be more efficient. We promoted, and the Governor signed, several 
important bills in the 2019 state legislative session:

    <bullet> SB 553, ``Oil Conservation Commission Fees,'' was 
            introduced at the Governor's request to establish a fee 
            schedule at the OCD and received widespread industry 
            support. The law establishes a fees schedule that largely 
            mirrors the fees schedule in Texas and creates a non-
            reverting Oil Conservation Division Systems and Hearings 
            Fund that allows the OCD to initiate multi-year projects to 
            modernize its technological and business systems. Specific 
            projects could include updating OCD online to allow all 
            applications to be submitted electronically, updating OCD's 
            public information server to allow greater transparency to 
            industry and the public, and developing a case management 
            system for administrative hearings.

    <bullet> HB 546 which combined two pieces of legislation: one to 
            establish an administrative enforcement process and the 
            other to clarify the regulation of produced water, 
            including the emerging efforts to recycle and treat 
            produced water for potential reuse.

    <bullet> EMNRD also received funding for several new positions in 
            OCD to help manage the increased workload.

    In January 2019, Governor Michelle Lujan Grisham issued Executive 
Order 2019-003 Addressing Climate Change and Energy Waste Prevention 
(``Executive Order''). The Executive Order notes that methane is a 
potent greenhouse gas, the oil and gas industry is the largest 
industrial source of methane emissions, and that venting and flaring 
volumes have increased significantly in recent years. The Governor 
directed EMNRD and the New Mexico Environment Department (NMED) to 
jointly develop a statewide, enforceable regulatory framework to secure 
reductions in oil and gas sector methane emissions and to prevent waste 
from new and existing sources and enact such rules as soon as 
practicable.
    In response to the Executive Order, earlier this month EMNRD and 
NMED sent a letter to State Review of Oil and Natural Gas Environmental 
Regulations (STRONGER) requesting a review of our existing oil and 
natural gas regulations. STRONGER's review process engages a diverse 
group of stakeholders that includes representatives from the Federal 
Government, state government, tribal nations, environmental 
organizations, and oil and gas operators. This group will review NMED's 
and EMNRD's oil and gas environmental regulatory program and develop a 
report by August 1, 2019 that identifies program strengths and 
regulatory gaps. The review team will also develop recommendations for 
addressing any potential regulatory gaps and potential program 
improvements.
    Oil and gas development in New Mexico occurs across a checkerboard 
pattern of Federal, state, tribal, and privately owned lands and 
mineral rights. To effectively regulate the oil and gas activities and 
their impacts requires coordination among the various state, Federal, 
and tribal government entities including both regulatory bodies and 
land management agencies. For our agency, a strong relationship with 
the U.S. Department of the Interior's Bureau of Land Management (BLM) 
has been essential. While our conservation laws apply to Federal, non-
tribal land, the BLM oversees various aspects of oil and gas 
development on Federal land from the leasing to drilling to plugging. 
We coordinate with the BLM to avoid overlap and duplication.
    We also coordinate with the New Mexico State Land Office which 
oversees over 9 million surface acres and over 13 million mineral 
rights acres that are held in trust for various beneficiaries including 
the public school system and the public universities. The Land Office 
oversees the leasing of its lands and coordinates with our agency on 
compliance and plugging of wells.
    Looking ahead, we will responsibly and effectively regulate oil and 
gas activities in New Mexico. We will maintain our strong relationship 
with the BLM, State Land Office, and tribal partners in this work to 
avoid overlap and duplication. And we will continue our efforts to 
reduce wasteful methane emissions.
    Mr. Chairman and members of the Committee, thank you for this 
opportunity to share the New Mexico Energy, Minerals and Natural 
Resources Department's perspective on the impacts of oil and gas 
development in our state.

                                 ______
                                 

Questions Submitted for the Record by Rep. Lowenthal to Secretary Sarah 
                            Cottrell Propst

    Question 1. How many orphaned oil and gas wells are in New Mexico, 
and how are they divided between Federal, state, and private land? How 
does New Mexico deal with and pay for proper abandonment of these 
wells?

    Answer. With the development of oil and gas in New Mexico starting 
around 100 years ago, abandoned wells is something that EMNRD must deal 
with. A well plugging program is mandated by the legislature and each 
year the OCD exceeds the number of wells it is required to plug. The 
need for well plugging by the state is minimized by a strong inactive 
well program. OCD tracks wells that no longer produce and requires the 
wells to be permanently plugged or temporarily plugged along with 
increased financial assurance. As a result, the number of wells plugged 
greatly exceeds the number the state must plug each year. Last year we 
were required to plug 27 wells and plugged 60, this year we are 
required to plug 50 and our goal is to exceed that target. Right now, 
the current list of inactive wells fluctuates between 1,500 and 2,000. 
Total OCD budget for FY 2020 $11,522,100 vs FY 2019 of $8,001,000. The 
budget for plugging and reclamation for FY 2020 is $4,650,000 vs FY 
2019 of $2,050,000.

    Question 2. For 2017 and 2018, what was the average amount of time 
and the median amount of time it took for the Oil Conservation Division 
(OCD) to approve an oil and gas application for permit to drill (APD) 
in New Mexico?

    Answer. EMNRD's Oil Conservation Division (OCD) turns around APDs 
in approximately 10 days on average.
    Question 3. What is the current backlog of oil and gas APDs pending 
before the New Mexico Oil Conservation Division? How has this backlog 
changed over the past 5 years?

    Answer. Because our APD turnaround time is about 10 days, there is 
little backlog. This precedent was set in the prior governor's 
administration. Our challenge is to maintain timely APD review 
processes while ensuring that environmental oversight is strong. During 
the last 5 years, while OCD has generally kept up with the rise in 
APDs, the number of inspections has declined significantly.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Secretary Cottrell Propst.
    I now recognize Mr. Schreiber for 5 minutes.

  STATEMENT OF DON SCHREIBER, RANCHER, RIO ARRIBA COUNTY, NEW 
                             MEXICO

    Mr. Schreiber. Mr. Chairman, members of the Committee, if 
someone were to announce that they were going to come onto our 
ranch with the intent to harm one of us, a child, a grandchild, 
my reaction would be the same as I believe yours would be if 
you were similarly threatened. You would want to do everything 
you could to stop that threat and to prevent that harm.
    But when the threat is coming from some of the world's most 
profitable, powerful companies, when the harm is permitted by 
the very Federal and state authorities whose job it is to keep 
you safe, when even your elected officials find that their 
hands are tied from above or by corporate compromise, you know 
that you are not going to be able to stop that threat. You know 
that you are going to fail.
    Every day on a small ranch in the San Juan Basin, where my 
wife Jane and I live, methane, and a host of toxic and harmful 
chemicals that come with it, is vented and leaked. Ours is an 
old area, so they do not flare often, but when they do, it 
lights up the night sky for miles and miles.
    Jane or I will put you in a ranch truck and drive you to 
the farthest of the 122 gas wells that are on or surround our 
ranch. Even speeding past the well site, you still smell the 
pollution. Or we will put you on a horse and ride to the closer 
wells, and that horse may spook as pressures blast well bore 
waste to the surface. Or stand with us at the house and listen 
to the closest wells and hear that methane being released on 
any day, on any night.
    We don't know which wells are leaking the worst, we cannot 
guess which wells are going to suddenly vent, and we cannot 
move that fence line that we have to work on and fix when the 
wind shifts and pours those toxins down on us and we go home 
with burning eyes and a headache.
    But we do know this: When the Bureau of Land Management 
fails to adequately enforce existing methane waste rules, when 
the Environmental Protection Agency rolls back methane 
protections, when the Department of the Interior fails to hold 
the oil and gas industry accountable for methane emissions, our 
family, our friends, our neighbors, rural Americans, we pay the 
price.
    Many of the wells were here when we bought our little piece 
of ground with a Federal grazing permit 20 years ago. We should 
have known then. We should leave now.
    But we can't do that. We are in too deep, spilled too much 
of our savings, too much of our blood. We buried too many 
horses and dogs to back out now.
    What would leaving solve anyway? Leaving won't stop any 
leaks. The leaks stop when we find them and get them fixed. We 
make a difference when we call the oil company and tell them 
that their plunger is stuck and the well is venting wide open, 
or when we find their exposed pipeline.
    And what of those who cannot leave, tied by their ancestry 
to lands for hundreds of years before the first gas well was 
ever drilled?
    Besides, we have had our successes. We have won a few 
fights. The oil companies were still dumping drilling waste on 
the ground when we started. Oil companies were still making a 
new well site, a new road, and a new pipeline for 9 out of 10 
wells that they drilled.
    We worked our hearts out for the BLM Methane Waste Rule, 
and we lived in hope when it was signed. We defended the rule 
against the Senate attempts to overturn it and celebrated like 
crazy on May 10, 2017, when Senator John McCain stood with us 
and the Methane Waste Rule was upheld.
    There are common-sense protections, basic steps to stop 
methane from leaking and venting and flaring, and the industry 
has shown time and again that they will take those steps, that 
they will adapt their operations, but only if regulations are 
put in place and enforced.
    This is difficult testimony for me to give, not just to 
admit to you that I have failed, but because Jane and I have so 
many in industry that have tried to help us, so many good-
hearted public servants from the Federal Government and state, 
so many elected officials, including members of this Committee, 
that we respect and admire and call friends. We know how your 
hands have been tied and how hard you have tried.
    To know that you are trying, to know that Governor Grisham, 
Secretary Cottrell Propst, to know that your heart lies not in 
the defense of an industry that has caused so much harm but 
instead with those of us that suffer that harm every day, that 
gives us strength, that renews our spirit and restores our 
confidence.
    Thank you.

    [The prepared statement of Mr. Schreiber follows:]
      Prepared Statement of Don Schreiber, Gobernador, New Mexico
 the struggle to hold industry and government accountable for methane 
                    emissions in the san juan basin
    On February 7, 2018, my wife Jane and I received a ``courtesy'' 
notice from Hilcorp Energy Company (Hilcorp) that they would be 
``recompleting'' an existing natural gas well on our Bureau of Land 
Management (BLM) grazing allotment.
    Like most of the 122 wells on and immediately surrounding our 
Devil's Spring Ranch grazing allotment #05098, this well, SAN JUAN 28-6 
UNIT 127 (well #127) produces Federal minerals from a Federal surface. 
Jane and I are intimately familiar with notifications of grazing 
allottees, or landowners, and the ``onsite'' meetings that routinely 
follow the notifications. We have been to dozens of onsite meetings 
over the past 20 years, both on behalf of our ranch and for other 
ranchers and landowners in northern New Mexico.
    However, we were puzzled by the notice and its use of the use of 
the words ``courtesy'' and ``recompletion.'' Hilcorp must pass through 
the locked gates of our deeded land to access this well, so it is not a 
``courtesy'' but a requirement that we be notified and we were unclear 
what a recompletion process would entail. We learned that Hilcorp 
intended to begin well site preparations at once and we requested that 
an onsite meeting be scheduled immediately.
Industry and Regulators Can Cooperate with Landowners
    Hilcorp's predecessors, Burlington Resources and ConocoPhillips had 
completed and fracked numerous new wells on our ranch. In 2008, with 
the cooperation of the Farmington Field Office (FFO) of the BLM, 
ConocoPhillips and our ranch agreed to numerous conditions of well 
completion and fracking regarding surface use, roads, re-vegetation 
and, notably, the use of ``green completions'' to minimize the impact 
of methane emissions that are released in the well completion and 
fracking process. Between 2008 and 2012, ConocoPhillips completed and 
fracked 22 wells on our ranch, in each case honoring the conditions we 
had mutually agreed to, including green completions.
What Is Lost When They Don't
    So when we met with Hilcorp employees on February 20 and learned 
that a recompletion effectively meant completing and fracking an 
existing well bore to create a new well in a different formation, in 
this case the Blanco Mesaverde formation, we were dismayed when Hilcorp 
employees told us that the conditions that ConocoPhillips and BLM had 
agreed to previously, including green completion, would not be 
followed. (Hilcorp purchased ConocoPhillips San Juan Basin assets in 
late 2017, and we assumed they would honor agreements made with 
landowners). We were further dismayed that there was no BLM 
representative on site even though a new formation was to be completed 
and fracked, and even though the well pad and roads would be highly 
impacted.
    We immediately engaged the BLM FFO to ask that they participate, 
just as they had when each new well has been fracked and completed on 
our ranch over the last 20 years. BLM FFO repeatedly claimed that they 
had no responsibility for recompletions despite the fact that the 
proposed completion and fracking of the Blanco Mesaverde formation 
would create a new stream of gas production with an estimated life of 
30 years. This new Blanco Mesaverde production stream would have 
exactly the same emissions and waste impacts, the same impacts from 24-
hour/day operations including traffic, liquid by-products, methane 
emissions and waste, and the same noise and nuisance that any newly 
drilled well would have.
    Hilcorp ultimately did not recomplete well #127 and instead 
proceeded to recomplete the nearby SAN JUAN 28-6 UNIT 143, also on our 
Federal grazing allotment, without first resolving any of our concerns. 
At the onsite meeting, we raised the same objections, emphasizing the 
need for green completion. Several days later we learned that the 
recompletion process had already begun and the fracking was underway. 
We scrambled to the well site to reiterate our objections and were told 
that Hilcorp would have no further contact with us regarding the 
recompletion of well #143.
    BLM FFO repeatedly referred us to the New Mexico Oil Conservation 
Division (OCD) as the agency responsible for issuing permits for the 
recompletions, and the party responsible for methane emissions as well. 
After extensive research in the OCD District 3 office in Aztec, NM, and 
in the OCD state office in Santa Fe, we located the OCD Gas Capture 
Plan for both well #127 and well #143, as well as the permits allowing 
the recompletions. The OCD Gas Capture Plan permit form states, ``The 
Gas Capture Plan outlines actions to be taken by the Operator to reduce 
well/production facility flaring/venting for new completion (new drill, 
recomplete to a new zone, re-frac) activity.''
Gas Capture Plan Captures No Gas
    In each case, and in a later larger survey of 54 OCD Gas Capture 
Plans, we learned that no gas was captured and instead was specified to 
be either flared (well #127) or vented (well #143). In each case, the 
amount of methane released was estimated at the time the Plan was 
issued, but no attempts were made to determine the actual volume 
released.
    This practice of planned methane venting and flaring was exactly 
what we had sought to avoid in the conditions for new completions and 
fracking that our ranch had reached with BLM and ConocoPhillips back in 
2008. The green completion process lessened or prevented methane 
emissions for the 22 wells that were completed and fracked on our ranch 
during that period.
    Unable to get any enforcement from the BLM or OCD, we pursued the 
New Mexico Environment Department (NMED), who also declined any 
responsibility, stating that New Mexico ``lacked EPA enforcement 
authority,'' and referred us to Environmental Protection Agency (EPA) 
Region 6 in Dallas. Despite repeated attempts, we were unable to get 
past the initial voicemail at Region 6 and began cold-calling various 
EPA offices around the United States and in Washington, DC until we 
were able to get a referral and phone number within EPA Region 6. That 
contact did not prove helpful.
Green Completions
    Eventually, one of the messages left at EPA Air Enforcement in 
Washington, DC did result in a contact and with the assistance of 
Senator Heinrich's office, we were able to secure a meeting at EPA 
headquarters in DC. Several members of the Air Enforcement Team were 
present and the Region 6 Air Enforcement team joined the meeting 
electronically. At that point in March 2018, it was clear to Jane and I 
that, pursuant to EPA Rule 40 CFR Part 60 Subpart OOOOa regarding 
methane emissions, Hilcorp was in violation of the Clean Air Act for 
failure to capture methane emissions, regardless of what responsibility 
the BLM or NMED denied, or what responsibility OCD accepted. As EPA 
described the rule: ``The rule requires that significant emissions 
reduction be accomplished primarily through the use of a proven process 
known as a `reduced emissions completion' or `green completion.' This 
process is estimated to reduce methane and VOC emissions by 95 
percent'' (EPA 2016).
    Over the course of the following 6 months, Jane and I received 
extensive assistance from the San Juan Citizens Alliance (SJCA) and we 
had numerous additional meetings in DC with EPA and Senators Udall and 
Heinrich, Congressman Lujan, then Representative Lujan Grisham and 
their staffs on the subject of methane emissions from sources such as 
the Hilcorp recompletions and other drilling and production activity 
including leaking, venting and flaring. We continued to meet with the 
BLM, including in DC to press for them to exercise their authority over 
the management of Federal lands. We met with OCD in Santa Fe to try and 
rectify the emissions problems caused by a methane gas capture plan 
that captures no methane gas.
    The response from our New Mexico Delegation, including members of 
this Committee, was consistent and coordinated support in trying to 
obtain constructive responses from BLM and EPA. Our delegation 
encouraged us to continue to hold Hilcorp and both Federal and state 
agencies accountable for methane emissions in the San Juan Basin.
EPA and NMED Step In
    On October 29, 2018, 234 days after our initial contact, EPA issued 
a Clean Air Act (CCA) 114(a) Information Request to Hilcorp with a 
deadline of January 15, 2019 to answer. That deadline was postponed due 
to the government shutdown and we don't know what answers were given by 
Hilcorp to the EPA. However, on March 14, 2019, NMED issued a Notice of 
Violation to Hilcorp relative to methane emissions from recompletion 
operations. The accompanying press release said, in part:

        ``NMED is committed to assuring the oil and natural gas 
        industry's compliance with rules and permits,'' said NMED 
        Secretary James Kenney, ``This creates a level playing field 
        among operators while ensuring public health and environmental 
        protections.''

        ``Failure to comply with these provisions of state and federal 
        air quality laws can lead to uncontrolled emissions of volatile 
        organic compounds (VOCs), which contribute to the formation of 
        ground-level ozone and hazardous air pollutants (HAPs). A 
        collateral benefit of complying with these laws is the 
        reduction of methane emissions. Methane, the key constituent of 
        natural gas, is a potent greenhouse gas with a global warming 
        potential more than 84 times greater than that of carbon 
        dioxide, according to the Intergovernmental Panel on Climate 
        Change. A primary source of methane emissions in New Mexico 
        comes from the production, transmission and distribution of oil 
        and natural gas.''

        ``NMED and the EPA are working collaboratively and requiring 
        Hilcorp to submit additional data on each of its oil and 
        natural gas production facilities in New Mexico to determine 
        its compliance. Hilcorp Energy Company has 10 days to reply to 
        NMED and EPA.''
Government Engagement; Community Support
    Our great thanks goes out to NMED and Secretary Kenney, to the EPA 
Air Enforcement teams in Washington and Dallas, to our entire New 
Mexico Delegation and their staffs, and especially to Governor Michelle 
Lujan Grisham, for their dedication, and patience, to hold Federal and 
state agencies, and oil companies, accountable for the methane 
emissions that have been impacting our state for almost 100 years and 
have left us with a methane hotspot visible from space. A special 
thanks as well to San Juan Citizens Alliance, Earthworks, the 
Environmental Defense Fund, and the Western Environmental Law Center. 
We are grateful to State Land Commissioner Stephanie Garcia Richard and 
her staff, and Energy Secretary Sarah Cottrell Propst and her staff.
However . . .
    However, despite all the goodwill and hard work and progress that 
has brought us to this hearing today, not a single molecule of methane 
has been stopped from venting or flaring as a result of Hilcorp's 
recompletion activities. The NMED Notice of Violation cites a single 
well, not one we're familiar with, yet Hilcorp has recompleted dozens 
of wells in Rio Arriba and San Juan counties, and continues to do so, 
since the first example we encountered back in January 2018.
    Nor has the BLM assumed responsibility for the recompletion 
process, content to allow the operator to file a Sundry Notice, Form 
3160-5, the same Notice required for a minor repair or routine 
maintenance. Of all the recompletion well sites that Jane and I 
surveyed not a single one was within BLM performance standards. Exposed 
pipelines, exposed electrical, eroding well sites and roads, failed 
reclamations, weeds, loss of surface water are but a few examples.
    OCD continues to issue Gas Capture Plans that capture no gas. As of 
November 2018, OCD had issued 70 no-gas-capture plans to Hilcorp. More 
may have been issued since that time. Along with SJCA, we conducted a 
survey of Hilcorp recompletion methane emissions for 54 wells and found 
that the estimated cumulative emissions from the first day of each well 
totaled 22,008 MCF. Recompletions remain a key focus of Hilcorp's San 
Juan Basin business plans and they own thousands of wells that are 
candidates for recompletion.
We Are Impacted Every Day
    So it is with a sense of urgency that we implore our Federal 
Government to reinstate the protections of the EPA and BLM methane 
waste rules. For our Senators and Representatives that have been 
striving on behalf of clean air you have our sincere thanks, but we 
must ask you to do more. The gas wells of the San Juan Basin pollute 
every hour of every day. With all the talented and willing career 
employees we've encountered at both agencies, we believe corrective 
actions can be taken now. Governor Lujan Grisham has kept a campaign 
promise to make methane emissions a focus of her administration and 
signed an executive order with Secretary Kenney and Secretary Propst to 
address methane waste and their report is due in September. But we must 
ask that the agencies responsible for regulating methane emissions here 
in New Mexico redouble their efforts to protect our families now from 
the proven harmful effects methane pollution and the destructive 
impacts that oil and gas development and production has, and has always 
had, on our state's lands and people.
So Many Voices Are Unheard
    We would ask that the Committee please take time to consider the 
amount of collective effort that it has taken to arrive at NMED's 
Notice of Violation to Hilcorp this March--and our struggle is far from 
over. It has taken over a year of concerted effort by Jane and I who, 
after so many years here in New Mexico have every advantage in terms of 
trying to oppose an oil company's practices or a government agency's 
policies. We have education, lifetimes of political involvement, we 
have friends in the press, we have the support of local and national 
environmental organizations, we have a thorough understanding of oil 
and gas operations, we are retired and financially secure, we have cell 
phone and internet availability, we are healthy. Imagine the challenges 
for those trying to engage industry and government regarding methane 
emissions with far less resources; anyone outside the political system, 
those without access to education or long lists of connections both 
here in the state and in DC, those who do not understand oil and gas 
operations, or who are new to complex negotiations with industry, those 
with the responsibilities of children or elderly parents, anyone with a 
job.

    On their behalf, we ask that both our Federal and state governments 
be open and accessible and responsive to them and recognize their needs 
and concerns and problems with the same level of interest and 
commitment that the needs and concerns and problems of the oil and gas 
companies are awarded.

 ``The land marks are still in place. The sacred places still tell 
                                           us to stand, to speak.''

         --Daniel Tso, Navajo Nation Council Delegate, with permission.

Citations:

United States Environmental Protection Agency (EPA). 2016. Summary of 
Requirements for Processes and Equipment at Oil Well Sites. Available 
at: https://www.epa.gov/sites/production/files/2016-10/documents/nsps-
oil-well-fs.pdf.

                                 ______
                                 

    Mr. Lowenthal. Thank you. Thank you very much, Mr. 
Schreiber.
    I now recognize Mr. Reed to testify.
    Welcome to the Committee.

STATEMENT OF PAUL REED, PRESERVATION ARCHAEOLOGIST, ARCHAEOLOGY 
                   SOUTHWEST, TUCSON, ARIZONA

    Mr. Reed. Thank you, Mr. Chairman, distinguished members of 
the Committee. I have been an archaeologist for more than 30 
years, and most of that time has been in and around Chaco 
Canyon. Chaco Canyon was the center of a thriving society that 
flourished in northwest New Mexico from roughly 850 to about 
1150. The Chacoans and affiliated Pueblo groups built hundreds 
of great house structures across this region that connected 
these places with kilometers of roads and other landscape 
features. This extensive, ancient landscape is today managed by 
a variety of Federal, state, and tribal entities. These places 
have deep spiritual and cultural importance to nearby Pueblos 
and the tribes that are descendants of the Chacoan people.
    Many of the sites associated with ancient Chacoan society 
are protected within the boundaries of Chaco Culture National 
Historical Park. Chaco Canyon and several outlying great houses 
are UNESCO World Heritage Sites that preserve the history and 
culture of Pueblo people. Chaco is a place like none other on 
this planet.
    Despite the protections offered by the park, many of these 
sites lie outside the park across the greater Chaco landscape, 
and they are hardly protected from the ravages of oil and gas 
development. Unfortunately, these include components of the 
Chaco World Heritage Site, sites like the Pierre Site, located 
right at the edge of the 10-mile zone. These are managed by the 
Bureau of Land Management. Now, of course, increased 
development associated with the Mancos-Gallup Shale play in 
northwest New Mexico has been threatening this fragile Chaco-
affiliated landscape since late 2011. The threat to these 
resources has been heightened by several executive and 
secretarial orders from the Trump administration over the last 
couple of years that aim to prioritize energy development on 
public lands at the expense, in our opinion, of every other 
use.
    In fact, over the past year-and-a-half, this administration 
has proposed leasing within a few miles of the park no less 
than three times, only to defer these parcels at the last 
minute because of outcry from the Pueblos, the Navajos, many 
tribes, the archaeological community, and many, many others. 
But these deferments are temporary, and if they are fully 
implemented, ultimately, they will further fragment and degrade 
this amazing landscape.
    Over the last 5 years, we at Archaeology Southwest have 
worked with a variety of partners, with the BLM and the BIA, to 
modify their long-range management plans. We would like to 
recognize the All Pueblo Council of Governors in particular as 
a close partner. We have also talked with Navajo Nation and a 
variety of other state and Federal entities.
    Now, we have advocated during this time frame for this 10-
mile cultural exclusion zone, and we thoroughly applaud and 
support the bills introduced last week. Thank you for this, and 
we thank Senators Heinrich and Udall as well.
    Despite agreeing to avoid oil and gas leasing in this 10-
mile zone while this is ongoing, as I have noted, we have had 
no less than three times parcels introduced into this area. We 
consider this a very disrespectful game of hide-and-seek or 
bait-and-switch, and we believe it is time to stop.
    I am also very pleased to hear that our new land 
commissioner, Stephanie Garcia Richards, is planning to 
withdraw state trust lands in a similar, somewhat differently 
configured arrangement in that 10-mile zone. We feel that is an 
equally important part of this.
    [Applause.]
    Mr. Reed. As part of our long-range work with the agencies, 
we have a number of recommendations. We feel that BLM and BIA 
have to include a robust role for the National Park Service in 
all these decisions. The agencies have to take immediate, 
concrete steps to improve tribal consultation and bring all the 
affected tribes into this management plan as real partners. We 
would like to see the Great North Road Corridor get better 
treatment under this plan and more protection. And we would 
like the agencies to consider viewshed and soundscape analysis 
for Chacoan great house communities.
    Our partners at the APCG have spoken out on several 
occasions, and they are closely working--we have done some work 
with the Pueblo of Acoma to begin a process of assessing 
ancestral important tribal sites. We feel this is a Federal 
Government responsibility that the agencies have to fulfill.
    We have also worked with specialists to assess LiDAR and 
other remote sensing data that can actually let us understand 
what is going on on these landscapes, particularly in new lease 
areas, before the companies have a strong financial interest.
    In conclusion, we ask the Committee to support these 
efforts to push the agencies to do what they are supposed to, 
and we feel that energy interests have dominated for far too 
long in this portion of northwest New Mexico, to the detriment 
of the Navajo people on the landscape and the amazing ancestral 
landscape that is in this area.
    Thank you.

    [The prepared statement of Mr. Reed follows:]
    Prepared Statement of Paul F. Reed, Preservation Archaeologist, 
                         Archaeology Southwest
                           Also representing
 Society for American Archaeology, Mancos Shale Task Force New Mexico 
                         Archaeological Council
    Chairman Lowenthal, and distinguished members of the Committee, 
thank you for the opportunity to provide written testimony for this 
field hearing of the U.S. House of Representatives Subcommittee on 
Energy and Mineral Resources on the impacts of oil-gas development in 
northwest New Mexico.
    Chaco Canyon was the center of a thriving society that flourished 
in the Four Corners region of New Mexico from 850-1150 CE. The Chacoans 
and affiliated Pueblo groups built hundreds of great house structures 
across the region and connected many of these places with kilometers of 
roads and other landscape features. This extensive, ancient landscape 
is managed today by a variety of Federal, state, private, and tribal 
owners. These places have deep spiritual and cultural importance to 
nearby Pueblos and tribes that are descendants of the Chacoan people.
    Many sites associated with ancient Chacoan society are protected 
within the boundaries of Chaco Culture National Historical Park. Chaco 
Canyon and several outlying great houses are UNESCO World Heritage 
Sites that preserve the history and culture of the Pueblo people. 
Furthermore, Chaco Canyon is the ancestral home of Pueblo people and it 
is where many of the cultural traditions that are practiced to this day 
at Acoma, Zuni, Tesuque, Zia, Hopi, Taos, and other pueblos in New 
Mexico emerged. Over more recent centuries, the landscape around Chaco 
was settled by the Navajo people and other groups who have added their 
own unique traditions to the rich cultural legacy. Federal agencies are 
also a major, modern-day presence and oversee Chaco Canyon, a national 
park since 1980, along with important cultural and historic sites 
across the surrounding landscape.
    Despite the protection offered by Chaco Culture National Historical 
Park, many sites lie outside the Park across the Greater Chaco 
Landscape. These places, many of which are as significant as those 
within Park boundaries, are scarcely protected from the ravages of oil-
gas development. Unfortunately, these include components of the Chaco 
Culture World Heritage Site like Pierre's Site, located on Federal land 
managed by the Bureau of Land Management. Increased oil-gas development 
associated with the Mancos-Gallup Shale play in northwest New Mexico 
has been threatening fragile Chaco-affiliated cultural resources across 
a large portion of the San Juan Basin since late 2011. The threat to 
sensitive cultural resources is heightened by several mid-2017 
executive and secretarial orders from the Trump administration that aim 
to prioritize energy development on public lands. In fact, over the 
past year-and-a-half, the administration has proposed leasing within a 
few miles of the Park no less than three times, only to defer at the 
last minute because of out-cry from tribes, the archaeological 
community, and many others. But these deferrals are temporary, and if 
fully implemented, these orders will further fragment and degrade the 
Greater Chaco Landscape.
    During the last 6 years, Archaeology Southwest and its partners 
have cooperated with the Bureau of Land Management (BLM) Farmington 
Field Office and Bureau of Indian Affairs (BIA) as these agencies have 
been in the process of amending the 2003 Resource Management Plan (RMP) 
for the Farmington Field Office and drafting new Environmental Impact 
Statements (EISs) for their regions (BLM and BIA). Our partners include 
the All-Pueblo Council of Governors (APCG), The Wilderness Society, the 
National Trust for Historic Preservation, National Parks Conservation 
Association, Friends of Cedar Mesa, New Mexico Wilderness Alliance, 
Conservation Lands Foundation, and Pew Charitable Trusts.
    As an archaeological and preservation organization, we are most 
concerned with the protection of the fragile area around Chaco Canyon 
(Chaco Culture National Historical Park aka Chaco Park) that we have 
identified as the Greater Chaco Landscape. This area of several 
millions acres is not protected by National Park Service monument or 
park status and has been the focus of extensive and severe oil-gas 
extraction activity for nearly a century. Within the several million-
acre area, ancient archaeological and cultural sites within the 10-mile 
cultural protection zone occur at the highest density outside the Park. 
Thus, much of our focus has been on this very sensitive area closest to 
the World Heritage Site of Chaco.
    In 2011, the Farmington Field Office area became the focus of 
renewed oil-gas exploration with the application of hydraulic 
fracturing or fracking technology, along with advances in horizontal 
drilling to access fluid mineral resources. This resulted in the 
drilling of roughly 150 wells into the Mancos Shale Formation by late 
2013, located at about 5,000 feet below the surface. This activity had 
not been anticipated by BLM in their 2003 RMP and thus a process to 
amend the RMP was triggered. This process is still underway with draft 
RMP amendment and EIS documents expected later this year.
    As the RMP amendment process has unfolded over the last nearly 6 
years, BLM has continued to approve permits for oil-gas activities and 
to offer leases of new lands every year. At this point in time, more 
than 90 percent of the Farmington Field Office lands under BLM 
authority have been leased, including many sites that part of the World 
Heritage Site designation or are now congressionally designated Chaco 
Protection Sites. These lands were leased prior to these designations; 
however, widespread leasing and drilling has continued on immediately 
adjacent lands, which has resulted in significant visual and auditory 
impacts and fragmentation of the broader cultural landscape. As of 
early 2019, many hundreds of wells have been sunk into the Greater 
Chaco Landscape, while the planning process languishes. We believe 
these already-leased lands provide sufficient access to the oil-gas 
resources in the Greater Chaco Landscape, particularly with the 
advances in horizontal drilling, such that additional leasing should 
not be permitted.
    Thus, Archaeology Southwest and its partners have advocated for a 
permanent exclusion of new oil-gas leasing within a 10-mile cultural 
protection zone around Chaco Park and its outlying units. We fully 
supported Senate Bill 2907 introduced in 2018 by Senators Udall and 
Heinrich that would provide for the withdrawal of Federal minerals in 
this 10-mile cultural protection zone around Chaco Culture NHP. A 2019 
version of this bill has just been introduced in the Senate along with 
a House companion bill, with Congressman Lujan as lead sponsor.
    Despite agreeing to avoid oil-gas leasing in the 10-mile zone while 
the RMP amendment and draft EIS process is ongoing, BLM has nonetheless 
included leases within this zone no less than three times during this 
administration. Given the importance of Greater Chaco to tribes and 
many other groups, this action has triggered protests and near-record 
numbers of comments to BLM. At the last minute, BLM has withdrawn lease 
parcels within or close to the 10-mile zone, only to offer similarly 
positioned lease parcels in later sales. This peculiar game of chicken 
is disrespectful to the tribal communities with connections to Chaco, 
and to Navajo residents that currently live in the area, and should 
stop immediately.
    Over the last 6 years, Archaeology Southwest and its partners have 
provided comprehensive comments to BLM and BIA with specific 
recommendations for management of the Greater Chaco Landscape 
surrounding Chaco Culture NHP. Below, I summarize these 
recommendations:
1. BLM and BIA must include a robust role for the National Park Service 
        (NPS) in future oil and gas management decisions.

    We are encouraging BLM and BIA to improve interagency coordination 
and give the NPS a more active role in planning the decisions that 
affect the visitor experience at Chaco Culture (NHP). Regular and 
frequent consultations among the agencies is necessary to give the NPS 
a strong role in the decision-making process for oil-gas development on 
Chaco's boundary.
    In addition, NPS staff possess unique expertise that can be 
beneficial to the agencies as they evaluate future proposals. Not only 
does NPS co-administer the Chaco Archaeological Sites Protection 
System, along with BLM and the Navajo Nation, but it also possesses 
expertise in managing night sky, viewsheds, and soundscape values in 
and around units of the National Park System. NPS has already provided 
BLM with some information on night skies around Chaco Culture NHP as 
part of recent oil and gas leasing proposals. This role should be 
formalized and broadened as part of the BIA-BLM planning process.
    Furthermore, working with NPS, we recommend that BLM and BIA 
sponsor and conduct a comprehensive viewshed and soundscape analysis 
from Chaco Culture NHP. We also ask that stipulations be developed to 
protect Park Resources, including stipulations that require NPS 
consultation before development can proceed near the Park. In the 
planning documents adopted by BLM and BIA, we urge the agencies to 
ensure that there is a robust, ongoing role for NPS in future oil and 
gas management decisions.
2. The agencies should take immediate, concrete steps to improve tribal 
        coordination and consultation, as well as public outreach and 
        engagement.

    In addition to their interagency coordination obligations, BLM and 
BIA share important tribal consultation and public engagement duties. 
The National Environmental Policy Act (NEPA), the National Historic 
Preservation Act (NHPA), and a number of executive orders require 
notice and outreach to tribes, allottees, residents and the public at 
various stages of the oil and gas development process. BLM Manual 1780 
and Handbook 1780-1 have also set the Interior Department on an 
important new path to improving relationships and coordination with 
tribes and allottees.
    By joining as co-lead agencies and expanding the planning area, BLM 
and BIA have already taken initial steps toward improving tribal 
engagement and public outreach around Farmington and northwest New 
Mexico but much more needs to be done. The new scoping process, which 
began in the fall of 2016, saw BLM and BIA representatives meet 
directly with tribal representatives and residents at community centers 
and Navajo Chapter Houses and brought a critical set of stakeholders to 
the table. It set the stage for an inclusive planning process with 
robust tribal engagement and consultation but, again, more needs to be 
done. Regular meetings with engaged tribes should be the rule, not the 
exception.
    Furthermore, we urge BLM and BIA to be sure that this type of 
outreach and engagement continues after the current planning process is 
complete. The agencies should view the RMP Amendment and draft EIS as 
the start of an ongoing relationship and open dialogue with tribes, 
allottees, and the public about oil and gas planning decisions. 
Residual impacts to tribal communities from expanded oil and gas 
development can include distortions in labor markets, housing prices, 
public infrastructure, and disruptions in social systems. This ongoing 
relationship should both monitor and implement outreach programs to 
help communities adjust to changes.
    Thus, we recommend that in the joint planning documents, a 
permanent, interagency BLM-BIA-NPS working group be established that 
meets regularly with tribes, allottees, state of New Mexico personnel, 
and the public to discuss and provide recommendations on ongoing 
minerals management decisions. Additionally, to increase transparency, 
we urge the agencies to make all NEPA documents (including categorical 
exclusions) for Federal, tribal, and allotted mineral development 
decisions (e.g., leasing, permitting, right-of-way, suspensions, etc.) 
available online for public review.
3. The joint planning document should manage the 10-mile cultural 
        protection zone around Chaco Culture NHP in a proactive manner, 
        designed to maximize protection of cultural resources.

    The first area that BLM and BIA should manage under common 
allocations, stipulations and development conditions is the 
checkerboard of Federal, tribal, New Mexico State Trust, and allotted 
lands within 10 miles of Chaco Culture NHP. This area has fewer oil-gas 
leases and is less developed than surrounding areas. Thus, it has 
retained much of its cultural integrity and natural characteristics. It 
contains many undisturbed cultural sites and is critically important to 
preserving the resources and visitor experience within Chaco Culture 
NHP, as well as the homes, ranches, and traditional lifestyles of the 
Navajo people who live near the park. It also contains at least 12 
Chacoan great houses and associated communities.
    The new Senate withdraw bill (S. 1079) and companion House bill to 
withdraw Federal minerals in the 10-mile zone are part of this process. 
But, the agencies carry the heavy load for protection of this 
sensitive, fragile area.
    New state of New Mexico land commissioner Stephanie Garcia-Richards 
has recognized the need to protect the 10-mile zone around Chaco Canyon 
and has indicated full support for the Senate and House bills. To 
protect state trust lands within the 10-mile protection zone, Garcia-
Richards plans to issue an Executive Order that will put a moratorium 
on new oil-gas leasing on state trust lands in the area until December 
31, 2023. Coupled with the proposed Federal legislation, this is a huge 
step toward protecting the most sensitive archaeological and cultural 
zone around Chaco Canyon.

    Given this background, I make the following recommendations to 
preserve and protect cultural resources within the 10-mile cultural 
protection zone:

    <bullet> Close the 10-mile zone to all new leasing across all land 
            jurisdictions, and, where closures are not possible, apply 
            no surface occupancy (NSO) stipulations. This approach 
            builds upon the Senate and House withdrawal bills to 
            address all land jurisdictions.

    <bullet> Where cultural resources are present in lease areas, 
            agencies and oil-gas operators should invite interested 
            tribes and tribal members to conduct site visits and plan 
            their development to address specific tribal concerns. 
            Also, require that operators file viewshed and soundscape 
            analyses with the Park Service, BLM, and BIA before 
            conducting surface-disturbing activities and, in 
            cooperation with those agencies, develop viewshed and 
            soundscape protection plans.

    <bullet> Require that BLM and BIA consult with the National Park 
            Service before issuing new leases and drilling permits.

    <bullet> Protect dark night skies; limit flaring and artificial 
            lighting.

    <bullet> Prioritize reclamation of well pads, access roads, and 
            other oil and gas infrastructure to restore viewsheds from 
            Chaco Culture NHP and nearby cultural sites.

    <bullet> Prioritize new drilling within already-developed, less-
            sensitive areas using avoidance measures, such as siting, 
            screening, and mandatory unitization.
4. The Great North Road Corridor requires special treatment under the 
        BLM-BIA joint plan.

    Another area that warrants a landscape-level management approach is 
the corridor of cultural and archaeological sites and great houses 
along the Great North Road (but beyond the 10-mile protection zone 
around the Park). This corridor has seen significantly more oil and gas 
leasing and development than the lands immediately surrounding Chaco 
Culture NHP. However, like the lands around the Park, this corridor 
also contains a high density of connected cultural sites that would 
benefit from enhanced lease stipulations and development guidelines. To 
protect this area, the plan should:

    <bullet> Create a single area of critical environmental concern 
            (ACEC) along the Great North Road corridor--but broader 
            than the existing ACEC, which is insufficiently narrow--and 
            close it to future leasing.

    <bullet> Prohibit new rights-of-way across the Great North Road and 
            other identified Chacoan roads.

    <bullet> Require phased leasing that prioritizes leases away from 
            areas with low development potential and sensitive 
            resources.

    <bullet> Require that operators file viewshed and soundscape 
            analyses with the Park Service, BLM, and BIA before 
            conducting surface-disturbing activities and, in 
            cooperation with those agencies, develop viewshed and 
            soundscape protection plans.

    For the Great North Road, then, the agencies should adopt 
consistent management decisions and resource protections at various 
landscape levels across Federal, tribal, and allotted lands and should 
coordinate these decisions with the state of New Mexico. The agencies 
should manage areas with connected resources and common resource 
management concerns under consistent stipulations and development 
conditions.
5. The Agencies should conduct viewshed and soundscape analysis for 
        Chacoan great house communities.

    In addition to closer collaboration with NPS, as discussed above, 
we encourage the agencies to support other efforts to protect Chacoan 
communities from indirect effects to viewsheds and soundscapes. The 
recent work by Ruth Van Dyke documents considerable indirect effects to 
the viewshed and soundscape of the Pierre's Community. The ACEC 
established to protect the community is too small to address and 
prevent many visual and auditory impacts. Van Dyke concludes that the 
encroachment of oil-gas facilities has compromised the integrity of the 
ancient community and the ability of the archaeological community to 
fully understand and assess its role in the Greater Chaco Landscape. 
Thus, we believe that viewshed and soundscape analysis must be 
completed for Chacoan great house communities and protective measures 
put in place prior to allowing any additional leasing within the 
communities' boundaries.
    Working with NPS, the Navajo Nation, and archaeological groups, we 
urge BLM and BIA to conduct a comprehensive viewshed and soundscape 
analysis for all Chacoan great house communities across the Greater 
Chaco Landscape. The agencies should exclude known Chacoan communities 
from additional leasing until studies are complete. Assign stipulations 
to protect adjacent or nearby Park Resources, including stipulations 
that require NPS consultation before development can proceed near the 
Park. In the planning documents adopted by BLM and BIA, there is a 
great need to ensure a robust, ongoing role for NPS in future oil and 
gas management decisions.
    Beyond these recommendations, the All Pueblo Council of Governors 
(APCG) has spoken out on several occasions, issuing several resolutions 
calling on the BLM and BIA to work closely with Pueblo people while 
preparing the RMP amendment and draft EIS. The Pueblo Governors also 
endorsed a series of measures that would go a long way toward 
protecting the magnificent cultural resources and modern-day residents 
of the Chaco area from oil and gas development, including supporting 
the 10-mile protection zone around the park that would be off limits to 
oil and gas development. Most recently, the APCG has partnered with the 
Navajo Nation in 2017 and 2019 to press the agencies for additional 
protections across the Greater Chaco Landscape.
    In 2018, Archaeology Southwest engaged researchers Richard Friedman 
and Sean Field to conduct analysis of the BLM-procured LiDAR data (and 
other remote sensing data) from 2016. This focused primarily on oil-gas 
lease parcels from the BLM's March 2018 sale, as well as the Bis sa'ani 
Chacoan Community located roughly 5 miles northeast of Chaco. A variety 
of landscape features were identified by the analysts across the lease 
areas and in the Bis sa'ani Community area. Most were determined to be 
of modern or recent historic origin. Nonetheless, several features of 
possibly ancient, Chacoan origin were found. Several landscape features 
were identified within the Bis sa'ani Community that line up with a 
road-related feature recorded during the late 1970s work. In several of 
the lease parcels, anomalous linear features were detected that do not 
appear to represent modern or historic phenomena. Fieldwork is 
necessary to confirm or refute the ancient origin of these features; 
however, it is worth nothing that the area around Bis sa'ani has been 
the target of leasing proposals over the past 6 years, and there is 
active development in the area, which underscores the pressing need to 
document and protect these fragile resources. And, more broadly, this 
limited LIDAR project makes clear the value of using these data to 
assess lease parcels across Greater Chaco.
    Adding to my list of recommendations above, then, I encourage BLM 
and BIA to require oil-gas lease holders to use LiDAR and other remote 
sensing data that are currently available to assess tracts of land to 
be developed. This approach should complement more conventional 
archaeological work under Section 106 of the NHPA and reduce the risk 
of unidentified cultural resources being damaged or destroyed during 
oil-gas development. In addition, the preliminary findings of the 
ethnographic studies in the area make clear that the requirements of 
Section 106 of the NHPA and Bulletin 38 are not being adequately met 
with the standard, archaeological approach to fieldwork and reporting. 
It is critically important to get Native American teams into the field 
to document cultural resources prior to clearances being issued for 
oil-gas and other development across the Greater Chaco Landscape.
    In conclusion, representing Archaeology Southwest, the Society for 
American Archaeology, and the New Mexico Archaeological Council, I feel 
strongly that energy interests have dominated for far too long in 
northwest New Mexico--to the detriment of cultural sites in Chaco 
Canyon and the surrounding Greater Chaco Landscape. For Native people, 
these ancestral places archaeological sites play a significant role in 
the collective cultural identity and heritage of many Native American 
people, especially Puebloan people. The destruction of these heritage 
places by development activities has an unquantified negative effect 
emotionally, psychologically, and spiritually on tribal people and this 
should not be ignored but given appropriate and meaningful 
consideration by decision makers. On the ground, local Navajo 
communities and families have borne the brunt of these impacts. Thus, 
it is long past time to set aside and protect the irreplaceable Greater 
Chaco Landscape of New Mexico.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Mr. Reed.
    The Chair now recognizes Ms. Pinto for 5 minutes.
    Welcome to the Committee.

STATEMENT OF KENDRA PINTO, MEMBER OF COUNSELOR CHAPTER, NAVAJO 
                  NATION, NAGEEZI, NEW MEXICO

    Ms. Pinto. Thank you for this opportunity to share with you 
the efforts being done in the Eastern Agency of the Navajo 
Nation.
    My name is Kendra Pinto, and I live near Chaco Culture 
National Historical Park. It holds special meaning for Native 
tribes because it is also the center of origin stories of 
multiple local Native tribes, including the Navajo Nation. It 
is a place held sacred by many. It is a place we find a 
connection to the land and to our people. It is a sacred site 
now under attack by air, noise, and light pollution associated 
with local resource extraction.
    Living in the Chaco region provides a snapshot of life 
before encroachment of modern technology. It is common to find 
shards of pottery, sweat lodges, and arrowheads. How will the 
Federal Government guarantee the protection of cultural 
resources if they continue to ignore tribal consultation in the 
leasing process? Today, there are thousands of cultural 
resources and sites that have not been accounted for by the 
Bureau of Land Management. This sends a clear message: Federal 
agencies are not properly consulting with tribes on the 
potential impacts to historic properties and cultural 
resources.
    In July 2016, a site owned by WPX exploded and 36 storage 
tanks holding oil and produced water caught fire. I have 
wondered since then if the situation was handled as best as 
possible or if the isolation of the area played a major factor 
in the decision to let the toxic fire burn. Had the Bureau of 
Land Management thoroughly analyzed the impacts of approving 
development in this location and the potential impacts to 
public health, safety, the air, and the surrounding 
environment, then maybe residents could have been spared that 
traumatic night of having to evacuate their homes.
    Starting in 2017, I began working alongside a group of 
local Dine residents and allied environmental groups to study 
the health effects of hydraulic fracturing on neighboring 
communities. We took multiple air samples and found elevated 
levels of volatile organic compounds at several locations. One 
of the tested samples had elevated levels of hydrogen sulfide 
located within 1,000 feet of an elementary school.
    Last year, Counselor Chapter House applied for funding and 
received 16 air monitors to test the local air at eight homes 
throughout the area. The results were disturbing. Counselor 
community monitors showed site levels reaching hazardous 
levels.
    In October 2018, I rode alongside Earthworks to film oil 
well sites with a FLIR camera. This provided an up-close, 
personal view of the venting of methane and other gases. I was 
horrified, but not surprised. The isolation of the area and the 
multiplicity of jurisdictions creates an ideal situation of 
unenforced regulations.
    These findings are not unique. The Trump administration's 
rollbacks of methane waste and pollution regulations at the 
Federal level are making this problem much worse. I understand 
that the Navajo Nation EPA is currently considering new rules 
to limit air pollution from oil and gas sources and that these 
rules could include requirements to reduce methane pollution. 
By adopting a strong minor source air permitting program that 
includes methane requirements, the Navajo Nation can help stop 
the pollution.
    We can smell the pollution, see the flares, and hear the 
methane being released every day. We cannot continue to adopt a 
``wait and see'' approach to methane regulations, especially 
when we know there are already common-sense steps industries 
can take to stop venting, leaking, and flaring, if they are 
held accountable.
    I highly urge this Committee to consider the extent of your 
responsibility to me and to every single living person affected 
by oil and gas extraction on the Navajo Nation and in New 
Mexico. Accidents like the February 17, 2019 spill of 42,000 
gallons of produced water and 12,600 gallons of oil in 
Counselor Chapter demonstrate the urgent need for regulations 
that hold industry responsible for negative impacts to public 
health, cultural resources, and the environment, as well as the 
need for robust emergency response plans to protect community 
members when accidents like this happen.
    The regulations needed to protect me and my family go 
beyond fines and violations. They must ensure that all 
generations now and in the future are considered and treated 
with respect in their right to clean air and clean water.
    Thank you.

    [The prepared statement of Ms. Pinto follows:]
           Prepared Statement of Kendra Pinto, Navajo Nation
    Thank you for this opportunity to share with you the efforts being 
done in the Eastern Agency of the Navajo Nation.
    My name is Kendra Pinto. I live near Chaco Culture National 
Historical Park, the epicenter of one of the oldest and most advanced 
civilizations in the world. It holds special meaning for Native tribes 
because it is also the center of origin stories of multiple, local 
Native tribes, including the Navajo Nation. It is a place held sacred 
by many. It is a place we find a connection to the land and to our 
people. It is a sacred site now under attack by air, noise, and light 
pollution associated with local, resource extraction and increasingly 
expanding oil and gas development.
    Living in the Chaco region provides a snapshot of life before 
encroachment of modern technology. It is common to find shards of 
pottery, sweat lodges, and arrowheads. Just 2 weekends ago I found two 
shards of pottery 550 feet from my front door. How will the Federal 
Government guarantee the protection of cultural resources if they 
continue to ignore tribal consultation during the leasing process? 
Today there are thousands of cultural resources and sites that have not 
yet been accounted for by the Bureau of Land Management. Time after 
time, the BLM has failed to conduct required ethnographic studies and 
cultural resources inventories of the area before leasing. This sends a 
clear message: Federal agencies are not properly consulting with tribes 
on the potential impacts to historic properties and cultural resources 
that may be eligible for listing on the National Register of Historic 
Places. The area is known as the Checkerboard because of its five 
different land jurisdictions: Federal, state, tribal, allotment, and 
private. All of these jurisdictions are within close proximity to Chaco 
Culture National Historical Park.
    Last year on March 8, 2018, 4,434 acres of land were scheduled for 
a BLM oil and gas lease sale. This directly affected the inhabitants of 
the area due to split ownership of tribal surface rights and BLM 
Federal mineral rights. I live on one of the parcels that were put up 
for lease, but never received a public notice in my mail or on my door 
to alert me to the potential hazards of oil and gas development.
    In July 2016 a site owned by Williams Production and Exploration 
(WPX) exploded and 36 storage tanks holding oil and produced water 
caught fire. I watched as emergency vehicle after emergency vehicle 
showed up to the scene. I watched a massive firewall build into the 
night sky with a home a mere 330 feet away. I watched the fire blaze 
for 5 days. I have wondered since then if the situation was handled as 
best as possible or if the isolation of the area played a major factor 
in the decision to let the fire continue to burn and spew toxic smoke. 
Following this dangerous incident, questions about the real safety of 
drilling and stored oil so close to occupied homes became a regular 
precursor in conversations. Had the Bureau of Land Management 
thoroughly analyzed the impacts of approving development in this 
location and the potential impacts to public health, safety, the air, 
and surrounding environment then maybe 55 residents could have been 
spared that traumatic night of having to evacuate their homes. The 
shocking distance of the fire to the house is well under what medical 
professionals describe as ``safe doses'' of continuous emissions of 
toxic air.
    Starting in 2017 I began working alongside a group of local Dine 
residents and allied environmental groups to study the health effects 
of hydraulic fracturing on neighboring communities. We took multiple 
air samples and found elevated levels of volatile organic compounds at 
several locations. One of the tested samples had elevated levels of 
hydrogen sulfide located within 1,000 feet of an elementary school that 
exceeded the EPA reference concentration.
    Last year, Counselor Chapter House applied for funding and received 
16 air monitors to test the local air at 8 homes throughout the 
community. Our team explained particulate matter (PM 2.5) to the 
families and why it could contain hazardous pollutants from the wells 
nearby. We showed them a body graphic that explained the types of 
chemicals that burn off in the flares, are emitted from the well 
equipment, and what kind of health symptoms they might develop from 
breathing those pollutants. Our health committee then shared 80 health 
surveys with wellness and chapter groups filled out by residents of 
Counselor, Ojo Encino, and Torreon. The data collected was then put 
into a health impact assessment titled, ``A Cultural, Spiritual, and 
Health Impact Assessment.''
    The results were disturbing. For the test period of 1 month, the 
San Juan and Rio Arriba county monitors showed daily averages of 
``Particulate Matter (PM) 2.5'' at a healthy level of 6 or 7 micrograms 
per meter cubed (ug/m<SUP>3</SUP>), while our Counselor community 
monitors showed site levels reaching hazardous levels of >80 ug/
m<SUP>3</SUP>. The health surveys also showed more than 80 percent of 
the residents reported they experienced 11 out of the most commonly 
reported symptoms from gas and oil communities nationally; the average 
reported symptoms was 40-50 percent.
    In October 2018 I rode alongside Earthworks to film oil well sites 
with a FLIR (Forward Looking InfraRed) camera. This provided an up-
close, personal view of the venting of methane and other gases. I was 
horrified but not surprised. The isolation of the area and the 
multiplicity of jurisdiction creates an ideal situation of unenforced 
regulations and finger pointing. Four complaints have been filed 
directly with NM Environment Department as a result of the emissions we 
saw on that day.
    These findings are not unique. The most up-to-date scientific 
studies are showing that oil and gas pollution is putting a very heavy 
burden on communities across New Mexico and the Navajo Nation. A recent 
study \1\ found that oil and gas companies operating on Navajo lands 
have a leak rate that is more than double the national average. This 
means that every year 13,000 tons of methane are emitted by companies 
on Navajo Nation lands, enough pollution to have the same climate 
impact as 235,000 vehicles per year.
---------------------------------------------------------------------------
    \1\ https://www.edf.org/energy/navajo-nation-natural-gas-waste-
report.
---------------------------------------------------------------------------
    Along with this methane pollution comes harmful co-pollutants that 
threaten the public health of Navajo communities. These include 
volatile organic compounds that are one of the main building blocks of 
ozone smog pollution that can harm respiratory health and trigger 
asthma attacks, especially in children and the elderly. It is 
concerning, though not surprising, that ozone pollution levels in San 
Juan County, New Mexico, where much of the Navajo Nation's natural gas 
production is based, are dangerously close to surpassing health safety 
standards for ozone. Local communities' health and well-being should 
not be put at risk by this pollution.
    The Trump administration's roll backs of methane waste and 
pollution regulations at the Federal level are making this problem much 
worse. I support efforts from the state of New Mexico under Governor 
Lujan Grisham and the Navajo Nation under President Nez to step up as 
the Federal Government retreats. The state and tribal governments need 
to fill this gap to protect our people from pollution.
    I understand that the Navajo Nation Environmental Protection Agency 
is currently considering new rules to limit air pollution from oil and 
gas sources and that these rules could include requirements to reduce 
methane pollution. I strongly support Navajo methane rules that will 
reduce pollution, waste and increase tribal sovereignty. By adopting a 
strong minor source air permitting program that includes methane 
requirements, the Navajo Nation can help stop the wanton waste and 
pollution that I have seen far too often impact my community.
    The San Juan Basin is home to the largest methane ``hot spot'' in 
the United States. Methane emissions from fossil fuel development thus 
exacerbate climate change and its long-term, intergenerational effects 
on the people and communities who call the Greater Chaco Area home. We 
must reduce fugitive methane emissions now, not only to prevent or 
mitigate long-term consequences for climate and health, but also to 
address the empirically demonstrated health risks and effects that are 
already occurring.\2\
---------------------------------------------------------------------------
    \2\ Even the U.S. EPA has admitted that one of its proposed fall 
2018 methane protection rollbacks could adversely affect human health 
and welfare via increased exposure to ozone, particulate matter, and 
hazardous air pollutants (HAP), but cited vague ``data limitations'' 
for its failure to quantify those effects. See, e.g., U.S. Envt'l 
Protection Agency, Proposed Rule, Oil and Natural Gas Sector: Emission 
Standards for New, Reconstructed, and Modified Sources Reconsideration, 
83 Fed. Reg. 52056, 52059 (``the EPA expects that the forgone VOC 
emission reductions may also degrade air quality and adversely affect 
health and welfare effects associated with exposure to ozone, PM2.5, 
and HAP . . .'').
---------------------------------------------------------------------------
    In 2018 San Juan County, New Mexico received a ``C'' grade, while 
neighboring La Plata County, Colorado got a failing ``F'' grade from 
the American Lung Association for smog pollution. The effects of 
fugitive methane emissions are not only long-term and widespread, but 
also immediate and acute. We can smell the pollution, see the flares, 
and hear the methane being released every day. We cannot continue to 
adopt a ``wait and see'' approach to methane regulations, especially 
when we know there are already common-sense steps industries can take 
to stop venting, leaking, and flaring, if they are held accountable.
    In New Mexico, over 30,000 students attend school within \1/2\ mile 
of active oil and gas wells, and over 12,000 children suffer asthma 
attacks annually due to oil and gas ozone smog.\3\ The smog pollution 
is also responsible for almost 9,000 missed school days in New Mexico 
children.\4\ Children in the San Juan Basin are especially at risk. The 
area is home to tens of thousands of active oil and gas wells,\5\ and 
in San Juan County and Rio Arriba County, child asthma hospitalizations 
exceed the New Mexico State average.\6\ Rio Arriba County and McKinley 
County have some of the highest rates of asthma emergency department 
visits in Northern New Mexico; rates are likely underestimated in this 
data set because many asthma-related visits in the region are to IHS 
facilities.\7\
---------------------------------------------------------------------------
    \3\ Oil and Gas Threat Map (2018). New Mexico. Available at http://
oilandgasthreatmap.com/threat-map/new-mexico/.
    \4\ Id.
    \5\ Id.
    \6\ New Mexico Dept. of Health, The Burden of Asthma in New Mexico: 
2014 Epidemiology Report (Jan. 2014), at 41. Available at https://
nmhealth.org/data/view/environment/54/.
    \7\ Id at 33.
---------------------------------------------------------------------------
    In 2017, over 40 percent of San Juan county residents expressed 
difficulty accessing health care,\8\ often due to geographic isolation 
but also economic difficulty. Lower income families and non-white 
families are also more likely to have homes, schools, and workplaces in 
close proximity to oil and gas wells and other polluting entities.\9\ 
Underlying socioeconomic position, access to care, and other ``social 
determinants of health \10\ '' must be accounted for when analyzing 
existing methane regulations and rollbacks, and when enacting and 
enforcing future protections.
---------------------------------------------------------------------------
    \8\ Id at 205.
    \9\ See e.g. NAACP, Environmental and Climate Justice, available at 
https://www.naacp.org/issues/environmental-justice/.
    \10\ Social determinants can include both positive and negative 
factors. Most broadly, social determinants of health are: ``conditions 
in the environments in which people are born, live, learn, work, play, 
worship, and age that affect a wide range of health, functioning, and 
quality-of-life outcomes and risks. Conditions (e.g., social, economic, 
and physical) in these various environments and settings (e.g., school, 
church, workplace, and neighborhood) have been referred to as `place.' 
In addition to the more material attributes of `place,' the patterns of 
social engagement and sense of security and well-being are also 
affected by where people live. Resources that enhance quality of life 
can have a significant influence on population health outcomes. 
Examples of these resources include safe and affordable housing, access 
to education, public safety, availability of healthy foods, local 
emergency/health services, and environments free of life-threatening 
toxins.'' See Office of Disease Prevention and Health Promotion, 
Healthy People 2020: Social Determinants of Health, Available at 
https://www.healthypeople.gov/2020/topics-objectives/topic/social-
determinants-of-health.
---------------------------------------------------------------------------
    I highly urge this Committee to consider the extent of your 
responsibility to me and to every single living person affected by oil 
and gas extraction development on the Navajo Nation and in New Mexico. 
Accidents like the February 17, 2019 spill of 42,000 gallons of 
produced water and 12,600 gallons of oil in Counselor Chapter 
demonstrate the urgent need for regulations that hold industry 
responsible for negative impacts to public health, cultural resources, 
and the environment, as well as the need for robust emergency response 
plans to protect community members when accidents like this happen.
    The regulations needed to protect me and my family go beyond fines 
and violations, they must ensure that all generations now and in the 
future are considered and treated with respect in their right to clean 
air and clean water.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Ms. Pinto.
    I thank the panel for all of your testimonies.
    I want to remind the Members again, one more time, that 
Committee Rule 3(d) imposes a 5-minute limit on questions.
    I am now going to recognize Representative Haaland for 5 
minutes.
    Ms. Haaland. Thank you, Chairman.
    And thank you all for coming here. We are so grateful.
    Before I start my remarks and questions, I wanted to 
acknowledge that Josh Sanchez and Cal Curley are representing 
Senator Tom Udall at this hearing today, so thank you for being 
here.
    And I also just wanted to let this panel and the previous 
panels know that we as a Committee have worked very hard to 
bring tribal leaders to the table. We have had a number of 
hearings already on climate change, on public lands, on missing 
and murdered indigenous women within our Committee, and that 
testimony, we have made sure that tribal leaders and tribal 
voices are at the table. So, I just wanted you all to know that 
we are working hard to make sure that that happens.
    Mr. Schreiber, one thing that you mentioned that I don't 
think we think about a whole lot but is significant, is that 
the harmful impact of the oil and gas companies, how they 
disadvantage rural America. How has that happened in your 
county of Rio Arriba? It just stands to reason that you don't 
have nearly as much money as the big gas and oil giants in our 
country, and feeling like you are fighting against all odds, 
how have you seen that play out in your county of Rio Arriba?
    Mr. Schreiber. Mr. Chairman, Representative Haaland, I 
think that what I would like to take from your question is an 
admonition or a request that everyone stand and fight, 
regardless of how disadvantaged you are, regardless of how 
upside-down those odds are. The response from Democratic 
leaders at the Federal and state level for the 20 years that I 
have been involved in this has rewarded us every time, and we 
have made progress. When we are losing, we have to say it. When 
we win, we have to put quotes on it because we didn't stop a 
well from being drilled. But the advances that we make by our 
activism and by standing up and with your support, I encourage 
everyone to do that. I don't want my remarks to seem like we 
don't have a strong future. We do, with your leadership, and 
Madam Secretary, and our governor here.
    We are terribly disadvantaged in Arriba County especially, 
and our neighbor, San Juan County, I can name dozens of 
families in New Mexico from my father's generation, mine, and 
my children's generation that have made fortunes of spectacular 
proportions. Yet, a USA Today survey finds farms in New Mexico 
and the general area, the metropolitan area there, the worst 
place in the United States to raise a child. How can that be?
    That is how we are impacted when there is a great lack of 
investment back to the communities from where those resources 
are extracted, and it is never shown in greater stark relief 
than we all saw it yesterday in Chaco, where so many spoke with 
a chest full of emotion that I certainly feel myself. Thank 
you.
    Ms. Haaland. Thank you very much for speaking your truth.
    [Applause.]
    Ms. Haaland. Secretary Cottrell Propst, I have heard that 
the area BLM offices apply different standards and practices 
for consultation. How is the New Mexico Energy, Minerals, and 
Natural Resources working with the BLM to create uniformity for 
the benefit of all New Mexican citizens?
    Ms. Cottrell Propst. Thank you, Representative Haaland. I 
would like to answer your question in part by talking about 
what we are doing on tribal consultation, if I may. Good-faith 
consultation with tribal governments is a really important 
aspect of our work, and New Mexico, as we have talked about, is 
home to so many other governments besides the state government, 
and consultation with all of them is no easy task, but it is 
not a task that we shrink from.
    We officially adopted as an agency a tribal consultation 
policy in 2009, and we are currently revising that policy to 
meet the needs of our tribal partners. I have appointed our 
Deputy Secretary as the tribal liaison because I believe tribal 
consultation needs to happen at the highest level of each 
agency.
    Official consultation can be carried out either by a 
request from our department or at the request of a tribal 
government that identifies an interest in an area of action. We 
are very committed to this. I am glad to give you more examples 
of the work that we do. For example, with the Oil Conservation 
Division, we worked extensively with the Apache on oil and gas 
well testing and underground injection control for injection 
wells. In addition, we have worked with the Navajo Nation to 
reclaim and remediate tribal lands affected by spills and 
leaks. So, this is the place where we step in where perhaps the 
BLM doesn't have the resources to do so and work to get the job 
done. Thank you.
    Ms. Haaland. Thank you very much, and I yield back, 
Chairman.
    Mr. Lowenthal. I would like to now recognize Representative 
Lujan for 5 minutes of questions.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Mr. Schreiber, you have long been an advocate for reducing 
methane emissions here in New Mexico. How can Congress 
specifically support your efforts to stop methane emissions 
here in New Mexico and across the country?
    Mr. Schreiber. Mr. Chairman, Representative Lujan, the BLM 
Methane Waste Rule that was passed and signed into effect in 
2016 was the result of a long, lengthy, and extremely broad 
consultation, and we are talking about consultation processes 
here today. That included hearings in five different 
communities throughout the United States with extensive comment 
periods, and complete involvement from the President's team. 
Professor Amanda Liter from Washington, DC headed that effort 
up, and that was a tremendous rule. We have that tool. I would 
like to say that is part of the shield and the spirit that was 
spoken so eloquently about by my predecessor here, Chairman 
Nez.
    You have the tools in your hand. How you fight back against 
this current administration to be able to use those tools on 
behalf of people like myself, Kendra, and the folks across 
America that we represent, we just encourage you to do that. 
But that is a tremendous rule. We will bring it down. We will 
put a state rule in place. But methane pollution knows no state 
boundaries. We air-mail that pollution to my friends and my 
family up in southern Colorado every time the wind blows. So, 
we need a Federal regulation, as well as state regulations.
    Mr. Lujan. You touched on my second question, Mr. 
Schreiber, which is that your ranch is right on the border with 
New Mexico and Colorado. Can you talk about the difference 
between the two?
    Mr. Schreiber. Well, I will tell you, there is no 
difference in the air. There is none. The idea that Colorado 
has a strong methane waste rule that works well for them, that 
is over 5 years old and has proven to have little or no effect 
on the operators, and they endorsed that bill. Governor 
Hickenlooper and my associate, Gwen Lacko, who is a friend to 
so many of us here and a great activist and voice for methane 
control in New Mexico, as well as Colorado, helped Governor 
Hickenlooper put that into place.
    The history of time has the wind going southwest to 
northeast across the Colorado Plateau. So, as hard as they work 
to control what they are doing, we are dumping that onto them. 
Not only that, but Coloradans come to New Mexico to work and 
play and to shop, and we don't just send the methane to them, 
they have to come to the methane in us. We need to fix that 
with a state law and a Federal law.
    Mr. Lujan. Madam Secretary, you highlighted in your 
testimony about the importance of how the Federal Government 
should be working to stop this. Under your leadership and that 
of Governor Lujan Grisham, Secretary Kenney's Environment 
Department, you are taking steps to lead in addressing the 
methane emissions here in New Mexico. Do you see a need for the 
Federal Government to move in a similar direction?
    And, in her testimony, Ms. Pinto brought up something 
important, which is if they are held accountable. Can you talk 
about how New Mexico holds people accountable and what the 
Federal Government could be doing to hold more people 
accountable, understanding that under the Martinez 
administration your budgets were reduced? We saw a reduction in 
staff. We are now seeing fewer staff with the Trump 
administration, fewer people that have the responsibility to 
carry this out. Can you touch on that briefly? And then I have 
one other question.
    Ms. Cottrell Propst. Sure, Mr. Congressman. We work well 
with the BLM. I think it is important when we can lead at the 
Federal level and be comprehensive. That is helpful. But in the 
absence of that, the states will lead. BLM is the land 
management agency, and the state cannot assume all of its 
duties under Federal law. Like I said in my testimony, we don't 
see duplication as being a problem here. We work together to 
avoid conflicts.
    On methane, the state did hold off on adopting rules while 
the BLM and EPA were developing them. Now that the Federal 
agencies have reduced or eliminated their rules, the state will 
move forward with its proposals.
    Mr. Lujan. I appreciate that. While I am not one of the 
experts that is involved with these deliberations, the camera 
that we used yesterday clearly gives someone a tool to go and 
say, hey, there is a leak, and they can geo-tag it now. It 
turns out that even on our phones, we have GPS locating and can 
geo-tag. You have the video, and then you go back a week later, 
whatever it may be, and say, hey, it is still leaking. We can 
hold these people accountable, so I hope that there is a 
recommendation to do that as well.
    [Applause.]
    Mr. Lujan. Ms. Pinto, there is one piece of your testimony 
that you weren't able to include as you were speaking but that 
has been submitted to the record, but it is an important one. 
You state that you live on one of the parcels that was put up 
for lease by the BLM in 2018, but you never received a public 
notice in your mail or on your door to alert you. Can you talk 
about that and what is going on with this when you talk about 
notice?
    Ms. Pinto. Yes. I think the bare minimum, at least from 
what I understand, is that BLM has to put a public notice on 
their website, but the difficulties with our area is that not 
everyone in our area has a smart phone, Internet access or a 
computer, or even a television. I do have all those things. I 
do have those amenities, but not everyone does. So, I went to 
the bare minimum of saying we never got snail mail to tell us 
that there were potential impacts to this activity that was 
brought in by outsiders.
    It is important that everyone knows that every single 
person was contacted to let them know that there could be a 
well pipe under them, 2 miles under them.
    Mr. Lujan. I appreciate that.
    Mr. Chairman, could I just bring to the Committee's 
attention the importance of the lack of notice that is taking 
place, and the notion that while we are still fighting to get 
connectivity in many parts of America, but especially on the 
Navajo Nation, we all were there yesterday, and we know where 
our phones worked and where they did not work. I am telling you 
that it is just not adequate. We have entities making millions, 
if not billions of dollars, and they say that it is too hard 
and too expensive to notify residents. That is something else 
that should be included in this, and I yield back.
    [Applause.]
    Mr. Lowenthal. Thank you, Representative Lujan, for 
bringing that issue up to our Committee to address.
    Next, I would like to recognize Chairman Grijalva for 5 
minutes.
    Mr. Grijalva. Thank you again, Mr. Chairman.
    Madam Secretary, many of our friends on the other side of 
the aisle in Washington argue that agencies like the BLM should 
not be regulating methane, waste, or fracking, or practically 
anything, because that is an attack on state sovereignty and 
keeps states from regulating oil and gas in the way that they 
know best.
    I ask this question because, first of all, do you think 
that is true? Second of all, do Federal regulations on oil and 
gas interfere with your ability to regulate as a state?
    Ms. Cottrell Propst. Mr. Chairman and Chairman Grijalva, 
thank you. I do think we can work together with the BLM, 
depending on what is going on at the Federal level. If there is 
a desire to move forward with BLM on Federal methane 
regulations, then let's look at how to make sure it happens 
responsibly and without duplicating state efforts or without 
interfering with anything we are doing here.
    Right now, given the circumstances we are in, when we do 
not see that leadership at the Federal level, we feel like we 
have to move forward. We are taking a look at evaluating our 
regs and where the opportunities are to be strong. We are going 
to work with stakeholders and the industry, with environmental 
groups, with tribal groups and others. So, we are going to move 
forward given that reality. Thank you.
    Mr. Grijalva. Thank you very much.
    Mr. Schreiber, have you seen any change in how the BLM 
field offices operate here with regard to this issue since this 
administration took office?
    Mr. Schreiber. Mr. Chairman, Chairman Grijalva, we have had 
a long, contentious relationship with the BLM, but up until 
this present administration we have always been able to 
continue a dialogue, perhaps disagreeing but always on a go-
forward footing. We have instituted on our ranch an open-space 
pilot project with the cooperation of the BLM, and we have 
always been able to find a way to go forward.
    We don't have that now. I think that has been withdrawn. 
Our local field office, while, as I said in my statement, there 
are so many good-hearted and willing public servants there, 
their hands are really tied from above, and our hearts go out 
to them to the degree that they know what needs to be done. But 
we can't receive that cooperation that we once had, and we miss 
that very much.
    Mr. Grijalva. Let me just follow up. Did the notice which 
we heard about and saw pictures of, the notice of the violation 
of the corporation, did that include a fine? Do you know?
    Mr. Schreiber. Mr. Chairman, Chairman Grijalva, I do not 
think that notice of violation process is concluded, so the 
fine is yet to be determined. But it is such a tremendous step 
forward for this state to have taken that, given the last 8 
years of where we have been in this state. So, that is a 
$15,000-a-day fine potentially. It is really one of the most 
positive steps that we have seen. It took a lot of work to get 
there. We appreciate everyone's cooperation in Washington, DC, 
and here at the state level. That is showing great potential.
    Mr. Grijalva. Mr. Reed, just a general question, 
reclamation being part of it, reclamation of oil and gas 
infrastructure in the Greater Chaco Region, and the need to 
reclaim that, but I think a little bit of a question about 
identity.
    I think Chaco Canyon and many of the other areas that we 
will be talking about in relationship to the extraction 
industry and their effect on those--Bears Ears, Grand Canyon, 
et cetera. Identity--we know what that means to this Nation and 
what it means to the region, and what it obviously means to the 
Pueblos and to the Navajo people, but how that is part of our 
identity, and your reaction to that jeopardy.
    Mr. Reed. Chairman Grijalva, Mr. Chairman, I appreciate the 
question. Identity for Americans, I think, is a hugely 
important part of who we are, and in the special space in Chaco 
and around Chaco this represents a key portion of the identity 
of our New Mexico Native American friends and colleagues.
    And what we are seeing happening with the fragmentation of 
this ancient landscape is basically the erasure of this 
identity and this ancestry with each new well pad, each new 
cluster, each new pipeline road.
    If I might briefly make a comment on the earlier question 
about whether the current cultural resource management laws are 
adequate, I would definitely say they are not. We go out as 
archeologists, we survey areas, we have a well pad here, we 
identify a cultural site, we put a circle around it, and then 
we make companies go 50 to 100 feet away, and then they get 
their infrastructure, their well pad, their road. Meanwhile, we 
have an in-filling of this ancient, amazing landscape basically 
being intruded by an industrial landscape. As noted earlier, 
this oil field is almost 100 years old, so we are having 
tremendous indirect and cumulative effects on this landscape 
through time.
    At this point, 91 percent of the Farmington Field Office is 
leased for oil and gas. We have been working hard to get that 
last 9 percent, about 5 percent of which is within the 10-mile 
zone, to get that protected, to save this last piece of this.
    So, that is where we have been working really hard with our 
partners, with the APCG, with the Navajo Nation. Thank you.
    Mr. Grijalva. Thank you.
    I yield back, Mr. Chairman.
    Mr. Lowenthal. Thank you.
    I want to start with Ms. Pinto. Yesterday you visited the 
oil and gas well sites near Chaco Canyon with our delegation. 
Can you describe to our Subcommittee your experience from 
yesterday?
    Ms. Pinto. How honest do you want me to be?
    [Laughter.]
    Ms. Pinto. Thank you for the question, though.
    Mr. Lowenthal. Very.
    Ms. Pinto. OK. Well, I have made many trips to DC, and 
every single trip that I have gone to, I have invited Udall, I 
have invited Heinrich, I have invited Lujan, and that was 4 
years ago it started. So, it was amazing to see Federal people, 
DC people here yesterday, because we have been fighting just 
for a visit, and it finally came true. But now we have to 
continue on this path to make sure that everything is 
protected, the people and the space out there.
    So, yesterday was very interesting because it was not new 
for me, but it was new for you, and I wanted to see your 
reactions. I wanted to see how you felt and how you would 
incorporate that information into your decisions in the future.
    Mr. Lowenthal. Thank you.
    Now I would like to ask Mr. Reed a question.
    [Applause.]
    Mr. Lowenthal. We will get back to that.
    [Applause.]
    Mr. Lowenthal. It is a real pleasure and honor for us to 
have an archeologist here to testify. So, maybe to educate 
ourselves, the question is that yesterday we had the 
opportunity, as was just pointed out, to visit Chaco Canyon and 
to explore a Pueblo Bonito. Can you take us back in time and 
describe what we would have witnessed there at Pueblo Bonito 
had we been there 1,000 years ago?
    Mr. Reed. Thank you, Mr. Chairman. This is something 
archeologists dream about, and probably many of us Americans, 
right?
    [Laughter.]
    Mr. Reed. The time machine. What we have instead of a time 
machine is we have deep, deep tribal tradition, Pueblo 
tradition in our oral history that goes back, and we have 
archeology, which admittedly has not been very respectful in 
the past. I am pleased to say that we are working much more 
closely with our Native American colleagues and partners at 
this point.
    If we went back to Pueblo Bonito, I believe we would see an 
amazing area of activity. We would see hundreds, perhaps 
thousands of people carrying on daily activities. We would hear 
dogs barking. We would hear babies crying. We would perhaps see 
turkeys running about. We would see people making pottery. We 
would see people using different types of native stone to build 
and make arrowheads and projectile points. We would basically 
see an amazing representation of probably--or definitely, from 
what we know--the largest site in Western North America at that 
point in time as a living, thriving community.
    I am not sure we would quite compare it to a city with the 
number of people, but certainly a very active town with the 
bustle of activity going on. We might have some indication of 
the importance of the activities that were happening behind the 
scenes that were not for everyone's eyes, and we would see the 
connections in Chaco that archeologists and tribal folks and 
others, interested people, have worked so hard over the last 25 
or 50 years to develop.
    We would see the other buildings in Chaco Canyon, and we 
would see many, many people going about their activities. We 
would go across to Ocho Wash, which was more of a river in 
those days with better precipitation, less environmental 
damage, and we would literally see acres upon acres of corn 
being grown, along with beans and squash and many other 
traditional plants.
    So, for me, again, this is the dream question and the dream 
time travel trip. Thank you.
    Mr. Lowenthal. I just wanted to respond in my last minute 
to Ms. Pinto's question about what was our response, and I can 
just speak for myself, and maybe I will give each member of the 
panel a minute. That is an excellent question. We keep asking 
you questions, and now you asked us a question.
    It was a profound and moving experience. For me, to have 
seen clear blue skies when we drove up when we saw that oil 
production, and then when we looked through that camera that 
Representative Lujan mentioned, I was shocked to see the entire 
sky--the entire sky--filled with methane gas. It was profound 
and moving.
    And the second part was, to follow up, and that is why I 
asked Mr. Reed, it was a profound experience for us to be part 
of the sacred grounds and to understand where we were walking, 
and who walked there, the ancestors before us, was very, very 
moving.
    I would like to ask the other members of the panel also 
what was your experience? I will start with Representative 
Haaland.
    Ms. Haaland. Thank you, Chairman.
    And thank you, everyone, for being here.
    Ms. Pinto, I think you got the largest applause here today, 
so we appreciate you being here.
    For me, I have been on the Navajo Nation many, many, many 
times, and I organized there. I spent almost every single 
election for the past close to 20 years going to the Navajo 
Nation to knock on doors, to register voters, to just be in the 
communities to make sure that they understood what was at stake 
in any election that we have ever had here in New Mexico. I 
have always been honored to be there because the Navajo people 
are some of the most loving and generous and kind people I have 
ever met.
    So, to know that a lot of our tribal communities live in 
poverty and yet still have a strong desire to be a part of this 
state and of our Federal Government and of our armed forces and 
everything that they do to move our country forward, in spite 
of the fact that they are struggling daily for water, for clean 
air, for food, for just the basic necessities that a lot of us 
really do take for granted, it is emotional for me every time.
    The thing that was different about yesterday was the 
camera, the infrared camera. I had never looked through a 
camera to see pollution like that just spewing out of pipes in 
my life. I had never seen that before. I feel like I ran for 
Congress because I wanted to be a voice for people like you, 
because I feel like I know what is important to you. I feel 
like that one thing that I did yesterday, it helped me 
tremendously to further my knowledge about what my charge is as 
a Congress Member. So, thank you.
    [Applause.]
    Mr. Lowenthal. Thank you.
    Mr. Lujan. It was not my first time visiting Chaco. As Deb 
said, yesterday was special, being there with our colleagues 
and friends and the stories that were shared, some that were 
shared with everyone that was participating, many that were 
shared with private conversations. You and I had a few.
    When we were at the site where the camera that Chairwoman 
Haaland references, I noticed, when Kendra came up I noticed--I 
think it was the scarf you are wearing today, or was that a 
different one yesterday? You had your face covered. We could 
smell it, and I asked you if you could. You said you still 
could. But what often goes where you smell something but you 
don't see it, there is a reason why I commented on that camera 
several times, not just to the Secretary but to the Committee, 
to see it.
    We were told to load up in our cars right away because they 
didn't want us to get sick while we were there breathing it in. 
One of the sites we went to, there was a home less than a 
stone's throw away from one of the sites, not just people but 
horses and their animals. They don't get to get in their cars 
and go away. You understand the magnitude of what is happening.
    The other thing that left a lasting impression on me, and 
Congresswoman Haaland and I talked about it quite a bit, and we 
shared this today with the Santa Fe New Mexican editorial 
board, it was about a decade ago that I had the honor of 
working with my colleagues to pass a Navajo Nation water 
settlement. It was some work that my father also started here 
in New Mexico with many of the legislators here in the room 
today, to ensure that we are able to get water to communities 
that do not have any water.
    Senator Bingaman had a project with some Navajo students to 
show where water came from a decade or more ago, and many of 
the students drew pictures of grandma carrying buckets, or the 
backs of pick-up trucks with water that they were moving. Other 
students drew pictures of water faucets.
    There was a well that was pointed out to us that was a well 
that was approved under the previous land commissioner, a fresh 
water well. They showed us where the water came out, which was 
a large tank that was used for oil production and for gas. But 
the communities that were also in eyesight of where we were 
looking don't have access to that well.
    It was profound, and it was a very important visit, and I 
thank you for asking that question, Mr. Chairman.
    Mr. Lowenthal. Chairman Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Good question.
    We all seek dispositions because of our need to want to 
serve, our sense of values, and because we want to do the right 
thing. But I think the impression that I left with yesterday 
after we left the Canyon is that you have these rare 
opportunities to be responsible as elected officials and 
Members of Congress, to be truly responsible for something much 
bigger than yourself, and that was it.
    Mr. Lowenthal. Thank you.
    That concludes our third panel.
    Before we bring up the fourth panel, I want to thank the 
audience for being so attentive, so courteous to everyone, 
allowing yourselves, when you really wanted to respond, to 
respond in a very nice way and supportive.
    So, since you have been so good, we have a very important 
last panel coming up, and we would like you all to stay, but I 
would like to give you 5 minutes of recess to stretch your 
legs, because you have been great.
    So, this Committee is in recess for 5 minutes. That is all. 
Thank you.
    [Recess.]
    Mr. Lowenthal. Please take your seats. We need to proceed. 
We still have one very important panel. Everybody is waiting. 
We are not going to start until everybody has a chance to come 
on in.
    I was going to say I would now like to invite the fourth 
panel to take their seats, but they have already taken their 
seats, so I would like to introduce them.
    I am going to introduce everyone first. Our first witness 
will be Barbara Webber, who is the Executive Director of Health 
Action New Mexico. Our second witness is Dr. David Lyon, a 
scientist with the Environmental Defense Fund. Our third 
witness is Mr. James Jimenez, the Executive Director of New 
Mexico Voices for Children. And our final witness is Mr. Craig 
O'Neill, the Global Business Development Manager at FLIR 
Systems.
    Before we begin, we have spent a lot of time and talked 
about how we were moved very much by seeing through the 
infrared camera the plume that we could not see with our naked 
eyes, and I want to thank Ms. Sharon Wilson of Earthworks who 
accompanied us yesterday and had the infrared camera so that we 
could see it. I think Mr. O'Neill also has something about that 
that he mentioned. But we were profoundly moved, and it could 
not have happened without seeing the plumes themselves and 
going through that.
    So, with that, I would like to begin. We will begin the 
testimony now with Ms. Webber for 5 minutes.
    Welcome to the Committee, Ms. Webber.

STATEMENT OF BARBARA WEBBER, EXECUTIVE DIRECTOR, HEALTH ACTION 
              NEW MEXICO, ALBUQUERQUE, NEW MEXICO

    Ms. Webber. Thank you. I want to thank the members of the 
Committee for coming to New Mexico to seek input from those of 
us living with current Federal decisions that are undermining 
public health.
    New Mexico knows all too well the consequences of ignoring 
public health and safety. For decades, communities such as 
those in the Tularosa Basin have had to live with the after-
effects of the Trinity atomic bomb, the uranium mines that have 
already been mentioned, and these are still excluded from the 
Radiation Exposure Compensation Act. New Mexico has paid a 
heavy price. Let's not repeat history.
    Oil and gas is responsible in New Mexico for 300,000 metric 
tons of volatile organic compound pollution every year. This is 
the precursor of ozone. As a result, three counties in New 
Mexico are in danger of exceeding Federal clean air standards 
this year--San Juan, Lea, and Eddy. Another two counties, Rio 
Arriba and Chaves, are expected to join that list by the end of 
this year, which means that we have five counties exceeding or 
looking like we will exceed the Federal health standard for 
ozone.
    For 50 years, we have more than a body of research 
demonstrating the relationship between ozone exposure and 
respiratory distress and cardiovascular problems, premature 
death, strokes, and neurological effects. Children and older 
adults are most at risk from ozone pollution. Children with 
asthma--New Mexico has a high rate of children with asthma--
face higher risks from ozone exposure, such as decreased lung 
function and increased respiratory symptoms. For older adults, 
elevated ozone levels can literally make the difference between 
life and death. A study of 61 million Medicare patients found a 
significant correlation between ozone exposure and mortality. 
These effects were seen at ozone levels significantly under 
those of the current national air quality standards. New 
Mexico, by 2030, will have the third highest older adult 
population in the country.
    The science is clear: both short-term and long-term 
exposure to ozone comes with real and serious health risks. Oil 
and gas development also releases hazardous air pollutants such 
as benzene, a known carcinogen, and other pollutants, and these 
pollutants can cause cancer, blood disorders, and seriously 
impair the neurological functioning of humans.
    The last serious public health risk that I want to 
highlight is the stunning 1 million metric tons of methane 
being released in New Mexico each year, which contributes to 
climate change. This methane is responsible for more than a 
quarter of climate change that we are already experiencing.
    The CDC notes that climate change ``will likely include 
more variable weather patterns, heat waves, heavy precipitation 
events, flooding, droughts, more intense storms, sea level 
rise, and air pollution. Each of these will have significant 
public health effects.''
    Climate change contributes to air pollution in two 
important ways, first by increasing temperatures, which 
exacerbates ozone; and second, it has already led to more 
intense wildfire seasons in New Mexico and throughout the West. 
These fires generate particulate matter, forcing residents to 
limit their outdoor activity and exacerbating respiratory 
issues.
    Climate change will also create water insecurity and life-
threatening heat waves in New Mexico. Water issues will affect 
most of those who are not on municipal water supplies, 
including 30 percent of the residents in the Navajo Nation. 
Moreover, extreme heat poses health risks, including death, 
especially for children and elders, and is especially acute for 
those who are without access to electricity, including 40 
percent of the residents in the Navajo Nation.
    What is our Federal Government doing? Last year, BLM 
rescinded the Methane Waste Prevention Rule. The EPA has 
proposed to weaken leak detection and repair standards. And 
most amazingly, the EPA is expected to have another rollout to 
remove the agency's authority to regulate methane entirely.
    This stands in stark contrast to the actions by our New 
Mexico leaders, and we commend their bold leadership on this 
issue. Yet, the simple truth is that, yes, we can take state 
action, but we need Federal action as well. It is critically 
important that the Federal Government change course and stop 
efforts to roll back common-sense regulation, and that Federal, 
state, and local governments conduct and require Federal health 
impact assessments when making oil and gas planning and leasing 
decisions.
    Air pollution does not stop at state or international 
borders, and we need the United States to once again lean on 
this issue.
    Thank you for this opportunity to testify.

    [The prepared statement of Ms. Webber follows:]
Prepared Statement of Barbara Webber, Executive Director, Health Action 
                               New Mexico
    First and foremost, I would like to thank Mr. Chairman and the 
members of this Committee for coming to New Mexico today to seek input 
from those of us in states that are living with the decisions made by 
the Trump administration that are undermining public health protections 
in New Mexico and throughout the West.
    My name is Barbara Webber, and I am the executive director of the 
Health Action New Mexico based in Albuquerque. I began my career 
working on rural health and development issues internationally and have 
worked in various capacities to advocate for women's health including 
managing teams for hospice care and women's reproductive health. Prior 
to joining Health Action New Mexico in 2009, I was an analyst for the 
New Mexico Health Policy Commission.
    Since 1995, Health Action New Mexico has worked to empower 
consumers to build healthy communities and secure better health care 
for their families. We care deeply about protecting the health and 
future of New Mexico families, and one of the best ways to do that is 
to cut pollution now and avoid future health care costs later.
    I would like to also acknowledge our good friends from the 
Interfaith Worker Justice and the Tularosa Basin Downwinders Consortium 
who know all too well the consequences of what happens when public 
health and safety are ignored. For decades, this community has had to 
live with the after-effects of the Trinity atomic bomb test and, to 
this day, are still excluded from the Radiation Exposure Compensation 
Act.\1\ In addition to the documented after-the-fact disastrous health 
consequences to the lives of its citizens, New Mexico has paid for 
decades the burden of resulting health care costs and lost human 
productivity. Let's make it a lesson well learned.
---------------------------------------------------------------------------
    \1\ https://docs.wixstatic.com/ugd/
2b2028_4222ab657d7c4e4aa07975728329fa66.pdf.
---------------------------------------------------------------------------
    In my testimony today, I will provide an overview of the public 
health threats posed by oil and gas development to New Mexicans 
including ozone pollution, hazardous air pollutants (HAPs), and climate 
change. I will also highlight key policy issues that this Committee, 
the Federal Government, and the state should address.
    It is critically important that the Federal Government change 
course and stop efforts to rollback common-sense rules. We also 
strongly believe that the Federal, state, and local governments should 
conduct and require health impact assessments when making oil and gas 
planning and leasing decisions. We cannot make informed and responsible 
decisions without critical knowledge of the health impact on our 
citizens and too often, we the consumers do not have this data.
    Ozone pollution poses a serious threat to the health of New 
Mexicans, especially those living in poor, rural communities.
    According to analysis released this past week by the Environmental 
Defense Fund, oil and gas is responsible for 300,000 metric tons of 
volatile organic compound pollution, a precursor to ozone pollution 
every year.\2\ These emissions have contributed to high levels of ozone 
pollution that are dangerously close to exceeding Federal clean air 
standards of 70 parts per million in three counties including San Juan 
in northwest New Mexico and Lea and Eddy in the southeast. Almost 73 
percent of the state's oil and gas wells and more than 83 percent of 
the state's production are located in those three counties. These 
counties are the top oil and gas producing counties in the state.
---------------------------------------------------------------------------
    \2\ https://www.edf.org/nm-oil-gas/emissions.
---------------------------------------------------------------------------
    Rio Arriba and Chaves counties are expected to join that list when 
new air quality data is released in 2019. Should that prove to be true, 
97 percent of the state's wells and 95 percent of the state's 
production would be located in counties nearing ozone nonattainment 
status.
    An extensive body of scientific research, including research by the 
U.S. Environmental Protection Agency (EPA), demonstrates a causal or 
likely causal relationship between ozone exposure and respiratory 
distress, cardiovascular problems, premature death, strokes, and 
neurological effects.\3\ Children and the elderly are most at-risk to 
ozone pollutions.
---------------------------------------------------------------------------
    \3\ https://www.edf.org/sites/default/files/content/
Ozone_Summary_Report.pdf.
---------------------------------------------------------------------------
    Asthma is now the most common non-communicable disease in children 
in the United States and in New Mexico our asthma rate is higher than 
the national rate. Children with asthma face higher risks from ozone 
exposure such as decreased lung function and increased respiratory 
symptoms.\4\ And children may miss school due to ozone exposure \5\ or 
even suffer a permanent disability.\6\ Longitudinal studies have 
demonstrated that ``long-term [ozone] exposure influences the risk of 
asthma development in children.'' \7\
---------------------------------------------------------------------------
    \4\ https://www.ncbi.nlm.nih.gov/pubmed/11999000.
    \5\ http://www3.epa.gov/airquality/ozonepollution/pdfs/
20151001numbersfs.pdf.
    \6\ https://www.epa.gov/sites/production/files/2014-12/documents/
2014.05.19_chpac_ozone_ naaqs.pdf.
    \7\ Id.
---------------------------------------------------------------------------
    New Mexico has a rapidly aging population so that by 2030, we will 
have the third highest older adult population in the country. For older 
adults, elevated ozone levels can literally make the difference between 
life and death. A 2017 study of almost 61 million Medicare patients 
conducted nationwide found a significant association between ozone 
exposure and all-cause mortality, with effects strongest in minorities 
and populations of low socio-economic status, especially of note for 
our state since New Mexico is a minority/majority state with the second 
highest poverty rate in the country. These effects were seen at ozone 
concentrations well below the current National Ambient Air Quality 
Standards level of 70 ppb.\8\ Note, there are at least five oil and 
gas-producing counties in New Mexico that I mentioned earlier that are 
nearing Federal health standards.
---------------------------------------------------------------------------
    \8\ https://www.nejm.org/doi/full/10.1056/NEJMoa1702747.
---------------------------------------------------------------------------
    And as the American Lung Association has noted, breathing ozone can 
affect the heart as well as the lungs. There is strong evidence of an 
association between out-of-hospital cardiac arrests and just a short-
term exposure to ozone.\9\ ALA also noted a 2006 study that linked 
exposures to high ozone levels for as little as 1 hour to a particular 
type of cardiac arrhythmia that itself increases the risk of premature 
death and stroke.\10\
---------------------------------------------------------------------------
    \9\ https://www.ncbi.nlm.nih.gov/pubmed/23406673.
    \10\ https://www.ncbi.nlm.nih.gov/pubmed/16393668.
---------------------------------------------------------------------------
    The science is clear. Both short-term (hours, weeks, or days) and 
long-term (months or years) exposure to ozone come with real and 
serious risks to our health.\11\
---------------------------------------------------------------------------
    \11\ https://cfpub.epa.gov/ncea/isa/recordisplay.cfm?deid=247492.
---------------------------------------------------------------------------
    Oil and gas development also releases hazardous air pollutants 
(``HAPs''), such as benzene, a known carcinogen. Exposure to HAPs can 
cause cancer and seriously impair the human neurological system. 
Unsurprising, studies have found that those living in close proximity 
to oil and gas activity had higher measured exposures to HAPs and face 
increased risks to their health.\12\ Furthermore, a ``number of adverse 
non-cancer health effects including blood disorders, such as pre-
leukemia and aplastic anemia, have also been associated with long-term 
exposure to benzene.'' \13\ In addition to the risks associated with 
benzene, exposure to other HAPs is also harmful to human health. For 
instance, the serious health effects associated with exposure to 
toluene range from dysfunction of the central nervous system to 
narcosis, with effects ``frequently observed in humans acutely exposed 
to low or moderate levels of toluene by inhalation.'' \14\
---------------------------------------------------------------------------
    \12\ https://pubs.acs.org/doi/10.1021/acs.est.7b05983.
    \13\ Id.
    \14\ Id.
---------------------------------------------------------------------------
    Lastly, the 1 million metric tons of methane released each year 
during oil and gas development and production contributes to climate 
change and creates a serious public health threat.
    Methane is 84 times more powerful that carbon dioxide as a 
greenhouse gas pollutant in the near-term and responsible for more than 
a quarter of the climate change that we are already experiencing 
today.\15\
---------------------------------------------------------------------------
    \15\ https://www.edf.org/climate/methane-other-important-
greenhouse-gas.
---------------------------------------------------------------------------
    As noted by the Centers for Disease Control and Prevention, climate 
change ``will likely include more variable weather patterns, heat 
waves, heavy precipitation events, flooding, droughts, more intense 
storms, sea level rise, and air pollution. Each of these impacts could 
negatively affect public health.'' \16\
---------------------------------------------------------------------------
    \16\ https://www.cdc.gov/climateandhealth/effects/default.htm.
---------------------------------------------------------------------------
    Climate change contributes to air pollution in the West in two 
important ways. First, by increasing temperatures it exacerbates ozone 
pollution issues, especially during the summertime. Heat is a key 
factor in transforming volatile organic compounds into ground-level 
ozone or smog. Second, climate change has already led to longer, more 
intense wildfire seasons in New Mexico and throughout the West. These 
fires generate particulate matter. Just last summer, Albuquerque saw 
elevated levels of particulate pollution due to the Buzzard Fire in the 
Gila National Forest.\17\ Public health experts warned residents to 
limit their outdoor activity.
---------------------------------------------------------------------------
    \17\ https://www.abqjournal.com/1179685/wildfire-in-gila-culprit-
of-thursday-night-smoke-in-abq.html.
---------------------------------------------------------------------------
    Climate change will also create water insecurity and life-
threatening heat waves in New Mexico. Declining water supplies due to 
climate change is a dangerous public health threat that will affect 
those who are not on municipal water supplies the most, including 30 
percent of residents in the Navajo Nation.\18\ Last summer, the entire 
state of New Mexico was in a drought. Moreover, extreme heat poses 
health risks, including death. This threat is especially acute for 
those without access to electricity, including 40 percent of residents 
in the Navajo Nation.\19\
---------------------------------------------------------------------------
    \18\ https://19january2017snapshot.epa.gov/sites/production/files/
2016-09/documents/climate-change-nm.pdf.
    \19\ Id.
---------------------------------------------------------------------------
    Instead of tackling the threat posed by ozone and methane 
pollution, the Federal Government has shirked their responsibility. In 
January 2018, the U.S. Bureau of Land Management rescinded the Methane 
and Waste Prevention Rule, putting more than 30,000 oil and gas wells 
in New Mexico back under the Notice to Lessee 4A (NTL-4A) framework 
that is more than 30 years old and lead to the San Juan Basin methane 
hotspot, massive amount of emissions emanating in the Permian Basin, 
and more than $111 million worth of natural gas wasted annually on New 
Mexico's Federal lands alone.
    And in the fall of 2018, the EPA proposed to weaken leak detection 
and repair standards despite the fact that the agency found that such 
measures had even bigger benefits and were even more cost effective 
than originally estimated by the agency. This will lead to more than 
480,000 tons of methane nationwide.\20\ Most importantly, the EPA is 
expected to release a second rollback that would remove the agency's 
authority to regulate methane. This proposal is wrongheaded, especially 
in light of several major oil and gas producers--including companies 
with operations in New Mexico--that have come out in favor of Federal 
methane regulation.
---------------------------------------------------------------------------
    \20\ http://blogs.edf.org/energyexchange/2018/12/13/epa-methane-
rollbacks-contradict-agencys-own-scientific-findings/.
---------------------------------------------------------------------------
    This stands in stark contrast to actions by New Mexico leaders. In 
January 2019, Gov. Michelle Lujan Grisham issued an executive order 
that created a cross-agency effort between the Energy, Minerals and 
Natural Resources Department and the Environment Department to develop 
an enforceable regulatory framework that will cut ozone and methane 
emissions from new and existing oil and gas sources.\21\
---------------------------------------------------------------------------
    \21\ https://www.governor.state.nm.us/2019/01/29/gov-lujan-grisham-
signs-executive-order-committing-new-mexico-to-essential-climate-
change-action/.
---------------------------------------------------------------------------
    Health Action New Mexico commends Gov. Lujan Grisham for her bold 
leadership at the state level, and we call on her and her agencies to 
move forward on these rulemakings without delay. We also thank members 
of the House Natural Resources Committee for their tireless efforts to 
defend the health and future of New Mexico's families.
    The simple truth is that even after New Mexico has acted at the 
state level to cut emissions, we need strong action at the Federal 
level. Public health considerations and the scientific evidence behind 
such considerations must be at the forefront of these actions. Air 
pollution does not stop at state or international borders, and we need 
the United States to once again lead on this issue.
    Thank you again for the opportunity to testify.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Ms. Webber.
    I now recognize Dr. Lyon for 5 minutes of testimony.

   STATEMENT OF DAVID LYON, Ph.D., SCIENTIST, ENVIRONMENTAL 
                  DEFENSE FUND, AUSTIN, TEXAS

    Dr. Lyon. My name is David Lyon. I am a scientist at 
Environmental Defense Fund (EDF), a non-partisan, non-profit 
environmental organization with over 2 million members and 700 
staff guided by science and economics to find practical 
solutions to urgent environmental problems. I have worked at 
EDF for almost 7 years and earned my Ph.D. researching methane 
emissions from oil and gas development. I want to thank the 
Chair and Committee members for the opportunity to speak on 
this issue.
    Methane is a short-lived but powerful greenhouse gas that 
contributes about a quarter of current global warming. Methane 
is also the primary component of natural gas, and the emissions 
are a consequence of the oil and gas industry wasting a 
valuable product and energy resource.
    About 8 years ago, there were little data available to 
answer questions about how methane emissions would affect the 
climate impact of using natural gas. In response, EDF launched 
a series of 16 research studies to quantify methane emissions 
across the U.S. oil and gas supply chain. These studies 
involved over 140 experts and resulted in 38 peer-reviewed 
publications. Today, I will highlight our major findings and 
their implications for reducing emissions.
    First, what is the magnitude of the problem? The current 
best estimate of methane emissions from the U.S. oil and gas 
supply chain is from Alvarez et al., 2018, a paper by 24 co-
authors from 16 organizations published last summer in the 
Journal of Science. This paper synthesizes data from EDF-
sponsored and other studies to estimate emissions are 13 
million metric tons of methane, equivalent to 2.3 percent of 
our Nation's natural gas production. These emissions are 60 
percent higher than estimated by the EPA, and almost double the 
short-term climate impact of using natural gas for energy.
    In New Mexico, at least 1 million tons of methane are 
admitted from upstream oil and gas sites alone, and this 
conservative estimate was recently published by EDF based on 
data from the Science paper in new measurements from well pads 
in the Permian Basin. This wasted gas could meet the heating 
and cooking needs of every home in New Mexico. And EDF 
estimates the state is losing over $40 million in tax and 
royalty revenue due to this lost gas.
    In addition to methane, about 300,000 tons of volatile 
organic compounds are also emitted from these sites, which 
contribute to ozone formation and include hazardous air 
pollutants with local health effects.
    The highest emissions in the state are found in the 
Southeast where the Permian oil boom has led to a massive 
increase in new wells and flaring, but emissions remain high in 
the San Juan Basin where tribal communities are at risk from 
local air pollution.
    At the Federal level, the United States made important 
steps during the Obama administration, including promulgation 
of the BLM Waste Prevention Rule for all oil and gas sources on 
Federal and tribal lands, and the EPA New Source Performance 
Standard for new and modified sources nationwide.
    Unfortunately, the Trump administration has decided to 
ignore the science and is working to weaken and repeal these 
rules. I urge the Committee members to push back against the 
Administration's mistaken legal and scientific rationale for 
undoing these common-sense regulations.
    Meanwhile, state, local, and tribal governments can serve 
as important allies for reducing emissions. As Colorado has 
shown since it became the first state in the Nation to directly 
regulate methane emissions in 2014, strong rules can have a 
dramatic positive impact on reducing air pollution from the oil 
and gas industry. New Mexico and the Navajo Nation both have 
opportunities to develop and implement strong rules that will 
protect our citizens from pollution and wasted energy 
resources. These regulations can and should include a 
comprehensive set of national controls, such as frequent leak 
inspections, low-emitting equipment, reduced flaring, and a 
transparent science-based pathway to allow innovative 
technologies and work practices that can achieve equivalent or 
better emission reductions.
    Everyone wins by reducing methane emissions. The planet 
experiences less warming, communities are exposed to less 
pollution, and oil and gas companies improve their efficiency 
and reduce waste of a valuable product.
    As both a scientist and concerned citizen, I am hopeful 
that these mutualistic solutions will be adopted widely as 
knowledge of their benefits spread.
    Thank you for the opportunity to speak on this important 
issue.

    [The prepared statement of Dr. Lyon follows:]
   Prepared Statement of David Lyon, Ph.D. Scientist, Environmental 
                              Defense Fund
                              introduction
    My name is David Lyon. I am a scientist at Environmental Defense 
Fund (EDF), a non-partisan, non-profit environmental advocacy 
organization with over 2 million members and 700 staff guided by 
science and economics to find solutions to urgent environmental 
problems. I have worked at EDF for almost 7 years researching methane 
emissions and other air pollution from oil and gas (O&G) development. I 
earned a Ph.D. in Environmental Dynamics from the University of 
Arkansas with my dissertation research on the quantification, 
assessment, and mitigation of O&G methane emissions.
    I want to thank Chairman Grijalva, Subcommittee Chairman Lowenthal, 
and other members of the Committee for the opportunity to speak on the 
important issue of methane pollution from O&G development. In addition 
to being a powerful greenhouse gas that contributes about a quarter of 
current global warming, methane emissions are a consequence of industry 
failing to deliver a valuable natural resource to consumers. As I will 
cover in my testimony, O&G methane emissions are substantially higher 
than government estimates, but there are many cost-effective approaches 
that companies can implement to reduce emissions and improve 
operational efficiency.
    oil and gas methane emissions: a journey of scientific discovery
    Methane is both the primary component of natural gas and a powerful 
but short-lived greenhouse gas with more than 80 times the global 
warming potential of carbon dioxide over a 20 year period.\1\ Public 
interest in O&G methane emissions grew rapidly around 2011 when studies 
began posing questions about the climate impact of using natural gas to 
replace more carbon dioxide intensive fossil fuels such as 
coal.\2\<SUP>,</SUP>\3\ At the time, there were little data available 
on methane emissions and almost nothing collected since the rapid 
growth of unconventional O&G development from horizontal drilling and 
hydraulic fracturing. As a science-driven environmental advocacy 
organization, EDF saw an opportunity to advance society's understanding 
of the magnitude and sources of O&G methane emissions and apply that 
knowledge to develop and implement cost-effective solutions to quickly 
reduce emissions. In 2012, EDF launched a series of 16 research studies 
to quantify methane emissions across the U.S. O&G supply chain. These 
studies involved over 140 experts from about 40 institutions and 
resulted in 38 peer-reviewed papers published in academic journals.
---------------------------------------------------------------------------
    \1\ Etminan, M., et al. (2016). Radiative forcing of carbon 
dioxide, methane, and nitrous oxide: A significant revision of the 
methane radiative forcing. Geophysical Research Letters, 43(24).
    \2\ Howarth, R.W., Santoro, R., and Ingraffea, A. (2011). Methane 
and the greenhouse-gas footprint of natural gas from shale formations. 
Climatic Change, 106(4), 679.
    \3\ Alvarez, R.A., et al. (2012). Greater focus needed on methane 
leakage from natural gas infrastructure. Proceedings of the National 
Academy of Sciences, 109(17), 6435-6440.
---------------------------------------------------------------------------
    Today I will highlight a few major findings from EDF sponsored 
studies and other recent research on O&G methane emissions. Additional 
information on the EDF studies including links to the published papers 
can be found on our website.\4\
---------------------------------------------------------------------------
    \4\ https://www.edf.org/climate/methane-research-series-16-studies.
---------------------------------------------------------------------------
            what is the magnitude of o&g methane emissions?
    The current best estimate of U.S. O&G supply chain methane 
emissions is from Alvarez et al (2018), a peer-reviewed manuscript 
published in the journal Science by 24 co-authors including myself from 
EDF and 15 other organizations. This paper, which synthesizes data from 
EDF sponsored and other studies, estimates that 2015 U.S. O&G methane 
emissions were 13 million metric tons.\5\ Emissions occur across the 
entire supply chain from the wellhead to customer meter, but are 
dominated by upstream sources like well pads and gathering stations, 
which account for about 80 percent of sector wide emissions. In 
context, 13 million tons is 60 percent higher than the official 
estimate published by the U.S. Environmental Protection Agency in their 
annual greenhouse gas inventory.\6\ These emissions are equivalent to 
2.3 percent of gross natural gas production and about $2 billion in 
wasted product.<SUP>5</SUP> At this loss rate, methane emitted across 
the O&G supply chain almost doubles the short-term global warming of 
using natural gas for energy.<SUP>5</SUP> Or to express this finding in 
another way, the climate impact of natural gas could be cut in half by 
eliminating methane emissions.
---------------------------------------------------------------------------
    \5\ Alvarez, R.A., et al. (2018). Assessment of methane emissions 
from the U.S. oil and gas supply chain. Science, 361(6398), 186-188.
    \6\ https://www.epa.gov/ghgemissions/inventory-us-greenhouse-gas-
emissions-and-sinks.
---------------------------------------------------------------------------
    In New Mexico, at least 1 million tons of methane are emitted from 
upstream O&G sites--this conservatively low estimate was recently 
published by EDF and based on data from Alvarez et al (2018) and new 
measurements from Permian well pads.\7\ These emissions have the same 
short-term climate impact as 22 coal-fired power plants and could meet 
the annual heating and cooking needs of every home in New Mexico. EDF 
estimates the state is wasting $275 million worth of natural gas and 
losing out on an additional $43 million in tax and royalty revenue 
every year due to methane waste. And about 300,000 tons of volatile 
organic compounds (VOC) is co-emitted with methane, which can include 
hazardous air pollutants with local health effects. The highest 
emissions are found in the southeast of the state where the Permian oil 
boom has led to a massive increase in O&G development and flaring, but 
emissions remain high in the San Juan Basin where tribal communities 
are at risk from local air pollution.
---------------------------------------------------------------------------
    \7\ https://www.edf.org/energy/explore-new-mexicos-oil-and-gas-
pollution.
---------------------------------------------------------------------------
       what insights have we learned about o&g methane emissions?
    During our research, we have learned three key insights with major 
implications for the quantification and mitigation of emissions: (1) 
O&G emissions are highly skewed with a relatively small number of sites 
contributing the majority of emissions; (2) traditional approaches tend 
to underestimate emissions; and (3) almost all emissions are can be 
reduced with cost-effective solutions.
    In all studies of methane emissions from O&G facilities and 
equipment, a consistent finding has been that individual emission rates 
are highly skewed. This means that most sites or components have 
relatively low emissions, but there are some very high emitting sources 
that are responsible for a substantial portion of total emissions. A 
general rule is that the top 5-10 percent highest sources account for 
the majority of emissions in a category.\8\<SUP>,</SUP>\9\ The identity 
of these high emitters is unpredictable--as demonstrated by a study I 
led that surveyed over 8,000 well pads across the United States with 
aerial leak detection.\10\ And since high emissions can be caused by 
intermittent issues, different sites may be the worst offenders at any 
one time. This has important implications for both measuring and 
mitigating emissions, as I will expand upon in my following points.
---------------------------------------------------------------------------
    \8\ Brandt, A.R., Heath, G.A., and Cooley, D. (2016). Methane leaks 
from natural gas systems follow extreme distributions. Environmental 
Science & Technology, 50(22), 12512-12520.
    \9\ Omara, M., et al. (2018). Methane emissions from natural gas 
production sites in the United States: Data synthesis and national 
estimate. Environmental Science & Technology, 52(21), 12915-12925.
    \10\ Lyon, D.R., et al. (2016). Aerial surveys of elevated 
hydrocarbon emissions from oil and gas production sites. Environmental 
Science & Technology, 50(9), 4877-4886.
---------------------------------------------------------------------------
    Traditionally, EPA and other groups have estimated O&G methane 
emissions with inventory approaches such as emission factors and 
engineering equations that rely primarily on assumptions rather than 
measurements. For example, an operator would estimate emissions from 
pneumatic pumps by multiplying their number of pumps by an emission 
factor that represents the average emission rate of their pumps. 
Emission factors typically are based on limited measurements collected 
at the component-level, such as by directly measuring the methane 
emitted from a leaky valve. Unfortunately, numerous studies have 
discovered that these traditional approaches tend to underestimate 
emissions, sometimes dramatically. Many of the challenges are due to 
skewed emission rates, such as not sampling enough sites to include the 
highest emitting sources, or being unable to accurately quantify very 
large emissions with component-level measurements. In contrast, newer 
approaches estimate emissions from empirical data based on measurements 
collected at larger spatial scales such as by site or basin. One 
example is an EPA-developed approach that parks a vehicle downwind of a 
site to calculate total, site-level emissions from the concentration 
and wind data.\11\<SUP>,</SUP>\12\ Another example is flying an 
aircraft upwind and downwind of an area to calculate regional emissions 
with the mass balance approach.\13\ Compared to traditional approaches, 
these empirical methods are more accurate for estimating total 
emissions since they can better account for high emitting sources. 
Therefore, Alvarez et al (2018) estimated national emissions based 
primarily on site-level measurement data from over 400 well pads in 6 
basins; these estimates were validated by comparing to independent, 
aircraft-based, regional emission estimates from 9 basins. I want to 
clarify that traditional approaches including component-level 
measurements remain valuable because they provide data about which 
types of equipment are responsible for emissions, but relying on these 
approaches to estimate total emissions causes EPA and others to 
underestimate the magnitude of the problem.
---------------------------------------------------------------------------
    \11\ https://cfpub.epa.gov/si/
si_public_record_report.cfm?Lab=NRMRL&dirEntryId=309632.
    \12\ Robertson, A.M., et al. (2017). Variation in methane emission 
rates from well pads in four oil and gas basins with contrasting 
production volumes and compositions. Environmental Science & 
Technology, 51(15), 8832-8840.
    \13\ Karion, A., et al. (2015). Aircraft-based estimate of total 
methane emissions from the Barnett Shale region. Environmental Science 
& Technology, 49(13), 8124-8131.
---------------------------------------------------------------------------
    The third common finding in O&G methane research is that almost all 
emissions are avoidable. Skewed emission rates not only means that a 
relatively small number of sites have very high emissions, but also 
that most sites have low emissions. This is critical because it 
indicates that low emissions are the normal state while high emissions 
are anomalous. There are several cost-effective options for mitigating 
emissions depending on their source and cause.\14\ One option is 
replacing equipment that vents intentionally, such as pneumatic 
controllers, with low-bleed or zero-bleed alternatives. Frequent 
inspection is key for large, unintentional sources so they can be 
rapidly detected and repaired. In many cases, emissions are caused by a 
simple issue that can be fixed immediately, such as a tightening a 
leaky valve. Other sources may require more extensive operational or 
engineering changes to minimize their chance of recurrence, but in many 
cases these actions will be cost-effective and result in greater 
operational efficiency in addition to lower emissions. For example, a 
controlled oil storage tank that is repeatedly leaking out its hatch 
may have an undersized vapor recovery unit (VRU); upgrading the VRU 
would reduce emissions and capture more gas to market.\15\ Through a 
combination of regular inspection and root cause analysis, operators 
can identify the highest emitting sources, determine the underlying 
issues responsible for emissions, and make the changes necessary to 
bring all their sites to a normal, low emissions state.
---------------------------------------------------------------------------
    \14\ https://www.edf.org/icf-methane-cost-curve-report.
    \15\ https://www.epa.gov/sites/production/files/2015-09/documents/
oilgascompliancealert.pdf.
---------------------------------------------------------------------------
            how can we reduce oil and gas methane emissions?
    Our scientific understanding of O&G methane emissions has advanced 
greatly in the last decade. We now know that total emissions are even 
higher than previously thought but many sites operate with low 
emissions. While there have been important strides made to reduce 
emissions in the United States including Federal and state regulations, 
technological advancements, and corporate commitments, much work 
remains to both achieve further reductions and validate that reported 
reductions accurately reflect an actual decrease in emissions.
    At the Federal level, the United States had begun to make important 
steps regulating methane emissions and the waste of natural gas during 
the Obama administration, including the promulgation of a Bureau of 
Land Management Waste Prevention Rule for all O&G sources on Federal 
and tribal lands and an EPA New Source Performance Standard for new and 
modified O&G sources nationwide. These rules had many important 
requirements that could greatly reduce emissions of methane and VOCs 
and waste of natural gas at regulated sites, such as semi-annual leak 
detection at well pads. Unfortunately, the Trump administration has 
decided to ignore the science and is working to weaken and repeal these 
rules. In a misguided attempt to place the short-term interests of a 
few O&G companies ahead of public health and environmental protection, 
the Administration is harming the country and ultimately the O&G 
industry by failing to incentivize cost-effective solutions that will 
reduce environmental impact, improve operational efficiency, and drive 
further technological advancement. Although some leading O&G companies 
are voluntarily performing these actions, many are not, and therefore 
regulations are critical for moving the entire industry to implement 
solutions.
    I urge the Committee members to push back against the Trump 
administration's flawed legal and scientific rationale for weakening 
and repealing Federal O&G regulations for natural gas waste and 
emissions of methane and other air pollutants, particularly for Federal 
and tribal lands.
    Meanwhile, state, local, and tribal governments can serve as 
important allies for reducing emissions as several governments such as 
Colorado and New Mexico have implemented or are in the early stages of 
developing strong O&G regulations. As Colorado has shown since it 
became the first state in the Nation to directly regulate methane 
emissions in 2014, strong state rules can have dramatic positive 
impacts on reducing methane emissions and waste from the O&G industry.
    New Mexico and the Navajo Nation both have opportunities to develop 
and implement strong rules that will protect their citizens from air 
pollution and wasted energy resources. These regulations can and should 
require a comprehensive set of nationally leading controls that will 
greatly reduce this emission and waste problem, including requirements 
like frequent leak inspections, lower emitting equipment, reduced 
flaring, and pathways that allow for further technological development.
    I will highlight two key components of effective regulations: (1) 
frequent leak detection and repair, and (2) an alternative compliance 
pathway for incorporating new technologies and work practices.
    Frequent leak detection is critical for reducing emissions since a 
relatively small number of sources are responsible for the majority of 
emissions at any one time. Rapidly detecting and fixing the highest 
emitting sources can substantially reduce total emissions; conversely, 
failing to mitigate these sources means that total emissions can remain 
high even after implementing other solutions. The original New Source 
Performance Standard required semi-annual leak detection at well pads 
with optical gas imaging cameras. The proposed NSPS reconsideration 
would reduce the inspection frequency, but the science supports moving 
in the opposite direction of more frequent inspections--at least 
quarterly--such as is already required in parts of Wyoming and for 
certain sources in Colorado. And surveys can involve more than just 
looking for leaks--ideally, operators would perform a comprehensive 
site assessment that searches for both ongoing emissions and issues 
such as malfunctioning equipment or poor site design that could later 
trigger anomalous emissions.
    As a consequence of both scientific advances in measuring O&G 
methane emissions and greater attention on the issue, there has been a 
concurrent expansion in applied technologies and methods for detecting, 
quantifying, and mitigating emissions. These innovative approaches 
include continuous stationary monitors and mobile sensors mounted on 
vehicles, drones, aircraft, and satellites for detecting emissions. 
Compared to optical gas imaging, these new methods tend to be lower 
cost, but with higher detection limits that only find the biggest 
sources. However, since the largest emitters are responsible for the 
majority of emissions, an approach that frequently detects and 
mitigates these sources can achieve equivalent or better emission 
reductions than infrequent detection of all sources. To facilitate 
continuous improvement and more cost-effective mitigation, regulations 
should include a performance-based pathway that allows O&G operators 
and technology developers to implement alternative technologies and 
work practices that achieve at least the same magnitude of total 
emission reductions as the default regulatory approach. The EPA New 
Source Performance Standard pathway for approving alternatives to 
optical gas imaging is a first step, but major improvements are needed 
to develop a clear, expedient, and scientifically-rigorous process. 
Critically, equivalency determinations should be based on a 
transparent, objective process that uses a combination of controlled 
testing and modeling to estimate emission reductions from 
implementation of a technology and work practice across a population of 
sites. EDF and Environmental Council of the States recently published a 
report summarizing our recommendations for an alternative compliance 
pathway.\16\
---------------------------------------------------------------------------
    \16\ https://www.edf.org/sites/default/files/documents/
EDFAlternativeComplianceReport_0.pdf.
---------------------------------------------------------------------------
                               conclusion
    In summary, we have greatly increased our understanding of O&G 
methane emissions since EDF and others started research on this issue 
less than a decade ago. Methane emissions from the U.S. O&G supply 
chain are 13 million metric tons, 60 percent higher than EPA estimates, 
and these emissions almost double the short-term climate impact of 
burning natural gas for energy. In New Mexico, upstream O&G sites emit 
at least 1 million tons methane, enough waste to meet the natural gas 
needs of every home in the state. Research has shown that emissions are 
highly skewed with a relatively small number of sites contributing the 
majority of emissions at any one time, which means traditional methods 
tend to underestimate emissions, but also that low emissions are 
readily achievable. Strong regulations that are based on science and 
include frequent leak detection and a pathway for innovative approaches 
are critical for reducing emissions. Everyone wins by reducing methane 
emissions: the planet experiences less warming, communities are exposed 
to less pollution, and O&G companies improve their efficiency and 
reduce waste of a valuable product. As both a scientist and concerned 
citizen, I am hopeful that these mutualistic solutions will be adopted 
widely as knowledge of their benefits spread. Thank you for the 
opportunity to speak on this important issue.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Dr. Lyon.
    The Chair now recognizes Mr. Jimenez.

  STATEMENT OF JAMES JIMENEZ, EXECUTIVE DIRECTOR, NEW MEXICO 
          VOICES FOR CHILDREN, ALBUQUERQUE, NEW MEXICO

    Mr. Jimenez. Thank you very much, Mr. Chairman.
    At Voices for Children, we are a non-partisan, state-wide 
child advocacy organization working to create systems-level 
sustainable change to improve the lives of New Mexico's 
children. We do this by promoting public policies through 
credible research and effective advocacy.
    Despite the many policy victories we have helped win on 
behalf of New Mexico's children and their families, such as the 
establishment of a state-level Earned Income Tax Credit, the 
expansion of Medicaid, and a more than 240 percent increase in 
funding for early childhood programs, New Mexico continues to 
face many challenges. Our overall poverty rate ranks among the 
highest in the Nation, and we have the highest rate of child 
poverty. These statistics extend to workers as well, evidenced 
by our ranking as one of the worst in the Nation in poverty 
among the employed, among people who work full-time year-round, 
and among people who have a bachelor's degree or higher.
    The 2008 recession hit New Mexico particularly hard, and 
our recovery has been sluggish. We are just now emerging from a 
decade of no job growth and budget austerity. In fact, the 
budget passed by the legislature and signed by Governor 
Martinez back in 2018 was $800 million lower than it was for 
Fiscal Year 2009, when adjusted for inflation. Over the last 10 
years, we have cut K-12 education by 14 percent on a per-
student, inflation-adjusted basis. Our under-funding of 
education has been so bad that a lawsuit was mounted against 
the state for failing to provide a sufficient education as 
required by the state constitution. The state lost that 
lawsuit.
    Still, New Mexico remains the Land of Enchantment, as you 
have heard today, in many respects. We have a diverse 
population, and we celebrate a rich history and unique cultural 
traditions. We are a beautiful state that is blessed with 
abundant natural resources. Crude oil and natural gas are two 
of those resources. The oil industry, as you know, is currently 
experiencing a boom, which has been very good for the state 
budget, allowing us to reverse some of the spending cuts of the 
past decade. But this boom also brings real impacts to our 
communities, such as good-paying jobs, the wages of which help 
support rural communities where these employees work and live. 
But extraction also has some drawbacks, about which you have 
heard plenty this morning.
    From our perspective, though, as advocates for children's 
health and as advocates for access to high-quality education, 
the issue of limiting methane waste and pollution from oil and 
natural gas development is a very important one.
    Our state is wasting far too much of our natural gas 
resources, and that means we are also wasting a vital chance to 
create opportunities for our children. As you have heard, a 
recently released analysis shows that New Mexico's oil and gas 
industry is wasting a million metric tons of methane every 
year, and as you have heard, that is more than enough natural 
gas to meet the annual heating and cooking needs of every home 
in New Mexico.
    Put another way, this wasted methane means New Mexico is 
losing up to $275 million worth of natural gas every year, 
which is costing the state's taxpayers up to $43 million in 
lost tax and royalty revenues. If we captured the $43 million 
in foregone tax and royalty revenue, it would be enough funding 
to allow the state to increase pre-kindergarten enrollment by 
80 percent and enroll an additional 7,300 kids in vital early 
education programs.
    There is also a great irony in the wasting of methane in 
New Mexico. At statehood in 1912, Congress established a Land 
Grant Permanent Fund to ensure that the benefits from the use 
of the resources on state lands would be multi-generational, 
and in 1973 our state legislature created the Severance Tax 
Permanent Fund to once again ensure that the economic benefits 
of oil and natural gas extraction would not be lost for future 
generations once those resources were depleted. The venting and 
flaring of methane is the antithesis of our historic policy of 
ensuring that the public's resources are not wasted.
    As a state with systemic poverty and an under-funded 
education system, New Mexico has no funding to waste. We need 
to harness every dollar we can to improve our education system 
and get New Mexico's children the educational tools and 
opportunities they need to succeed.
    Thank you very much.

    [The prepared statement of Mr. Jimenez follows:]
  Prepared Statement of James Jimenez, Executive Director, New Mexico 
                          Voices for Children
    Thank you for having me here today and for traveling to New Mexico 
to learn about this important issue.
    My name is James Jimenez and I am Executive Director of New Mexico 
Voices for Children, based in Albuquerque. We believe that flaring, 
venting and leaks of methane from natural gas and oil wells poses two 
significant problems for New Mexico: One is the loss of much-needed 
revenue and the other is the broad and negative health implications for 
our residents. Our group was founded in 1987 by three pediatricians who 
sought a way to change the root causes of poor child well-being in New 
Mexico--causes like poverty, inadequate nutrition, violence, pollution, 
and homelessness--in other words, the social determinants of health. 
The doctors knew that such entrenched problems can only be solved by 
changing the systems that have perpetuated them--and that means 
changing public policy.
    Thirty-plus years later, New Mexico Voices for Children, a non-
partisan, statewide advocacy organization, still works to create 
systems-level sustainable change to improve the lives of New Mexico's 
children and--by extension--the quality of life for everyone. Our 
mission is to improve the status, well-being, and racial and ethnic 
equity of New Mexico's children, families, and communities in the areas 
of health, education, and economic security by promoting public 
policies through credible research and effective advocacy.
    Despite the many policy victories we have helped win on behalf of 
New Mexico's children and their families--such as the establishment of 
a state-level Earned Income Tax Credit, the expansion of Medicaid, 
which led to the enrollment of 40,000 children, and a more than 240 
percent increase in funding for early childhood care and education 
services over several years--New Mexico continues to face many 
challenges. Our overall poverty rate (20 percent) ranks among the 
highest in the Nation and we have the highest rate of child poverty (30 
percent). These statistics extend to workers as well, evidenced by our 
ranking as one of the worst in the Nation in poverty among the 
employed, among people who work full-time year-round, and among people 
who have a bachelor's degree or higher. New Mexico also has one of the 
highest percentages in the Nation of workers in low-wage jobs, so it is 
not surprising that we also have the highest percentage (17 percent) of 
families working but still living below the poverty line, and the 
highest percentage (42 percent) of families that, despite working, 
remain low-income (below 200 percent of the Federal poverty level).
    The recession hit New Mexico hard and our recovery has been 
sluggish. We are just now emerging from a decade of no job growth and 
budget austerity. The budget passed by the legislature and signed by 
Governor Martinez in 2018 was $800 million lower than it was in FY 2009 
when adjusted for inflation. We've cut education funding from 
kindergarten through college, and the once-affordable tuition at our 4-
year universities has been increased by more than 30 percent. We are 
experiencing a ``brain drain'' as our youth are forced to relocate out-
of-state in order to find jobs that pay family sustaining wages.
    Over the last 10 years, New Mexico has cut K-12 education by 14 
percent on a per-student, inflation-adjusted basis. The budget cuts 
were so bad that a lawsuit was mounted against the state for failing to 
provide a sufficient education, as required by the state constitution. 
Shortly after the state lost that lawsuit, it was hit with more 
lawsuits. These suits claim that the Children, Youth and Families 
Department, our child protective services agency, has failed to protect 
children who were in its custody for their own safety from suffering 
further harm. Simply put, we've been trying to run our state on the 
cheap. And no one has suffered for it more than our children.
    The culmination of this decade of austerity policy has been that 
last year, for the second time in the past 5 years, New Mexico fell to 
dead last in the Nation for child well-being, as ranked by the Annie E. 
Casey Foundation's KIDS COUNT program.\1\
---------------------------------------------------------------------------
    \1\ https://www.nmvoices.org/archives/12369.
---------------------------------------------------------------------------
    Still, New Mexico remains the ``Land of Enchantment'' in many 
respects. We have a diverse population and we celebrate a rich history 
and our cultural traditions. We are home to two of America's national 
labs where we design everything from nuclear weapons to Mars rovers. 
Our spaceport will soon host flights taking space tourists beyond the 
edge of our Earth's atmosphere. And we are a beautiful state that is 
blessed with abundant natural resources. Crude oil and natural gas are 
two of those resources. The oil industry currently experiencing a boom 
as high prices persist for oil, and while that has been very good for 
the state budget--allowing us to reverse some of the spending cuts--
this boom also brings real impacts to our communities as well. With 
that boom comes good-paying jobs, the wages of which support the rural 
communities where these employees work and live. The extraction 
industries, however, are not without their drawbacks.
    From our perspective as advocates for children's health and access 
to high-quality education, the issue of limiting methane waste and 
pollution from oil and natural gas development is a very important one 
for New Mexico.
    Our state is wasting far too much of our natural gas resources, and 
that means we are also wasting a vital chance to create opportunities 
for our kids. A recently released analysis of the latest methane 
research and state emissions inventories reveals that New Mexico's oil 
and gas industry is wasting 1 million tons of methane every year--more 
than enough natural gas to meet the annual heating and cooking needs of 
every home in New Mexico.\2\
---------------------------------------------------------------------------
    \2\ https://www.edf.org/nm-oil-gas/.
---------------------------------------------------------------------------
    Put another way, because this methane is the primary component of 
natural gas that is one of our state's important sources of revenue, 
this wasted methane means New Mexico is losing up to $275 million worth 
of natural gas every year. And these wasteful practices are costing the 
state's taxpayers up to $43 million in tax and royalty revenues.\3\ In 
comparison to the Federal budget, that may not seem like much money, 
but in a state with an operating budget of just $7 billion, it is 
significant.
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    As a state with systemic poverty and an underfunded education 
system, New Mexico has no funding to waste right now. We need to 
harness every dollar we can to improve our education system and give 
New Mexico's kids the educational tools and opportunities every child 
needs to succeed.
    Capturing methane waste is not a panacea, but this funding can 
certainly help us dig out of this hole and create the public education 
system our kids deserve and our economy requires. Capturing methane 
waste and putting these funds to work in our education system can have 
dramatic impacts. To give one example, if we captured the $43 million 
in forgone tax and royalty revenue from methane waste I mentioned 
earlier, this would be enough funding to allow the state to increase NM 
Pre-K enrollment by 80 percent and enroll an additional 7,300 kids in 
vital early education programs.\4\
---------------------------------------------------------------------------
    \4\ https://www.nmlegis.gov/Entity/LFC/Documents/
Program_Evaluation_Reports/Final%202017 
%20Accountability%20Report%20Early%20Childhood.pdf.
---------------------------------------------------------------------------
    There is also a great irony from the wasting of methane in New 
Mexico. At statehood in 1912 we established a Land Grant Permanent Fund 
to ensure that the benefits from the economic use of resources on state 
lands would be multi-generational and then in 1973 we created the 
Severance Tax Permanent Fund to once again ensure that the economic 
benefits of oil and natural gas extraction would not be lost for future 
generations once the resource was depleted. The venting and flaring of 
methane is the antithesis of our historic policy of ensuring that the 
public's resources are not wasted.
    We can only build a stronger New Mexico if we are willing to make 
the investments and this means finding ways to raise new sustainable 
revenue--including by requiring oil and gas producers to take sensible, 
cost-effective measures to capture methane waste.
    We were hopeful that the Federal Government would act to address 
this issue. In 2016 under President Obama both the Bureau of Land 
Management and Environmental Protection Agency finalized rules that 
would have led to dramatic reductions in this pollution and waste 
problem.
    Unfortunately, the Trump administration has moved to repeal and 
weaken these requirements. This is especially galling when you consider 
that the BLM's own analysis shows that this rule repeal will result in 
a significant drop in natural gas production on public lands--as much 
as 299 billion cubic feet of natural gas--enough energy to heat nearly 
500,000 homes each year for the next 10 years. The BLM also found that 
the rollback would cost Americans more than $1 billion in wasted 
natural gas and pollution.
    The environmental rollbacks we are experiencing under the Trump 
administration are the wrong policy choice for New Mexico. As we are 
experiencing a huge boom in oil and gas development in southeastern New 
Mexico's Permian Basin, without strong methane waste measures in place, 
every new well drilled is another hole in our revenue bucket, not to 
mention a new source of harmful pollution.
    When this methane is released into the air, so too are harmful 
pollutants that have significant public health consequences. This 
includes toxic chemicals like benzene, which are linked to cancer, and 
other smog-forming pollutants that can trigger asthma and worsen 
emphysema especially in kids.\5\
---------------------------------------------------------------------------
    \5\ http://oilandgasthreatmap.com/ozone-smog/.
---------------------------------------------------------------------------
    In 2014, NASA scientists discovered a methane hotspot hovering over 
New Mexico, the most concentrated plume of this pollution anywhere in 
the United States--and about the size of Delaware.\6\ Subsequent 
studies have found that leaking oil and gas wells and infrastructure 
are largely to blame. State and Federal action is needed to address the 
hotspot and cut natural gas waste in our state.
---------------------------------------------------------------------------
    \6\ https://www.jpl.nasa.gov/news/news.php?feature=4331.
---------------------------------------------------------------------------
    Oil and gas are an important part of the state's economy, but 
unfortunately the state isn't realizing the full potential of this 
resource when methane gas is burned off or leaked into the atmosphere 
and wasted. Oil and gas, like all extractive industries, are subject to 
booms and busts. Today's boom in New Mexico's Permian Basin will 
inevitably cool with the next shift in commodity prices. That is why it 
is so crucial that we find ways to diversify our economy and revenue 
streams to end this over-reliance on oil and gas and take immediate 
action to capture all the revenue we can now, while the boom lasts. 
Once wasted, this natural gas and its associated revenue are gone 
forever. This is a once-in-a-generation opportunity to capture that 
waste and invest those dollars in education, so when the eventual bust 
does come New Mexico has a stronger, more diverse, and resilient 
economy.
    We have the technologies to cost-effectively capture this methane 
waste. And if we deploy these technologies, as other states have done, 
it will help fund needed state programs like education and create jobs 
here in New Mexico.
    Sensible rules that require regular inspections can help prevent 
accidents and cut pollution. Our neighbors in states like Colorado and 
Wyoming have put these requirements in place.\7\ New Mexicans deserve 
the same protections.
---------------------------------------------------------------------------
    \7\ http://www.santafenewmexican.com/news/local_news/neighboring-
states-a-world-apart-on-methane-regulations/article_7ed78010-26f2-5d65-
a80b-45112785bbbc.html.
---------------------------------------------------------------------------
    With a brand-new governor, this is the perfect time to change our 
course--to turn from austerity onto a road to opportunity. That is why 
New Mexico Voices for Children firmly supports the efforts that have 
begun under Governor Lujan Grisham to develop strong, comprehensive, 
statewide rules to cut methane waste and pollution.
    Methane waste rules are a critical component of a comprehensive 
strategy to dig New Mexico out of its economic slump and create the 
educational and job opportunities our state and our kids need.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Mr. Jimenez.
    The Chair now recognizes Mr. O'Neill for 5 minutes.

    STATEMENT OF CRAIG O'NEILL, GLOBAL BUSINESS DEVELOPMENT 
           MANAGER, FLIR SYSTEMS, ARLINGTON, VIRGINIA

    Mr. O'Neill. Chairman Lowenthal, Chairman Grijalva, and 
members of the Committee, thank you for the opportunity to 
speak on behalf of FLIR Systems regarding impacts on air 
pollution and sacred sites with oil and gas developments. FLIR 
Systems is a technology provider of innovative sensing 
solutions, providing the world with a sixth sense, helping 
people around the globe save lives, protect the environment, 
and enhance productivity. We are building more than innovative 
technologies; we are striving to build a more sustainable, more 
efficient, and safer future.
    Almost 14 years ago, FLIR saw a need in the oil and gas 
industry to provide a better technology to detect, identify, 
and locate fugitive emission sources. With the launch of the 
GasFindIR camera in 2005, FLIR made the idea of visualizing gas 
emissions a reality. It sounds like a few of you today were 
able to experience that yesterday.
    Historically, detecting fugitive emissions was a time-
consuming, tedious, and unsafe practice, having to physically 
touch a component to determine if it was leaking and the leak 
origination. That meant that you had to know exactly where to 
go to look for the fault and to potentially put the operator of 
equipment inside of an unsafe environment. With optical gas 
imaging from FLIR, a user can stand a safe distance away from a 
component and inspect it for potential fugitive emission leaks, 
precisely pinpoint the location of a leak, and repair it.
    Our technology has been embraced and approved by industry 
and governments. Federal regulatory entities like the EPA have 
designated optical gas imaging as the best system of emission 
reductions in their standards, and some state agencies include 
optical gas imaging as a focal point to their regulations, like 
Colorado's Reg. 7. We want to congratulate Governor Grisham on 
addressing methane emissions at a state level and know that her 
leadership will be felt throughout New Mexico and well beyond.
    Many of the operators have embraced optical gas imaging not 
only for regulatory compliance but have also shown the 
financial benefit of this technology. As an example, an 
operator in Wyoming utilized optical gas imaging for 6 years 
and estimated a cumulative gas savings of over $5 million in 
that span, which more than covered the overall cost of the 
program.
    There is also a financial advantage for the public in the 
utilization of optical gas imaging as a loss of product through 
emissions means a loss of taxable revenue by the operator.
    Today, we are proud to lead the technology revolution in 
protecting our environment by reducing emissions. Earlier this 
year, we introduced two revolutionary products to the market to 
further the technological impact of optical gas imaging in the 
industry. The state-of-the-art, high-definition GS620 camera 
includes unique features like quantification mode that enables 
users to better understand the severity of the problem and the 
impact on our environment.
    FLIR's new GS-77 camera is a ground-breaking low-cost, 
hand-held product that offers cost-sensitive users a solution 
to reducing methane emissions with optical gas imaging. This 
camera is a valuable tool to increase safe practice, and it 
will empower operators to be better environmental stewards. 
With these new solutions we are advancing the technology to 
reduce methane emissions to new levels.
    Moving into the future, FLIR will continue our innovative 
forward thinking as we work to deepen our impact in this 
industry and, in turn, our world. From organically developed 
solutions in technology advancements through partnerships in 
the industry, we are excited about the future of optical gas 
imaging and our positive impact to save lives and livelihoods.
    Thank you again for this opportunity.

    [The prepared statement of Mr. O'Neill follows:]
 Prepared Statement of Craig O'Neill, Sr. Business Development Manager 
                  for Optical Gas Imaging FLIR Systems
    Subcommittee Chairman Lowenthal, Ranking Member Gosar, and members 
of the Committee, thank you for the opportunity to speak on behalf of 
FLIR Systems regarding impacts on air pollution and sacred sites with 
oil and gas developments. As a member of the Center for Methane 
Emission Solutions (CMES), we work with numerous entities to provide a 
voice for business that offer innovative solutions for methane 
mitigation. FLIR Systems designs, develops, manufactures, markets, and 
distributes technologies that enhance perception and awareness. We 
bring innovative sensing solutions into daily life that provide the 
world with a sixth sense, helping people around the globe save lives, 
protect the environment, and enhance productivity. We're building more 
than innovative technologies; we're striving to build a more 
sustainable, more efficient, safer future.
                              introduction
    With over 50 years of experience providing sensing solutions to a 
variety of industries, FLIR Systems has proven itself as the leader in 
the Infrared (IR) market and beyond. We began our journey introducing 
the first commercial infrared scanner to the market for electrical 
powerline inspections in 1965. In the many years to come FLIR has 
revolutionized the industry with a variety of products related to 
infrared like the first portable IR scanner, first dual wavelength 
system and the first uncooled infrared cameras, to name a few.
    Infrared thermal imaging cameras have been used for decades in a 
variety of oil and gas applications, including electrical/mechanical 
inspections, tank level inspections, and even examinations of pipe 
integrity within process equipment. Almost 14 years ago on June 8, 
2005, FLIR entered the emissions reduction industry introducing the 
first commercially available Optical Gas Imaging (OGI) camera, the 
GasFindIR.\1\ This product was the first commercially available 
infrared camera capable of detecting volatile organic compound (VOC) 
gas emissions. Sources of VOCs at that time included petrochemical 
facilities, natural gas pipelines, transfer stations, tankers, railway 
cars and even landfills emitting methane gas and other toxic chemicals 
into the environment. Through the years this technology has been 
utilized by industry to proactively mitigate emissions throughout a 
variety of applications including meeting emission reduction 
requirements, ensuing safe work practices and complying with regulatory 
requirements. OGI cameras offer a safe and efficient way of visualizing 
hydrocarbon emissions in a timely manner as you can quickly check a 
large number of components.
---------------------------------------------------------------------------
    \1\ FLIR GasFindIR Launch Announcement, http://investors.flir.com/
news-releases/news-release-details/flir-systems-introduces-new-
infrared-camera-detection-volatile.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    On April 17, 2018, FLIR received the Inaugural Leadership & 
Innovation Award at the Oil and Gas Methane Leadership Awards in 
Toronto.\2\ This award ceremony, sponsored by The Pembina Institute, 
Environmental Defense Fund and others, honored actions to reduce 
methane emissions from the oil and gas sector.
---------------------------------------------------------------------------
    \2\ Oil & Gas Methane Leadership Awards, https://www.pembina.org/
media-release/global-methane-reduction-leaders-honoured-canada.
---------------------------------------------------------------------------
                  technologies for reducing emissions
    The U.S. natural gas industry as a whole emitted 162.4 million 
metric tons CO<INF>2</INF> equivalent of methane in 2015.\3\ In 
addition to regulatory compliance issues, this equates to lost product 
for operators. The industry is faced with how to best find and repair 
natural gas leaks at potential escape points, including compressor 
stations, processing plants, hydraulically fractured wells, and along 
transportation lines.
---------------------------------------------------------------------------
    \3\ Inventory of U.S. Greenhouse Gas Emissions and Sinks, https://
www.epa.gov/sites/production/files/2018-01/documents/
2018_complete_report.pdf, retrieved 6/14/18, pg 191 (Energy 3-77).
---------------------------------------------------------------------------
    Before the development of OGI cameras, most oil and gas facilities 
used a toxic vapor analyzer (TVA), otherwise known as a ``sniffer,'' to 
analyze gas concentration levels and quantify gas emitted to the 
atmosphere. TVAs are reliable, relatively low cost, and can identify 
most gases. The disadvantage compared to an OGI camera is that the 
operator must know exactly where to go to look for the fault--and 
physically touch it. Often you must point the TVA exactly where the 
leak is originating to find it whereas with an OGI camera you can 
easily identify the leak location and source quickly. On one study, OGI 
was found to be considerably (up to nine times) faster than a 
sniffer.\4\
---------------------------------------------------------------------------
    \4\ City of Fort Worth Natural Gas Air Quality Study, http://
fortworthtexas.gov/uploadedFiles/Gas_Wells/AirQualityStudy_final.pdf.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Optical gas imaging also offers several safety advantages over 
a traditional TVA. It enables remote detection of a gas that could 
potentially explode or cause health issues to those breathing in the 
gas. OGI cameras enable operators to remain at a safe distance away 
during inspections. Rather than standing in a cloud of gas, they can 
remain on the ground, point to a spot 10 or 20 feet high, and determine 
if it is leaking gas into the atmosphere. Ron Lucier, an instructor at 
the Infrared Training Center in Nashua, NH, cites the importance of 
being able to check for gas plumes from a safe distance. ``Methane and 
other hydrocarbons are not only flammable, but in high concentrations 
they can cause asphyxiation,'' Lucier explains. ``With TVA gas 
`sniffers' you know the gas is there, but you don't know how much. OGI 
users can immediately see the size of the gas plume--something that's 
impossible to do with a gas sniffer.''
               regulatory history of optical gas imaging
    After the announcement of the GasFindIR, and this new technology, 
some regulatory agencies began researching the utilization of this 
advanced way of detecting emissions. On April 6, 2006, the United 
States Environmental Protection Agency (USEPA) proposed voluntary 
alternative work practice for leak detection and repair using a newly 
developed technology, optical gas imaging. This proposal was to allow 
for OGI cameras to be utilized in lieu of traditional Method 21 leak 
detection instruments, also known as Toxic Vapor Analyzers (TVAs) or 
sniffers. On December 22, 2008 the final action of this proposed 
alternative work practice was effective with the amendment of the rule 
to require an annual monitoring utilizing the current Method 21 leak 
detection equipment.\5\ The result of this allows operators to use OGI 
three times per year to better locate emissions in a more efficient and 
effective manner.
---------------------------------------------------------------------------
    \5\ Federal Register/Vol. 73, No. 246/Monday, December 22, 2008, 
https://www.govinfo.gov/content/pkg/FR-2008-12-22/pdf/FR-2008-12-
22.pdf.
---------------------------------------------------------------------------
    In 2015, the USEPA proposed amendments to the New Source 
Performance Standards (NSPS) at 40 CFR Part 60, Subpart OOOO and set 
out to establish new standards at 40 CFR Part 60, Subpart OOOOa in the 
Oil and Natural Gas Sector. These new emissions standards focus on new, 
reconstructed, and modified sources. On June 3, 2016 it was announced 
that the final rule of these new standards, commonly referred to as 
OOOOa or QuadOa, would be effective on August 3, 2016.\6\ Related to 
OGI, one unique determination by the EPA in OOOOa was the designation 
of Optical Gas Imaging as the best system of emissions reduction (BSER) 
for reducing emissions of greenhouse gases, specifically methane.
---------------------------------------------------------------------------
    \6\ Federal Register/Vol. 81, No. 107/Friday, June 3, 2016, https:/
/www.govinfo.gov/content/pkg/FR-2016-06-03/pdf/2016-11971.pdf.
---------------------------------------------------------------------------
    While the EPA has been on the forefront of emission reduction 
regulations and the acceptance of OGI as technology, other entities are 
adding their own standards. From city to state and even other Federal 
agencies, like the Environment and Climate Change Canada (ECCC), there 
are many entities accepting new technology as a primary way of reducing 
emissions.
         new ogi technology ideal for oil and gas applications
    Optical gas imaging has been in the market for less than 15 years 
making it a fairly new technology. In that time, there have been many 
advancements in the technology including those by FLIR. In February 
2019, FLIR added multiple solutions to the OGI portfolio further 
helping the industry detect, locate, and quantify fugitive emissions.
    One historical challenge with the technology has been the high cost 
to manufacture an optical gas imaging. FLIR recently launched the first 
uncooled, low cost methane detection camera to the market, the FLIR 
GF77. This imager has a price point less than half of the legacy OGI 
cameras with some additional benefits like a lower cost to manufacture 
and longer lasting design which could benefit those interested in 
continuous, 24/7 operation. Of course, with lower cost solutions comes 
some limitations. These include less sensitivity, feature restraints 
and fewer gases that can be visualized with the imager. One key 
restriction of this new technology is that the camera is not able to 
meet current EPA regulatory standards, like OOOOa.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Another newly released product from FLIR is the GF620 including 
our patented Q-Mode feature. This imager is four times the resolution 
of other OGI imagers in the market providing the best image possible 
for hydrocarbon emissions applications. It includes the newly released 
Q-Mode feature allowing a FLIR OGI camera to store files in the field 
that can be utilized with a QL320 quantification solution from 
Providence Photonics.\7\ The QL320 product allows users to effectively 
measure gas emissions with optical gas imaging up to five times more 
accurately than Method 21 technologies according to a European study 
performed by Concawe.\8\ The combination of the QL320 from Providence 
and Q-Mode from FLIR removes the need for the physical tablet in the 
field and makes quantifying gas leaks in explosive environments an 
option with FLIR GFx320.
---------------------------------------------------------------------------
    \7\ Providence Photonics QL320 Quantification Solution, https://
www.providencephotonics.com/leak-quantification.
    \8\ Concawe Report #2/17, An evaluation of an optical gas imaging 
system for the quantification of fugitive hydrocarbon emissions, 
https://www.concawe.eu/wp-content/uploads/2017/01/rpt_17-2.pdf.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

             industry use cases for optical gas imaging
    While optical gas imaging has been used by operators to comply with 
regulations, there are additional benefits. There are many examples of 
companies saving money and improving operator safety with OGI, often 
while also meeting regulations. One example is Wyoming-based Jonah 
Energy, which began using optical gas imaging technology in 2005 to 
find fugitive emissions at its production facilities.\9\ The company 
inspects 150 facilities every month and inspects the 1,700 wells within 
a 1-year period. Since 2010, Jonah has reduced fugitive emissions by 75 
percent. It also reduced repair time from 705 hours to 106, cut labor 
costs from $58,369 to $7,500, and dropped its gas losses from $348,000 
to $20,500. Emissions in tons went from 351 to 31. Jonah Energy says 
that their monthly Leak Detection and Repair (LDAR) program using OGI 
technology has been both effective and consistently profitable. Their 
cumulative gas savings exceeded $5 million in the past 6 years, which 
more than covered the overall program costs.
---------------------------------------------------------------------------
    \9\ Optical Gas Imaging Saves Money and Resources for Jonah Energy, 
http://www.flirmedia.com/MMC/THG/Brochures/OGI_014/OGI_014_US.pdf.
---------------------------------------------------------------------------
    Another example is ConocoPhillips, which performed an optical leak 
detection and measurement pilot study at 22 CPC facilities to test best 
management practices for fugitive emissions management. The study 
findings were used to evaluate the benefits of using OGI technology as 
part of fugitive emission management plan for the company's Canadian 
operations.\10\ The study identified 144 leaking components, which 
collectively amounted to about $358,000 in lost product. The lost 
product resulted in methane leaks contributing more than 21,000 tons 
per year of carbon dioxide equivalent (CO<INF>2</INF>e) to greenhouse 
gas (GHG) emissions. The study estimated that 92 percent of the sources 
could be repaired economically, resulting in net present savings of 
more than $2 million.
---------------------------------------------------------------------------
    \10\ T. Trefiak, ConocoPhillips, OGI Pilot Study: Leak Detection & 
Measurement, 2006, http://docplayer.net/17797465-Pilot-study-optical-
leak-detection-measurement-report-completed-by-terence-trefiak.html.
---------------------------------------------------------------------------
    Inspectahire, a leading international supplier of specialist remote 
visual inspection technology and solutions, relies on the FLIR GFx320 
optical gas imaging camera for both maintenance inspections and 
hydrocarbon leak detection in hydrocarbon production plants or for the 
inspection of any material that uses hydrocarbon as a fuel. They find 
the GFx320 camera can scan a broader area much more rapidly and monitor 
areas that are difficult to reach with contact measurement tools.\11\ 
``We have been using certain contact measurement tools like laser 
detectors or leak sniffers,'' says Inspectahire's Cailean Forrester. 
``But the problem is that you have to go right up to the object, which 
is not always safe or even possible. In other words, this approach is 
limited and not very precise. With an optical gas imaging camera like 
the GFx320 however, you can keep a safe distance and still detect gas 
leaks with great precision.''
---------------------------------------------------------------------------
    \11\ Inspectahire relies on the FLIR GFx320 OGI Camera for 
maintenance inspections and hydrocarbon leak detection http://
www.flirmedia.com/MMC/THG/Brochures/OGI_023/OGI_023_EN.pdf.
---------------------------------------------------------------------------
                               conclusion
    FLIR has led the technology revolution of optical gas imaging 
allowing the industry to reduce emissions for almost 15 years and with 
the recent market introductions is positioned to continue that 
leadership for years to come. With optical gas imaging you have a 
proven solution that is compliant to regulatory standards and more 
efficient than historical inspection methods. With our products, we are 
proud that our solutions empower this industry to proactively mitigate 
methane emissions and have a positive impact on the environment. 
Allowing users to detect, locate and quantify gas emissions ensures a 
safer work environment for operators and a better understanding of the 
challenges related to methane emissions our world currently faces.
    Moving into the future, FLIR will continue our innovative forward 
thinking as we work to deepen our impact on this industry and, in turn, 
our world. From organically developed solutions to technology 
advancements through partnerships in the industry, like our current 
collaborative efforts to provide immediate, in field quantification of 
Optical Gas Imaging, we are excited about the future of Optical Gas 
Imaging and our positive impact to save lives and livelihoods.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Mr. O'Neill.
    I want to thank all the panelists for your testimony this 
morning.
    I now would like to recognize members of the panel, of the 
Committee, for questioning. We will begin with Representative 
Haaland.
    Ms. Haaland. Thank you, Chairman.
    Thank you all so much for being here.
    I am going to ask this question, and if nobody can answer 
it, that is fine, but it is an issue that is important to me 
and I feel it needs to be at least mentioned today.
    Many of you today have spoken about the impacts of the oil 
industry on the Navajo Nation on top of the damage being done 
by methane. The concerning issue that was brought to my 
attention yesterday during our trip to Chaco Canyon concerning 
oil and gas development involves indigenous women.
    One of the Navajo Nation Council delegates said that 
representatives from the oil and gas companies are going door 
to door of the Native American allottees and soliciting women 
and girls for sex. This parallels the missing and murdered 
indigenous women issue that is taking place in the ``man 
camps'' with oil production in South Dakota and other states, 
and missing and murdered indigenous women is an environmental 
issue. It is an environmental injustice.
    Further highlighting this problem during my attendance at 
the Environmental Justice Roundtable that we had on Saturday 
right here in Santa Fe, Chastity Salvador from the All-Pueblo 
Council of Governors Youth Committee also brought the silent 
crisis of missing and murdered indigenous women as it relates 
to oil and gas production to my attention.
    So, my question is, can anyone on the panel today speak to 
the social impacts that the industry is having on New Mexican 
communities, like missing and murdered indigenous women?
    [No response.]
    Ms. Haaland. OK, that is fine. Therefore, my point that it 
is an issue that we don't talk about, that we don't include, to 
the detriment of our communities--it is health issues, yes. Our 
budget is based on the boom and bust of the oil industry, and 
it should not be like that. We should not have to suffer every 
time the price of oil goes down. We should have a more secure 
future for our children, and that includes protecting our most 
vulnerable citizens, our indigenous women, our indigenous 
girls, who already have suffered a tremendous amount in this 
country. I am happy that I was able to get that out there, and 
thank you for bearing with me.
    [Applause.]
    Ms. Haaland. This question will be for Ms. Webber. You 
mentioned that by the year 2030, New Mexico will have the 
third-highest older adult population. The testimony that we 
heard today has highlighted the health impacts of methane 
emissions and the lack of regulations that have been put in 
place to date. For the elderly in New Mexico, can you explain 
what health effects you have seen from these emissions, and can 
the damage that has already been done be reversed for this 
generation?
    Ms. Webber. Older adults will be especially vulnerable, 
particularly if they come with other health issues. By the time 
of 50-plus, most of us have developed some additional health 
issues. And also by the age of 50, we lose a significant 
portion of our lung capacity, so when we are exposed to ozone, 
the compromise of our lungs is even increased. If one's lungs 
are not able to get oxygen out to the rest of our organs, then 
you have issues.
    Ozone, particularly in the study that was done, showed 
mortality effects, and those went not only for lung issues but 
heart issues and just general issues. I think the fact that 
also we have high degrees of comorbidities in our population, 
particularly in New Mexico. Diabetes and obesity, also 
contribute to the issue.
    Also, we don't live in places where we have a lot of access 
necessarily to routine medical care, and in rural places this 
can be difficult to secure.
    Ms. Haaland. Thank you, Chairman, and I yield back.
    Mr. Lowenthal. I now recognize Representative Lujan for 5 
minutes of questioning.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. O'Neill, research shows that the methane leak detection 
and repair industry supports good-quality and high-paying jobs. 
The argument that capturing methane kills jobs just doesn't add 
up to me. So, the question I have for you is, in your opinion, 
when states develop strong methane regulations, will they see 
job growth and increased economic opportunity?
    Mr. O'Neill. From our experience in talking with people in 
the industry related to this, there are multiple levels of job 
growth that are initiated with this technology and regulations 
supporting optical gas imaging and leak detection and repair. 
Those can include, through the oil and gas companies, organic 
jobs that were not available to be able to detect emissions 
with the Leak Detection and Repair, or LiDAR, program. But 
there are a lot of secondary benefits to the utilization of the 
technology to find those missing or hidden leaks. You have the 
capability of hiring numerous tradesmen to be able to go fix 
leaks that would never have been fixed, to be able to stop the 
emissions into the atmosphere, and it turns into almost a bit 
of a trickle-down effect, that as they continually do this, 
they re-inspect the equipment, and being able to go out there 
and hire in multiple different avenues through the industry.
    Mr. Lujan. Well, it was apparent yesterday as we were 
looking through the camera that it was not just through the 
stacks and the vents that we saw emissions coming out. When we 
looked at the older equipment as well, you saw it everywhere. 
Someone suggested that those repairs were being done with duct 
tape; right, Congresswoman Haaland?
    Ms. Haaland. Yes, yes.
    Mr. Lujan. It is a travesty, what is happening. So, that is 
why I asked the question.
    Dr. Lyon, you shared with us that there were 16 research 
studies specific to methane that the Environmental Defense Fund 
has conducted recently. Is that correct?
    Dr. Lyon. Yes. We partnered with many other universities, 
and with oil and gas companies, to study methane emissions 
across the supply chain.
    Mr. Lujan. Would you be able to produce those studies to 
the Committee, with unanimous consent to submit them into the 
record, Mr. Chairman?
    Mr. Lowenthal. Without objection.
    Mr. Lujan. Mr. Jimenez, I have a question that I want to 
get to you, but first I wanted to ask Ms. Webber a question.
    While I very much understand that we are here to talk about 
methane emissions, Ms. Webber, you have expertise to talk about 
an important issue to us as well, and that is the Radiation 
Exposure Compensation Act. Can you talk to me about the 
importance of a deadline that we need to extend where the 
current program would expire in 2022? And then also, would you 
feel it would benefit from passing RECA and including New 
Mexico and downwind status? Even though the first bomb went off 
here, the open-pit mine that Congresswoman Haaland described, 
the uranium miner exposure, New Mexico's counties were not 
included in downwind protection, unlike three other states. Can 
you briefly touch on that?
    Ms. Webber. Yes, and it is a very important issue. I think 
both the extension and adding New Mexico as an amended state to 
include it would make a tremendous difference in our state. The 
downwinders would have access to life-saving medical care, and 
that would be true for miners after 1971, who would also be 
included in the RECA.
    RECA is a very rich program. If you are not familiar with 
it, Federal funds have been used to give you great medical care 
if you fall within the 21 cancers that are connected to 
radiation exposure. Right now, these have been covered by New 
Mexico, the state of New Mexico, and in the Medicaid program. 
So, if we are able to free up the money that is going into the 
Medicaid program for other people and for other uses, it also 
could be an economic trigger. We saw that in Nevada, because as 
people come in and they have money, they are able to use it on 
24-hour nursing care, they are able to use it on direct care in 
the home, things that our Medicaid program cannot provide 
easily. It would just be a win-win for New Mexico.
    Mr. Lujan. I will submit my question in writing.
    The liability that currently exists with the Federal 
Government is that these people are not covered. So, a pay-for, 
not only will it achieve savings with Medicaid and Medicare, we 
will see that liability paid off. I appreciate that.
    I just want to remind the Committee as my time expires, the 
spill that took place in Church Rock back in 1979, the tailing 
Superfund site that still exists, the mine that Chairwoman 
Haaland described, the Laguna Superfund site, the first atomic 
explosion at the Trinity site, none of these communities or 
counties are included with downwind protection. So, I 
appreciate your testimony very much, and I yield back.
    Mr. Lowenthal. Thank you.
    I now recognize Chairman Grijalva for 5 minutes.
    Mr. Grijalva. Thank you very much.
    I have a question for each of the panelists, Mr. Chairman, 
having to do with reaction from people opposed to the point of 
view or critics of your testimony. Ms. Webber, critics say that 
you can't say for sure that ozone exposure causes these very 
serious negative health impacts. How do you respond to that? 
That is always the response: ``Well, we can't know for sure.''
    Ms. Webber. I know that that argument is made for climate 
change. It is very hard to make it for ozone because there are 
more than 50 years of studies, and they have been done by 
government, by private agencies. They are message studies, like 
the Medicare study. I think it is very hard to disprove the 
thousands of studies that have actually been done on ozone, so 
ozone and the connections to health are very clear.
    Mr. Grijalva. Thank you.
    Dr. Lyon, criticizing your most recent study on methane 
emissions in New Mexico, Robert McIntyre, a spokesman for the 
New Mexico Oil and Gas Association, said your work was 
conducted to advance an agenda seeking stricter state 
regulatory requirements on drillers and should not be trusted. 
How do you respond to that criticism?
    Dr. Lyon. First, EDF is an environmental advocacy group, so 
we do have an agenda in this context, which is to reduce 
methane emissions through practical solutions, including 
regulations. But we are also a science-based organization, and 
we take that very seriously. We were founded by scientists. We 
have dozens of scientists on staff, so we focus on science-
driven policy, making sure we understand what is actually 
happening so that policy can have the most effective emissions 
reductions.
    Mr. Grijalva. I think empirical fact somehow, both for Ms. 
Webber and Dr. Lyon, should drive the discussion at this point.
    Mr. Jimenez, those in the oil and gas industry often say 
that more aggressive methane regulations will drive business 
out of the state by making it unprofitable to operate in New 
Mexico. How do you respond to that argument?
    Mr. Jimenez. Mr. Chairman, Chairman Grijalva, two things. 
One, as background, I began doing estimates of oil and gas 
impacts on New Mexico in 1986 when I started my career here in 
state government. What we have seen overwhelmingly is what 
drives a company's decision to drill or not to drill is price, 
pure and simple. We have also seen more recently that 
regulating methane release, like in Colorado, has virtually no 
impact on the industry's ability to develop the resources that 
they want to develop.
    So, we essentially say that we would rebut that notion by 
looking at our neighbors across the border in Colorado, number 
1. And number 2, we would say that a long history of oil and 
gas development in this country proves that really it is a 
price-driven industry much more than a regulatory-driven 
industry.
    Mr. Grijalva. Thank you.
    Mr. O'Neill, you said something that you partly dealt with 
in your statement, and that has to do with critics saying that 
methane regulations on the oil and gas industry, they say that 
the technology that is needed to identify leaks and other forms 
of emissions are too expensive, not reliable, and hurt 
business.
    Mr. O'Neill. Thank you for the question. Even the operators 
that we talk to that utilize this, some of them have given us, 
and there are multiple reports that are in the written 
testimony, on the utilization of optical gas imaging as a 
financial benefit to the operator themselves, not to mention 
the economic impact that it would have.
    There are other solutions of optical gas imaging outside of 
having to solely purchase the asset. There are a number of 
organizations in the market in the United States that provide 
this solution and provide leak detection and repair at a lower 
cost than having to full-out purchase a single asset of an 
optical gas imaging system, as well as FLIR does offer this 
technology as a short-term solution in a rental opportunity, as 
needed, to be able to address those markets.
    Mr. Grijalva. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lowenthal. Thank you.
    Ms. Webber, in both your oral testimony and in your written 
testimony, and really in responses to Representative Haaland, 
you really talked about how in a national study of 61 million 
Medicare patients there was a significant association between 
ozone exposure and mortality. This is the part that gets me 
that I really want to ask you about--with impacts that are 
strongest in minority and low socioeconomic communities. Can 
you explain why these communities would suffer the most from 
ozone pollution?
    Ms. Webber. First of all, many of our aging population 
already find themselves in low economic status. That is just a 
reality. In New Mexico, the minority population is the 
majority. So, our New Mexico reality really resonates.
    But for people who do not have access--again, rural people 
do not have access to hospitals the way people in urban areas 
do, and even in urban areas that can be problematic. Again, 
older adults who are low economic status may not have things 
that would help them with the environment, like having a fan or 
air conditioning, or they may be saving because of their 
financial reality, not turning on the air conditioner unless it 
is really, really bad. I mean, some people are really pinching 
pennies, particularly if you get into the population where 
people have to pay co-pays with Medicare. It can be really 
expensive if you have to choose between your inhaler and your 
insulin.
    So, there are a lot of reasons why the burden is heavier on 
that community.
    Mr. Lowenthal. Thank you.
    Dr. Lyon, given all your research and work studying methane 
emissions from the oil and gas sectors, what questions do you 
still have, and what future work do you plan on conducting in 
these areas?
    Dr. Lyon. I think one of the biggest research questions is 
what is the cause of the highest emitting sources. A consistent 
finding has been that the top 5 to 10 percent highest emitting 
sites and sources contribute the majority of emissions, and the 
identity of these sites can change with time. So, it is really 
important to understand what is causing these high emissions. 
Is it some equipment malfunction? Maybe it was poor site design 
or human error. I think if we figure out, when we find these 
high emitters, what caused it, do a cause analysis, it will 
help minimize the occurrence of emissions and help the 
companies improve their operations.
    I also want to mention the Permian Basin, there is a lot of 
research that needs to be done. Ours is really the first work, 
and it is showing that the emissions are high, but we have a 
very conservatively low estimate. So, I think we need to have a 
lot of other data, and it will most likely show that emissions 
are even higher.
    Mr. Lowenthal. Thank you. We have heard over and over again 
that there has been a low estimate of what the real public 
health and dangers really are.
    Mr. Jimenez, those in the oil and gas industry often say 
that more aggressive methane regulations will drive businesses 
out of the state by making it unprofitable to operate in New 
Mexico. How do you respond to this argument?
    Mr. Jimenez. Mr. Chairman, thank you for that question. I 
would say two things, essentially. One is that we have seen--I 
in particular have seen over the past 30 years, in the time 
that I have been doing this work--that what really drives a 
company's decision to drill or not to drill is the price of oil 
or natural gas. That is overwhelmingly the most important 
factor, number 1.
    Number 2, I would also reiterate what we heard earlier 
today, and that is that when a state like Colorado implements 
stricter regulations, it really does not have that kind of 
impact as the industry protested it was going to have.
    So, I think that those claims are really not founded on 
factual information.
    Mr. Lowenthal. Thank you.
    Finally, Mr. O'Neill, you have been researching and 
studying methane emissions in the oil and gas sector. We have 
all heard of some of these studies. The question is, do you 
agree with the statement that almost all emissions can be 
reduced with cost-effective solutions, technological solutions?
    Mr. O'Neill. I think the word ``all'' thrown in there may 
make it a little more challenging, but I would say the 
majority, almost all. As Dr. Lyon mentioned, the research that 
has been out there through EDF and many other organizations has 
concluded almost whole-heartedly that the majority of the 
emissions that we have from the oil and gas industry today come 
from a very small minority of the components that would be 
failing or inoperable or operating incorrectly.
    It is my opinion that almost all of these emissions could 
be solved, and not only could they be solved, a lot of them 
could probably be solved at a net positive financial gain for 
the operators in utilizing this technology effectively and 
reducing emissions, and therefore keeping their profits and 
their assets in the pipeline and, again, being better 
environmental stewards.
    I think that in the last 5 years or so, we have seen an 
enormous global change in some of the largest operators in 
trying to move down this road to be better environmental 
stewards with organizations like the Oil and Gas Climate 
Initiative and a number of other organizations that are 
conglomerates of oil and gas organizations.
    I think it is proof that utilizing the right technology to 
be able to reduce emissions is going to help them be 
financially beneficial as well as better environmental 
stewards.
    Mr. Lujan. Would the Chairman yield to me?
    Mr. Lowenthal. Yes.
    Mr. Lujan. You said that most of these come from components 
that fail. Is that correct?
    Mr. O'Neill. They could be failing components, as Dr. Lyon 
said. They could be poorly engineered. It could be human error 
and they were installed incorrectly. There are a number of 
sources. But failing components in leak detection and repair, 
in that industry, or at least that technology, failing 
components is a large piece of that.
    Mr. Lujan. Is the exception to that except when they 
intentionally vent?
    Mr. O'Neill. There are components out there in the industry 
today that are manufactured and designed to intentionally vent. 
I know that many in the industry are looking into that, and I 
do not have the technological answer to things like pneumatic 
controllers that just by design and operation do have a venting 
piece to their operation, to how they work.
    Mr. Lujan. Mr. Chairman, I just want to make sure that we 
have both components that are failing and where there is 
intentional venting that is taking place. I yield back.
    Mr. Lowenthal. I would like to thank all the witnesses.
    This brings us to the conclusion of this panel, but I would 
like to thank all the witnesses that we have had on today's 
four panels for their testimony and for participating with us.
    The last 3 days--I speak for the Committee--have been very 
powerful both personally to each of us, and also educationally. 
We bring back to Washington many ideas and a direction which we 
need to go and legislation that we need to support that will 
have a direct impact upon the public health of our citizens, 
and especially here in New Mexico.
    We want to thank the people of New Mexico, and also the 
tribal leaders, for educating us and for being such wonderful 
hosts, and also for their great concern in terms of the 
protection of sacred sites and the protection of our citizens' 
public health.
    With that, if there is no further business, and hearing 
none, without objection, this Committee is adjourned. Thank 
you.
    [Applause.]

    [Whereupon, at 2 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                   ALL PUEBLO COUNCIL OF GOVERNORS,
                                            Albuquerque, NM

                                                      April 3, 2019

VIA EMAIL

Tara Sweeney
Assistant Secretary--Indian Affairs
Department of the Interior
1849 C Street, N.W.
MS-4660-M1B
Washington. D.C. 20240

Re: APCG Update on Chaco Canyon Related Issues

    Dear Ms. Sweeney:

    Thank you for taking the time to discuss with me issues related to 
Chaco Canyon at the 2019 Tribal Self-Governance Conference. As 
promised. here is a summary of issues related to oil and gas 
development affecting Chaco Canyon.
I. Background
    The All Pueblo Council of Governors (APCG) is comprised of the New 
Mexico Pueblos of Acoma, Cochiti, Isleta, Jemez, Laguna, Nambe, Ohkay 
Owingeh, Picuris, Pojoaque, San Felipe, San Ildefonso, Sandia, Santa 
Ana, Santa Clara. Santo Domingo, Taos, Tesuque, Zia, and Zuni, and one 
Pueblo in Texas, Ysleta Del Sur.
    APCG and individual Pueblos, have continuously voiced their 
concerns for the protection of Chaco Canyon, and the Greater Chaco 
Region. The Greater Chaco Region describes the vast archaeological, 
cultural, and natural Region(s) emanating from Chaco Canyon throughout 
the Four Corners Region to the existing Pueblos of today. Much of the 
Region has not been surveyed by the BLM. Existing surveys have not 
identified most of our cultural resources or traditional cultural 
properties (TCPs) that may be eligible historic properties under the 
National Historic Preservation Act (NHPA). Federal agencies typically 
reach out to the Navajo Nation, but not to the Pueblos, and have 
utterly failed to incorporate Pueblo ethnography into their studies.
    APCG is concerned that the BLM is failing in its Section 106 duties 
under the NHPA (and through the National Environmental Policy Act 
review process) to identify and evaluate potential impact prior to 
selling leases for oil and gas development. We are also concerned that 
the BLM is not engaging in truly meaningful consultation, a necessary 
component of the federal trust responsibility to Indian tribes, with 
regard to how it should avoid or mitigate damage to our cultural 
resources.
2. Oil & Gas Lease Sales
    APCG and individual Pueblos have protested the quarterly lease 
sales of parcels nominated by the BLM Farmington Field Office (FFO) and 
the Rio Puerco Field Office (RPFO) in the Greater Chaco Region.
    Beginning in March 2018, APCG and the Pueblos protested the 
nomination of parcels in the Greater Chaco Region, some of which come 
within ten miles of the Chaco Culture National Historical Park (CCNHP), 
for the reasons stated in paragraph 1, above. Pueblo representatives 
insisted on site visitations to view the parcels in order to determine 
the likelihood of the presence of their respective cultural resources. 
In the single sample field investigation Pueblo representatives, like 
those from the Pueblo of Acoma, witnessed archaeological features that 
they interpreted as cultural resources, with some resources having not 
been accounted for by archaeologists. Subsequently, the Department of 
the Interior chose to defer all leases in the BLM FFO due to concerns 
about the adequacy of its cultural resource analysis.\1\
---------------------------------------------------------------------------
    \1\ See BLM's Press Release and statement on its March 2018 
deferral: https://www.blm.gov/ press-release/blm-defers-oil-and-gas-
lease-sale-parcels-new-mexico.
---------------------------------------------------------------------------
    In December 2018, the BLM FFO and the BLM RPFO nominated additional 
parcels in Greater Chaco Region, with the BLM FFO having parcels within 
ten miles of the CCNHP. Again, APCG and individual Pueblos, protested 
for the same reasons stated above. No sample field investigations were 
offered, despite individual Pueblo requests and offers to provide 
Pueblo representatives to go into the field to assist the BLM in 
identifying critical cultural resources. As a result, the BLM FFO 
deferred all parcels, while the BLM RPFO arbitrarily sold leases for 
all its parcels. Many of the BLM FFO and BLM RPFO were in the same 
vicinity (some coming within \1/2\ mile of each other), based on the 
district boundaries.
    Most recently, the BLM FFO and the BLM RPFO nominated parcels in 
their March 2019 Lease Sale. Again, the BLM FFO nominated parcels 
within ten miles of CCNHP. Based on initial scoping comments, and 
previous concerns, the BLM FFO removed nine parcels located within 
approximately ten miles of CCNHP. However, the BLM FFO retained nearly 
22 parcels in its lease sale, many of these parcels are just outside 
ten miles of CCNHP and many are adjacent to, or nearby, parcels 
previously deferred in March and December 2018 due to deficiencies in 
the agency's cultural resource analysis. No sample field investigations 
were offered, despite individual Pueblo requests and offers to provide 
Pueblo representatives to go into the field to assist the BLM in 
identifying critical cultural resources. To APCG's knowledge, no 
additional or substantive work or consultations had occurred to correct 
or address deficiencies in the agency's data relied upon in its Section 
106 analysis. Compounding this request and any opportunity to conduct 
sample field investigations was the lapse in federal appropriations 
that foreclosed any opportunity for Section 106 consultation. The BLM 
March 2019 lease sale was not postponed commensurate with 35 days of 
the government shutdown.
    Despite APCG and individual Pueblo protests and requests for 
deferral, the BLM FFO and RPFO moved forward with sale of their leases.
    APCG has already submitted comments on the BLM FFO and RPFO June 
2019 Lease Sale. If the Section 106 analysis and deficient tribal 
consultation occurs in a similar fashion as the previous three sales, 
the APCG anticipates it will once again be forced to protest this lease 
sale.
3. BLM Farmington Field Office--Resource Management Plan Amendment
    The BLM FFO covers an area that was thought to be fully exploited 
several decades ago: over 90% of the available lands have been leased. 
Due to developments in horizontal drilling and hydraulic fracturing 
technologies, the BLM FFO in 2014 began the process of amending its 
2003 Resource Management Plan. The BLM FFO's 2003 Resource Management 
Plan did not account for this new technology, and the subsequent 
interest in development in what was perceived as previously fully 
developed, or inaccessible development areas. The BLM FFO is trying to 
complete a Resource Management Plan Amendment (RMPA) intended to guide 
land management policy for the field office over the next several 
decades. Despite this, leasing activity is still occurring while the 
RMPA is not complete, significantly prejudicing the alternatives 
proposed in the RMPA and allowing for more and more leases to be sold 
under the 2003 Resource Management Plan, despite their use of new 
technologies and development in previously unforeseen areas. APCG has 
acted in the capacity as a cooperating agency to review and comment on 
the RMPA.
4. APCG Proposed Chaco Ethnographic Study
    On September 26, 2018, a delegation consisting of leadership from 
the All Pueblo Council of Governors, Eight Northern Indian Pueblos 
Council, and the Ten Southern Pueblos Council met with key lawmakers in 
Washington, DC to discuss the ongoing threat to the Greater Chaco 
Region. They also met with officials in the Interior Department, 
including Deputy Secretary James Cason and Assistant Secretary John 
Tahshuda to discuss ongoing lease-sales of parcels likely to contain or 
affect our cultural resources in the Greater Chaco Region.
    The Department of the Interior requested the APCG to prepare a 
proposal for assisting the BLM and BIA in analyzing the impacts to 
cultural resources from the proposed BLM's December 2018 Oil and Gas 
Lease Sale in the Farmington and Rio Puerco Field Offices.
    Based on estimates of time, funding, project area and other 
factors--the APCG, through its Natural Resources Committee, developed 
two proposals and submitted these to the BLM in October 2018. The first 
proposal was for a joint Pueblo ethnographic study of the BLM FFO and 
RPFO December 2018 Lease Sales. A secondary proposal was for a joint 
Pueblo ethnographic study of the Greater Chaco Region intended to be a 
comprehensive analysis of the New Mexico portions of the Greater Chaco 
Region. This second proposal was intended to address concerns that such 
a study could lead to better planning decisions. Both studies were not 
intended to be exhaustive cultural resource inventories, but were 
designed to assist the BLM in identifying critical areas of concern to 
be avoided, and the types of cultural resources important to Pueblos 
located in the Greater Chaco Region. These two studies were modeled and 
vetted by qualified Pueblo archaeologists and ethnographers who worked 
on similar efforts locally, most notably the Mount Taylor Traditional 
Cultural Property Analysis and the Pueblo of Acoma's Limited 
Ethnographic Assessment of Chaco Canyon.
    APCG has not received a formal response, and only began discussion 
with DOI officials in February 2019. We have had two conference calls 
and one meeting since. DOI officials have said they will offer a 
counterproposal for an ethnographic study covering a discrete area of 
land tied to the area in which DOI foresees future development rather 
than the entire Greater Chaco Region. APCG representatives have 
expressed willingness to explore such a compromise, as APCG's position 
has always been focused on the protection of cultural resources where 
development is anticipated to occur. Additionally, the parties have 
discussed this smaller study as a pilot project for future studies that 
could cover larger areas or the entirety of the Greater Chaco Region.
    Unfortunately, APCG has not received essential maps to assist us 
advancing this discussion. At our last call on March 22nd, Brian Steed 
from the BLM indicated he would send maps showing DOI's area of 
interest for a study. We have not yet received this map.
    Additionally, DOI has suggested that its counter proposal of land 
could fall completely within the approximately 10-mile withdrawal area 
\2\ that that is set to be withdrawn from such development by 
legislation. This is not acceptable because that particular area is not 
where the greatest potential for leasing will occur based on known 
resources.
---------------------------------------------------------------------------
    \2\ APCG and DOI have until recently discussed a general area of 
approximately 10-miles surrounding the Park as making up the withdrawal 
area. In recent years, as part of work on the Chaco Cultural Heritage 
Area Protection Act, congressional members along with input from DOI 
and the Pueblos have created more clarity on the boundaries of the 
withdrawal area by specifying its parameters and producing an 
associated map. The Act's boundaries are now the best description of 
the withdrawal area--which has shifted slightly over time.
---------------------------------------------------------------------------
    There may be a misperception that the study of only a 10-mile area 
around CCNHP would be sufficient. But APCG takes the position that even 
for development outside this area but within the Greater Chaco Region, 
federal laws like the National Historic Preservation Act (NHPA) and the 
National Environmental Policy Act (NEPA), not to mention the federal 
trust responsibility, require rigorous identification and analysis of 
cultural resources before any steps toward oil and gas development 
occur. That Chaco Canyon and the Greater Chaco Region are widely 
understood to contain large concentrations of important cultural 
resources makes conducting these studies even more important.
    Additionally, APCG is concerned that any study proposal from DOI 
needs to be in those areas where leasing is anticipated to occur. 
However, based on BLM assessments and the location of a majority of 
lease parcels, it is clear that highly reasonable foreseeable 
development will actually occur on lands where Pueblo cultural 
resources exist and deserve protection, even though the lands are 
outside the 10-mile area. An ethnographic study of where reasonable 
foreseeable development is set to occur is critical to filling the 
information gap the BLM suffers from in its current Section 106 
analysis in its quarterly lease sales of parcels in the Greater Chaco 
Region.
5. Conclusion
    If you have any further questions, please feel free to contact 
myself or APCG's Executive Director, Alicia Ortega.

            Sincerely,

                                      J. Michael Chavarria,
                                    Governor, Santa Clara Pueblo,  
                    Vice-Chairman, All Pueblo Council of Governors.

  Methane emissions from liquids unloading and their implications for 
                  quantifying and mitigating emissions

             David Lyon, Ph.D.--Environmental Defense Fund

    Natural gas wells can accumulate water and other fluids in the 
wellbore that restrict gas flow and inhibit gas production. In 
response, operators perform ``liquids unloading'' to clear fluids and 
restore production. Wells can be unloaded manually when an operator 
temporarily switches gas flow to a storage tank instead of the 
gathering pipeline. This switch pushes liquids out the wellbore into 
the tank but also can vent gas to the atmosphere, resulting in methane 
(CH<INF>4</INF>) emissions. Some wells are equipped with plunger lift 
systems that use pressure buildup to remove liquids, but these systems 
can vent either automatically or manually if there is insufficient 
pressure to lift the plunger.

    Liquids unloading is responsible for a considerable fraction of oil 
and gas (O&G) industry CH<INF>4</INF> emissions. In their annual 
greenhouse gas inventory report, the U.S. Environmental Protection 
Agency estimates 2017 liquids unloading emissions are 117 Gg 
CH<INF>4</INF>, 1.4% of O&G supply chain CH<INF>4</INF> emissions [1]. 
There are large regional differences in liquids unloading with three 
basins accounting for 60% of reported emissions to the EPA Greenhouse 
Gas Reporting Program (GHGRP): the Arkoma (Fayetteville Shale), San 
Juan, and Appalachian (Marcellus Shale) [2]. The vast majority of 
reported emissions are estimated with EPA's engineering equations, 
which are often inaccurate for quantifying individual events, but 
previous research has reported that the method has low bias overall and 
therefore should be relatively accurate for estimating national 
emissions [3].

    Manual unloading events typically occur during working daytime 
hours since they are started and stopped by operator field staff. In 
the Fayetteville Shale, where manual unloadings are common, liquids 
unloading emissions vary by time of day with highest emissions in the 
midday [4]. Researchers were able to reconcile their bottom-up emission 
inventory with top-down aerial mass balance estimates by accounting for 
the fact that the aircraft measured emissions during this period of 
peak emissions, which should not be directly compared with the annual 
average inventory estimates [5]. There have been suggestions that 
similar temporal misalignment of measurement data could cause emissions 
to be overestimated in other basins when relying solely on top-down 
data. Although this effect is important in the Fayetteville, where over 
3% of wells unload at any one time, manual unloadings are reported to 
be much less common in other basins and therefore the impact should be 
minor [6].

    Zaimes et al. 2019, a recently published, peer-reviewed paper led 
by researchers at the U.S. Department of Energy National Energy 
Technology Laboratory, developed a bottom-up, probabilistic model to 
estimate liquids unloading emissions in 18 U.S. basins [7]. They 
determine that the GHGRP underestimates emissions by a factor of 5.4, 
which suggests total U.S. emissions are approximately 630 Gg 
CH<INF>4</INF> in 2018. The authors state that liquids unloading is an 
alternative explanation for the ``abnormal process conditions'' invoked 
in Alvarez et al. 2018 to explain the difference in emission estimates 
based on empirical, site-level data and traditional, source-level 
approaches [6]. For O&G production sites, there are 4,400 Gg 
CH<INF>4</INF> of uncategorized emissions, which means their upward 
revision for liquids unloading could only account for about 11% of 
these emissions. It is possible that this fraction is higher if there 
are systematic issues with the underlying data being used to estimate 
liquids unloading, such as inaccurately reported unloading type due to 
a currently inadequate reporting framework [7]. Given the lack of other 
alternative explanations, a larger fraction of the uncategorized 
emissions are due to other issues such as equipment malfunctions, poor 
engineering, or human error. Importantly, even intentional emission 
sources like liquids unloading often can be mitigated with cost-
effective solutions, so uncertainty over the exact source of emissions 
should not impede efforts to reduce emissions.
References
1.  https://www.epa.gov/ghgemissions/inventory-us-greenhouse-gas-
emissions-and-sinks.

2. https://ghgdata.epa.gov/ghgp/main.do#.

3. Allen, D.T., et al. (2014). Methane emissions from process equipment 
at natural gas production sites in the United States: Liquid 
unloadings. Environmental Science & Technology, 49(1), 641-648.

4. Schwietzke, S., et al. (2017). Improved mechanistic understanding of 
natural gas methane emissions from spatially resolved aircraft 
measurements. Environmental Science & Technology, 51(12), 7286-7294.

5. Vaughn, T.L., et al. (2018). Temporal variability largely explains 
top-down/bottom-up difference in methane emission estimates from a 
natural gas production region. Proceedings of the National Academy of 
Sciences, 115(46), 11712-11717.

6. Alvarez, R.A., et al. (2018). Assessment of methane emissions from 
the US oil and gas supply chain. Science, 361(6398), 186-188.

7. Zaimes, G.G., et al. (2019). Characterizing Regional Methane 
Emissions from Natural Gas Liquid Unloading. Environmental Science & 
Technology, 53(8), 4619-4629.

             David Lyon, Ph.D.--Environmental Defense Fund

                          U.S. Methane Studies
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 __
                                 

            TESTIMONY FOR THE RECORD ON PROTECTION OF CHACO

      Anna Sofaer, President, Solstice Project; Richard Friedman, 
  archaeologist & GIS Analyst; Robert Weiner, archaeologist; Phillip 
Tuwaletstiwa, former NOAA geodesist; and Petuuche Gilbert, formerly of 
                        Acoma Pueblo Land Office

                             April 12, 2019

    We are writing with concern that recent archaeological 
understandings of the broader reach of the Chaco culture of New Mexico 
are not being incorporated into public policies, nor into decisions by 
agencies responsible for Chaco's protection and preservation. This lack 
of attention to Chaco's invaluable cultural resources is particularly 
alarming at this time; leasing for development of energy resources in 
the Chaco cultural region has moved rapidly closer to Chaco Canyon in 
recent years; grazing and ongoing erosion are also erasing the legacy 
of the Chaco culture. Approaching Chaco today you are confronted with 
fracking rigs and flares, creating noise, air, and groundwater 
pollution.

    We propose several actions to protect Chaco's sacred landscape:

    <bullet> Enactment of current bill S. 1079, to establish a 10 mile 
            protective ``buffer zone'' around fragile Chacoan ruins, 
            roads and shrines;

    <bullet> Analysis of LiDAR data of the buffer zone recorded by the 
            Bureau of Land Management (BLM), to inform future 
            protection efforts and expand understanding of the Chacoans 
            landscape relationships;

    <bullet> Increased support to the National Park Service's 
            infrastructure to protect and preserve Chaco cultural 
            resources.
    Background: 1,000 to 1,200 years ago, the Chaco people developed a 
complex culture of monumental ritual architecture and elaborately 
designed astronomical works. The Sun Dagger site on top of Fajada Butte 
in Chaco Canyon, rediscovered by the Solstice Project, precisely 
records the solar and lunar cycles; and the alignments of numerous 
Great Houses also commemorate these cycles. The Sun Dagger site has 
been called ``an American Stonehenge'' by Science 80, a publication of 
the Association for the Advancement of Science. The remarkably 
beautiful and intricately designed ruins of Chaco Canyon and the 
extensive network of Chaco's ancient roads have been designated as an 
UNESCO World Heritage site. Recent studies reveal that that Chaco 
Canyon was a powerful center with influence across the entire Four 
Corners region--nearly 40,000 square miles--that holds more than 150 
Chaco-styled Great Houses.

    Our research group, the Solstice Project, www.solsticeproject.org, 
has brought awareness to the public and the scholarly community of the 
Chaco culture's remarkable pattern of astronomical alignments and to 
the profound significance of their elaborately engineered `roads.' The 
Chaco culture invested enormous resources of labor and planning to 
create these corridors of 30 foot width in remarkably straight 
trajectories across the barren desert--altogether hundreds of miles of 
them. We have shown that many of these `roads' appear to have been 
built as ``cosmographic expressions'' connecting the Chaco Great Houses 
and shrines to astronomically significant directions and special 
features of the landscape. Extensive evidence that the roads held 
spiritual meaning for the Chaco people is seen in the abundant ceramic 
offerings left in the course of the roads and at their associated 
shrines. Many roads extend far beyond the protective boundaries of the 
National Park. This comprehensive, sacred landscape web must be 
protected. If mitigating measures are not taken, destructive impacts on 
the fragile Chaco roads will worsen over time.

    Recent energy development has included modern roads crossing the 
ancient Great North Road. Studies have shown that the Chacoans created 
this elaborate corridor of a 35 mile course from Chaco Canyon to Kutz 
Canyon to connect their ceremonial center to the direction north. For 
descendant Puebloan peoples it holds profound spiritual significance; 
as Paul Pino, from the Pueblo of Laguna, says in The Mystery of Chaco 
Canyon (2000): ``To the north is where our point of origin begins, the 
point where we came into this world. In essence, that north line, that 
north road connects us back to the creator.''

    In concern for the preservation of the Chacoans' invaluable road 
features we conducted LiDAR (aerial LASER scanning technology) of the 
Great North Road. These recordings showed remarkable effectiveness of 
LiDAR technology to precisely document the subtle and fragile Chaco 
`roads.' There is an urgent need to apply this technology in the face 
of the current harmful impacts--especially to those sites and `roads' 
located beyond the National Park Service boundaries. (See our specific 
proposal here, www.solsticeproject.org/Preserving_Chaco/The_LiDAR, and 
in our addendum to this memo).

    We recommend the following measures to improve protection of 
Chaco's cultural resources: The currently proposed Chaco Cultural 
Heritage Area Protection Act, S. 1079 should be brought to this 
Committee and the full House of Representatives for review and 
approval. The bill states that the Bureau of Land Management (BLM) must 
cease permitting new oil and gas leases and wells within the Chaco 
Cultural Heritage Withdrawal Area, a boundary 10 miles beyond the 
current Chaco Culture National Historical Park boundaries. Recognizing 
the broad geographic expanse of the Chaco sites and roads, the Solstice 
Project suggests that this withdrawal area could well be extended to 
include a 20-mile protective buffer zone around the Park, and 10-mile 
buffer zones around outlying Chaco Great Houses.

    In creating its plan in 2014 for expanded energy development in the 
San Juan Basin, the Bureau of Land Management (BLM) committed to 
develop a Resource and Management Plan Amendment (RMPA) to govern all 
future oil and gas leases and to provide mitigating measures for 
cultural resources. Without fulfilling their mandate to complete this 
crucial document, the BLM has sold in the past 5 years, and plans to 
sell, numerous leases for oil and gas development in the Chaco region. 
Already covering about 90% of the leasable land north of Chaco Canyon, 
this energy development is advancing closer and closer to Chaco Canyon, 
whilst conservation groups, archaeologists, and descendant Pueblo and 
Navajo people have expressed grave concerns over its destructive 
impacts. No further energy development in the Chaco region should be 
activated before the RMPA is completed, reviewed, and approved by these 
parties.
    We suggest in the attached addendum this critical action for 
Chaco's protection: analysis of LiDAR recordings inside the ten mile 
``buffer zone'' that were conducted by the BLM and the USGS. Support to 
this effort would follow the responsible precedent of the BLM's study 
in the 1980s of the region to the north of Chaco Canyon when it was 
threatened with possible coal development. This excellent study 
revealed the elaborate 35 mile Great North Road and the profound 
significance of roads to the ancient Chacoans. Much of the area 
adjoining Great Houses in the ``buffer zone'' is only beginning to be 
analyzed with LiDAR; this data requires much further evaluation, along 
with on-the-ground truthing by experienced archaeologists. These 
efforts should proceed and their findings appropriately deter further 
leasing. (See addendum attached to this memo, as well as https://
solsticeproject.org/images/pdfs/84-
FriedmanEtAl2017_ChacoRoadsLiDAR_FirstView.pdf)

    We also urge mitigating actions by the BLM to prevent and repair 
the problems of public health hazards in surrounding communities 
already encroached upon by intense energy development. We further 
support a shift in the region's economy to job-creating, sustainable 
energy enterprises.

    We urge greater resources be provided to the National Park Service 
to support a vital visitor facility in Chaco Canyon and to have fuller 
staffing for maintenance of its fragile ruins. A World Heritage site 
with Chaco's remarkable international recognition merits this 
dedication of resources. It is shocking that at this time, the Park 
apparently due to limited staff is closed to visitors at 4:00 pm. (The 
current closing policy puts visitors' safety at risk and makes the 
ruins vulnerable to vandalism.) Professional archaeologists and 
naturalists who were once on the staff and residents in Chaco Canyon, 
along with the superintendent, are no longer present. Protection and 
care for this unique heritage of Ancient America is vital to our 
understanding and appreciation of one of the great cultural treasures 
of our past.

                                 *****

 ADDENDUM to Solstice Project Testimony 12 April 2019 on Protection of 
                        Chaco Cultural Resources

                LiDAR Proposal to Document Chaco `Roads'

Proposal for Analysis of LiDAR recordings conducted by the Bureau of 
        Land Management in 2014 across the Chaco Culture National 
        Historical Park and the ten mile ``buffer zone'' surrounding 
        the park

    We prioritize this analysis to focus on Great House complexes that 
likely have extensive `roads,' shrines, and landscape relationships 
outside the National Park boundaries, and that are vulnerable to 
impacts of energy development in surroundings areas. Without full 
knowledge of the wider relationships of these complexes, their roads 
and connections to outlying sites and landforms are at risk of damage 
and destruction. Each of these Great House complexes is a major node of 
the Chaco system and likely to have webs of extensive connections to 
the wider Chaco world.

    Background: We reported in a recent paper (see link) ``on the 
results of the first and highly effective use of airborne Light 
Detection and Ranging (LiDAR) technology to document Chaco roads--
linear surface constructions found in association with ritual or public 
architecture of the ancient culture that inhabited 38,610 sq. miles of 
the Four Corners region between approximately AD 600 and 1300 . . . The 
great extent of these features--expressed in hundreds of miles of 
constructed segments, with typical widths of 30 feet and rigorously 
straight alignments in some instances up to 35 miles--demonstrate a 
large-scale investment of labor and planning by the Chacoan people. 
However, roads have received less attention than other topics within 
Chaco research due to several factors: their ephemeral surface 
expressions requiring specialized training for their identification, 
remote locations, and frequent extension beyond the boundaries of site-
based archaeological studies. The potential for detecting Chaco roads 
diminishes each passing year, as sedimentation, erosion, deposition, 
and increased encroachment of modern society, including energy 
development, rapidly remove the visible traces of these cultural 
resources.''

    We now propose analyzing the 2014 LiDAR recordings by the BLM of 
areas surrounding these key Great Houses located in the inner area of 
the Chaco region and within the buffer zone; Pueblo Pintado, Penasco 
Blanco, Kin Bineola, and Kin Klizhin. In recognition of the monumental 
stature of these particular Great Houses, they received their own 
National Park Service designations--with boundaries closely surrounding 
the ruins. However these protective boundaries were created without our 
current knowledge of the extensive road and landscape relationships of 
typical Great House complexes. Therefore the surrounding road and 
shrine features of these four key buildings are not protected under 
National Park Service status; rather they are located on a 
``checkerboard'' landscape under the jurisdiction of other federal 
agencies (BLM or BIA), or under tribal, private, or state ownerships. 
These owners might not highly prioritize cultural protection or 
archaeological survey. At this time there is no guarantee that the 
required archaeological surveys of sites sold for development within 
this region will include the broader look at significant landscape 
relationships of Great Houses. However, analysis of LiDAR can provide 
this information.

    This LiDAR analysis should begin with two Great Houses, Pueblo 
Pintado and Penasco Blanco, that are near potential energy development. 
Kin Bineola and Kin Klizhin are also within the 10-mile buffer and 
should be studied because their roads, like most Chaco `roads,' are 
suffering from grazing and erosion, as well as potential energy 
development nearby. In addition, the road relationships of these noted 
Great House complexes extend far beyond not only the NPS boundaries, 
but possibly in some cases beyond the boundaries of the buffer zone. 
Ground verification is also essential to follow the LiDAR analysis of 
these sites. The data and analysis of this project must be shared with 
parties concerned with potential development and changes in these 
areas.

    The Solstice Project has advocated for protection of the Greater 
Chaco Landscape since our founding in 1978, and we recognize threats to 
Chaco's ancient roads as the most urgent issue at this time. Since the 
buffer zone can create an area of protection for these sites, we 
strongly urge it to be legislated as a boundary of permanent 
protection. The massive Great Houses complexes and road relationships 
suggest profound insights into the concerns and values of a remarkable 
ancient American civilization. They are critical to research of the 
Chaco culture and public education about this underappreciated 
civilization of the ancient United States.

                                 ______
                                 

                           WRITTEN TESTIMONY

 Field Hearing, Oil and Gas Development: Impacts on Air Pollution and 
                              Sacred Sites

    Jeremy Nichols, Climate and Energy Program Director--WildEarth 
                               Guardians

                              May 6, 2019

    Chairman Lowenthal and distinguished Members of the Committee, 
thank you for the opportunity to provide written testimony in 
conjunction with your April 15, 2019 Field Hearing on the Impacts of 
Oil and Gas Development to Air Quality and Sacred Sites. Thank you as 
well for taking the time to visit Chaco Culture National Historical 
Park and the surrounding Greater Chaco region on April 14, 2019. I 
applaud your commitment to learning first-hand about the issues facing 
this beleaguered cultural landscape and dedicating to exploring 
solutions to ensure meaningful protections for this area.

    I am the Climate and Energy Program Director for WildEarth 
Guardians, a nonprofit environmental advocacy group dedicated to 
protecting the wildlife, wild places, wild rivers, and health of the 
American West. We are based in Santa Fe, New Mexico but have offices in 
four other western states. Our organization has been deeply involved in 
efforts to defend the Greater Chaco region from unchecked oil and gas 
development. Together with Navajo, Pueblo Tribal allies, environmental 
partners, and cultural advocates, we have helped to galvanize the 
creation of the Greater Chaco/Frack Off Chaco Coalition, a 
collaborative effort to bring about greater and more permanent 
protection for the Chaco landscape, and to confront the negative health 
and environmental consequences of hydraulic fracturing, or fracking, to 
the region.

    I'd like to detail for your record seven key problems facing the 
Greater Chaco region and five key solutions that WildEarth Guardians 
believes would go a tremendous distance in achieving the goal of 
safeguarding this sacred landscape. I'll explain more below, but in 
sum, here's what we're seeing:
1. Problem: Fundamental Disregard of Tribal Sovereignty, Indigenous 
        Rights, and Environmental Justice
    Solution: The Interior Department and Bureau of Land Management are 
disregarding calls from the Navajo Nation and Pueblo Governors to 
restrain fracking in the Greater Chaco region, reflect a fundamental 
misconception of the relationship between the U.S. Government and 
Tribal sovereigns. The agencies must be directed to assure their land 
and resource management actions are accountable to Tribal leaders and 
that they prioritize the recognition and accommodation of sovereignty 
and Indigenous rights. What's more, the agencies must be directed to 
enforce standards for environmental justice that meaningfully limit 
adverse environmental impacts in Indigenous communities.
2. Problem: A Lack of Accountability to Planning
    Solution: Resource management plans required by the Federal Land 
Policy and Management Act must be enforced and taken seriously. The 
U.S. Interior Department and Bureau of Land Management must be directed 
to ensure that as plans are revised or amended to account for new oil 
and gas development, that new oil and gas development must be 
prohibited unless and until plans are updated.
3. Problem: A Need for Landscape-Level Cultural Considerations
    Solution: Cultural resource management focuses on individual 
archaeological sites, often overlooking historical realities of 
landscape-level ties, sacredness, and a need to ensure regional 
consistency in safeguarding Indigenous heritage. For landscapes like 
Greater Chaco, landscape-level cultural planning is necessary to ensure 
that its integrity is fully protected for generations to come. The 
Interior Department and Bureau of Land Management must be directed to 
undertake a landscape-level cultural resource planning process that 
assures full protection of the Greater Chaco region's cultural 
integrity and that is based on interagency, inter-office, and 
intercultural coordination.
4. Problem: No Consideration of Health and Communities
    Solution: In managing public lands and minerals, the Bureau of Land 
Management must safeguard public health, especially where the use of 
lands and minerals occurs in close proximity to communities. The 
Interior Department and Bureau of Land Management must be directed to 
ensure that health and community impact considerations are factored 
into planning, that the agencies develop tools to properly analyze and 
assess public health and community impacts, and that the agencies 
establish metrics to ensure its actions uphold public health and 
community health.
5. Problem: A Failure to Account for Cumulative Impacts
    Solution: The Interior Department and Bureau of Land Management 
must be directed to undertake a regional, if not national, assessment 
of the cultural, air, water, climate, and other impacts of the federal 
onshore oil and gas program. To this end, the agencies must be directed 
to prepare a programmatic environmental impact statement of the federal 
onshore oil and gas program and to institute a moratorium on new 
federal onshore oil and gas leasing pending the completion of the 
programmatic review.
6. Problem: Climate Denial
    Solution: Real climate solutions must become a goal of the Interior 
Department and Bureau of Land Management. To this end, the agencies 
must be directed to enact meaningful policies that reduce greenhouse 
gas emissions from all stages of oil and gas production and 
consumption, and that set real limits on development that help assure a 
gradual reduction and ultimate elimination of all climate pollution 
from federal onshore oil and gas development.
7. Problem: A Refusal to Help Advance Economic Alternatives
    Solution: The Interior Department and Bureau of Land Management 
need to become leaders in advancing sustainable and prosperous 
economies. To this end, the agencies must be directed to use their 
authorities, resources, and expertise to promote economic development 
based on renewable resources, longevity, and local value. The agencies 
must be directed to prioritize a shift away from fossil fuel 
development, which is both short-term in economic impact and 
environmentally unsustainable.

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

WildEarth Guardians--Background Information from Written 
Testimony, Jeremy Nichols, Climate and Energy Program Director

Submissions for the Record by Paul Reed

    --  Recent Efforts to Research, Preserve, and Protect the 
            Greater Chaco Landscape, Archaeology Southwest 
            Research.

    --  Viewscapes and Soundscapes, by Ruth M. Van Dyke, 
            Timothy De Smet, and R. Kyle Bocinsky, (in press), 
            New Perspectives on the Greater Chaco Landscape.

    --  Chaco Landscapes: Data, Theory and Management, White 
            Paper 2016.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
